<html>
<title> - ECONOMIC SECURITY FOR WORKING WOMEN: A ROUNDTABLE DISCUSSION</title>
<body><pre>[Senate Hearing 113-837]
[From the U.S. Government Publishing Office]













                                                        S. Hrg. 113-837

      ECONOMIC SECURITY FOR WORKING WOMEN: A ROUNDTABLE DISCUSSION

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

             EXAMINING ECONOMIC SECURITY FOR WORKING WOMEN

                               __________

                              MAY 20, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
      
                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-615 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
      
   
   
   
   
   
   
      
      
      
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland         LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington              MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont          RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania    JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina          RAND PAUL, Kentucky
AL FRANKEN, Minnesota                 ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado           PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island      LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin              MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut    TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts
                        

                      Derek Miller, Staff Director
        Lauren McFerran, Deputy Staff Director and Chief Counsel
               David P. Cleary, Republican Staff Director

                                  (ii)

 


























                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, MAY 20, 2014

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     3
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................    55
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    56
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    58
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    59
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    60
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    62
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    63

                               Witnesses

Tanden, Neera, President, Center for American Progress, 
  Washington, DC.................................................     5
    Prepared statement...........................................     6
Bravo, Ellen, Executive Director, Family Values at Work, 
  Milwaukee, WI..................................................    13
    Prepared statement...........................................    14
Graves, Fatima Goss, Vice President for Education and Employment, 
  National Women's Law Center, Washington, DC....................    21
    Prepared statement...........................................    22
Legros, Armanda, Low-Wage Worker, Jamaica Estates, NY............    30
    Prepared statement...........................................    30
Traub, Amy, Senior Policy Analyst, Demos, New York, NY...........    31
    Prepared statement...........................................    33
Pelletier, Lori, Executive Secretary-Treasurer, Connecticut State 
  Federation of Labor, Rocky Hill, CT............................    41
    Prepared statement...........................................    42
Troy, Gayle E., SPHR, Human Resource Manager, Globe Manufacturing 
  Company, LLC, Pittsfield, NH...................................    44
    Prepared statement...........................................    45
Riner, Rhea Lana, President, Rhea Lana's, Inc., Conway, AR.......    51
    Prepared statement...........................................    52

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Letter from Debra L. Ness, President, on behalf of the 
      National Partnership for Women & Families..................    75
        Attachment 1.--Coalition Letter in Support of the Healthy 
          Families Act...........................................    76
        Attachment 2.--Coalition Letter in Support of the Family 
          and Medical Insurance Leave Act (FAMILY Act)...........    80
    Response to questions of Senator Harkin by:
        Ellen Bravo..............................................    89
        Rhea Lana Riner..........................................    90

                                 (iii)
    Response to questions of Senator Alexander by:
        Neera Tanden.............................................    90
        Ellen Bravo..............................................    91
        Fatima Goss Graves.......................................    92
        Amy Traub................................................    93
        Lori Pelletier...........................................    94
  

 
      ECONOMIC SECURITY FOR WORKING WOMEN: A ROUNDTABLE DISCUSSION

                              ----------                              


                         TUESDAY, MAY 20, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Alexander, Mikulski, Murray, 
Casey, Franken, Baldwin, Murphy, and Warren.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order. Today's hearing 
is on Economic Security for Working Women, and we're having 
sort of a roundtable. It doesn't look round. But if we set it 
up that way, we wouldn't have any room for the audience. So we 
decided to go ahead and set it up like a normal hearing, 
although I want it more like a roundtable discussion.
    If anyone asks a question of the group, and if you want to 
answer, just turn your name thing on edge or something like 
that so--you know, we may have a question and just throw it 
out, and whoever wants to answer it just put your name thing 
up.
    America's working women have made incredible strides in the 
workplace. As women succeed, America succeeds, and our economy 
succeeds. But huge challenges remain. Too many working women 
are stuck in poor quality and low-wage jobs living at or near 
poverty and struggling to make ends meet.
    In addition, even as women have entered the workforce, 
they're still usually the primary caregivers for children and 
elders. Yet our workplaces have not kept up with the changing 
times. Most women do not have access to the supports they need 
to be successful workers and caregivers.
    Here I'll diverge a little bit. When my wife and I, right 
after she got elected--my wife was elected before I was. She 
was elected as a district attorney in Iowa and went over to the 
courthouse. We had a child not long after that--Amy. I was here 
in Washington. I had been elected to Congress. And Ruth had to 
go--my wife had to go to the courthouse every day, of course, 
where she worked in the courthouse.
    Two things happened. The first time that she showed up 
pregnant, the judge asked her who was going to try her cases. 
Pregnant women didn't appear in courtrooms. That was forbidden. 
Anyway, she got over that, and we had Amy.
    She cleaned out a broom closet in her office to make a 
place for a crib, a little bassinet and that kind of thing, and 
took her to work with her every day and nursed. We believed 
very strongly in nursing. That raised a lot of eyebrows and a 
lot of questions in the courthouse in Nevada, IA, about someone 
bringing a baby to work and nursing--heaven forbid--when you 
come to work.
    We've often thought about that. But, of course, my wife 
could do that. She was an elected official. But we often 
thought, ``What if she worked for somebody else and tried to do 
that?'' So I often think of my wife as a trail blazer in that 
regard, because ever since then, women who work in the 
courthouse and who have children are more than welcome to bring 
their kids to work and nurse, with nursing facilities and pump 
rooms and refrigeration. That's what it ought to be like all 
over America. These are just the kinds of support systems we 
need all over America.
    As I continue on that line, pregnancy presents many 
challenges. More and more pregnant women must work throughout 
their pregnancies, and sometimes they risk losing their jobs 
despite existing legal protections, or they face problems of 
basic accommodations. Someone standing on her feet all day, 
sometimes at a minimum wage job, might need a stool to sit on 
for a little while, or maybe more frequent bathroom breaks, 
things like that.
    They are denied such accommodations, and it forces a woman 
to choose between her health and her comfort on her job. Again, 
many women working have no access to any caregiving leave, like 
maternity leave, at all. Most lack access to any kind of paid 
leave.
    Forty percent of workers still are not covered by the 
Family and Medical Leave Act. A women who gives birth or needs 
to care for a parent and has no FMLA protections can lose her 
job for missing work. Even women who are fortunate enough to be 
covered by the FMLA are often forced to return to work too 
soon, because they simply can't afford to take the unpaid leave 
that the Family and Medical Leave Act provides. I may be 
mistaken on this, but I think we're one of the few 
industrialized countries that don't have paid maternity leave.
    We have some real problems out there we need to address, 
and especially as it concerns women in the workplace. And, as I 
said, this is not just a thing where women say, ``Well, I just 
want to go to work.'' People have to work, and we have so many 
single mothers out there that have to work and care for 
children.
    It seems to me that we ought to be about trying to change 
and make accommodations to make this possible. It's not 
impossible. It's not a stretch. It doesn't cost a lot of money. 
But it makes life tolerable and it makes it possible for women 
to both be caregivers and to work.
    That's what this hearing is about. We know that there have 
been successful policies around the country to help do this, 
and the businesses that I've come across that do these things 
have more loyal workers. People tend to stay there longer, 
because they know that they'll have the ability to take leave 
for a child, either for birth or for sickness or illness.
    Today's roundtable will begin with a lot of distinguished 
panelists to tell us about the experiences of today's working 
women and what we need to do to help working women achieve more 
economic security and stability in our society.
    With that, I'll turn to Senator Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thank you, Senator Harkin. I welcome 
those of you who have come today. Mr. Chairman and Senator 
Mikulski, I've said that I used to sit down there when I was 
education secretary, and I thought the Senators played a big 
trick on the witnesses by sitting them in low chairs and all of 
us in high chairs up here to make us appear more imposing. 
We're looking forward to hearing what you have to say.
    The subject of the hearing is working women, and I think 
the more accurate way to say it is women who not only work at 
home but work outside the home. I would like to suggest that 
the two things that we should address are, No. 1, more jobs for 
women who want to work outside the home; and, No. 2, more 
flexibility for women who work outside the home, because, most 
likely, they're doing quite a bit of work at home as well.
    On the first point, without reciting the statistics, we've 
had a tough 4 or 5 years in terms of jobs. The great recession, 
unemployment rates still 6.3 percent--that's 10 million people. 
More than a third of those are longtime unemployed, many of 
them women. And the unemployment situation is worse when you 
consider that 7.3 million Americans who want to work full-time 
have had to take part-time jobs. Workforce participation is at 
the lowest rate in 35 years.
    I hope during the hearing we'll talk about ways to create 
more jobs. For example, one way to create more jobs would be to 
give the President more trade authority so we could ship more 
goods from Tennessee and Iowa and Maryland and Pennsylvania 
overseas and create more jobs at home. The President has asked 
for that, but the Democratic Majority Leader won't bring it up.
    Another way we could create more jobs is to approve the 
Keystone Pipeline. There are a whole series of proposals that 
would create an environment in the United States that would 
liberate the free enterprise system to create more jobs.
    A recent example of that was something that had a lot of 
bipartisan support. It was called the Jobs Act. It provided 
regulatory relief for new startup companies. I helped start a 
company myself one time that made its way to the NASDAQ stock 
exchange. It's a treacherous time, those first few years of a 
startup, and you don't need extra obstacles.
    What happened, according to AOL co-founder, Steve Case, was 
that the Jobs Act provided relief for companies that enabled a 
70 percent increase in initial public offerings this year. Mr. 
Case said Congress should be reducing more regulatory red tape 
and moving on to other laws to encourage business growth, like 
immigration reform.
    There are many things we could do to create more jobs. 
Sometimes the debate here in this committee and in the Congress 
is between what I would call the mandaters, those who see a 
need and say, ``Well, we can tell you what to do,'' and those 
who see a need and say, ``Well, we will empower or enable you 
to do those things.''
    Anyone who's been in business or is in business--and we'll 
hear from some today--knows that there are plenty of mandates 
already. I talked to a franchisee group that owns 20 fast food 
restaurants in this area. They employ more than 500 people. Of 
course, they start out paying 6.2 percent FICA taxes. That's 
social security and Medicare.
    Then they have a menu labeling mandate--sounds like a good 
thing, but it costs each restaurant $1,000. Those in DC have 
paid sick leave mandates--sounds like a good thing. That's a DC 
requirement. That costs them another $600,000. And with the 
implementation of the new healthcare law, they'll go from a 
healthcare cost in the company of about $100,000 to $1 million 
if they opt out and pay the penalty, and between a half million 
and a million and a half dollars if they decide to participate 
in it.
    Almost every time we impose new mandates, we run the risk 
of destroying jobs. We had a debate here and continue to have 
it--I guess we'll have it all year until election day--about 
the so-called minimum wage. We had the Congressional Budget 
Office Director Doug Elmendorf sit right there in front of us 
and say the proposal to increase the minimum wage before the 
committee would destroy 500,000 jobs. And now we are here 
talking about jobs and better jobs for women.
    Why would we want to pass something that would destroy 
500,000 jobs, especially when the CBO testimony also found that 
80 percent of the benefits would go to people above the poverty 
level? The mandaters versus the enablers and empowerers is a 
big part of our discussion. I would hope we could agree on more 
flexibility after we create more jobs.
    I mentioned the company I helped to start, which enabled 
corporate-sponsored childcare for employees. It was in the 
1980s, and it provided an opportunity for parents, to take the 
child to work and have a safe place for that child. It has 
grown and merged with its competitor and become the Bright 
Horizons Company.
    What I learned in that setting was that many women value as 
much flexibility as possible, because their days were very 
difficult. I've offered an amendment to permit employers and 
employees to voluntarily negotiate compensation and benefits 
that provide flexibility, and I've opposed proposals that would 
restrict that kind of flexibility.
    Other Senators have introduced bills to allow private 
sector employees to have the same flexibility that Federal 
employees have, when they basically swap paid time off--they 
have paid time off instead of overtime pay. I am focused and 
listening for answers on how we can create an environment that 
will produce more jobs, not fewer. My feeling is that the more 
mandates we have, the fewer jobs we'll create.
    Second, I'm looking for creative proposals that would 
permit employees and employers to agree upon more flexibility, 
especially for women who work outside the home, so that they 
can balance all of the things that they have to balance. So I 
welcome the discussion and look forward to your comments, and I 
thank the chairman for the hearing.
    The Chairman. Thank you very much, Senator Alexander.
    Now I'll introduce our panel. First, let me say that all of 
your statements will be made a part of the record in their 
entirety. What we'll do is we'll go from my left to right, and 
if you could just make a 2-minute statement or something like 
that--I know that's short, but we'd rather get into a 
discussion with you. And then rather than us having 5-minute 
rounds, what I'm going to do is recognize everyone to ask one 
question, and then we'll just see how many rounds we can go 
asking questions at that point in time.
    On my left is Neera Tanden, president of the Center for 
American Progress; Ellen Bravo, who is director of the Family 
Values at Work Consortium; Fatima Goss Graves, vice president 
for Education and Employment at the National Women's Law 
Center; Armanda Legros, a low-wage worker in New York City who 
was fired from her job when she was pregnant. We look forward 
to hearing from you.
    And we have Amy Traub, senior policy analyst at Demos; Lori 
Pelletier, executive secretary-treasurer, Connecticut State 
Federation of Labor; Gayle E. Troy, human resource manager, 
Globe Manufacturing Company; Rhea Lana Riner, Rhea Lana's, 
Inc., of Conway, AR. So thank you all for being here and for 
your participation.
    Like I said, we'll just start with Ms. Tanden. If you could 
sum up in a couple of minutes the main points you want to make, 
then we'll open it for discussion. Please proceed.

   STATEMENT OF NEERA TANDEN, PRESIDENT, CENTER FOR AMERICAN 
                    PROGRESS, WASHINGTON, DC

    Ms. Tanden. Thank you, Chairman Harkin and Ranking Member 
Alexander, for the invitation to testify today. My name is 
Neera Tanden. I am president of the Center for American 
Progress.
    As Chairman Harkin said, the American workforce has changed 
dramatically. While it used to be rare for mothers to work 
outside the home, today women make up nearly half the 
workforce, and more than 6 in 10 women are breadwinners or co-
breadwinners. These are enormous demographic shifts, and, 
frankly, our workplace policies need to keep up with them.
    Economic progress depends on public policies that 
acknowledge the changes in our workforce. The national policy 
has been very slow to keep up. In two-parent households, women 
are often the primary caregiver in their families. Yet women, 
particularly low-
income women and women of color, go to work each day without 
the protections they need to balance work and family 
responsibilities or ensure they are paid fairly. There are 
mothers today who face the terrible choice of sending a sick 
child to school because they can't pay their rent if they lose 
out on simply a day's work.
    I believe these policies are family friendly policies, 
because they allow mothers and fathers to be good parents and 
good workers. Among the public policy solutions that would 
empower women to meet their full potential are paid sick days, 
paid family leave, pay equity, a higher minimum wage, 
affordable early childcare, and universal Pre-K. I would agree 
that jobs are a significant issue, and I would remind the 
committee that there was a jobs package that really focused on 
the teaching profession, which is, as we know, 
disproportionately held by women, and that package, 
unfortunately, did not pass the Senate. But that would have 
been a jobs package that really, really helped women.
    I believe we need to have policies that strengthen our 
families, our workplaces, our economy, and our Nation, and that 
these policies can do so. We see in California a paid leave 
policy that helps families and does not hurt the bottom line. 
Businesses have reported that they support those policies. 
These are policies that help companies help workers and help 
our economy.
    Thank you all very much.
    [The prepared statement of Ms. Tanden follows:]
                   Prepared Statement of Neera Tanden
    Thank you Chairman Harkin, Ranking Member Alexander, and members of 
the committee for the invitation to testify today.
    My name is Neera Tanden, and I am president of the Center for 
American Progress. CAP is an independent, nonpartisan educational 
institute dedicated to improving the lives of all Americans through 
progressive ideas and action. At CAP, we believe that a robust and 
growing middle class is vitally important to growing a stronger, more 
resilient economy and a more competitive future. To do this, we know 
that we need workplaces that make full use of our Nation's talent to 
ensure that every worker--man or woman--has a fair chance to succeed.
                      introduction and background
    If we want a thriving economy that works for all Americans, 
strengthens our businesses, and makes our Nation more competitive on 
the global stage, we have to start with a clear understanding of 
today's workplace and the changing workforce. The reality is that 
workplaces--and the people who work in them--are changing. Fifty years 
after groundbreaking laws like the Equal Pay Act helped usher in a new 
era of opportunity for women in the workplace, more women are working 
than ever before.
    While it used to be rare for mothers to work outside the home, 
today, women make up nearly half the workforce. But this demographic 
shift has enormous implications for how our workplaces operate and for 
our overall economic growth. More than 6 in 10 women are breadwinners 
or co-breadwinners for their families, yet women, on average, continue 
to earn less than their male counterparts. This gap is even larger for 
women of color, who are more likely to be stuck in minimum-wage 
jobs.\1\
    Our workplace culture and national policy have been slow to adapt. 
Even in two-parent households, women are often the primary caregivers 
in their families, with the main responsibility for providing, 
coordinating, or securing care. And although there are clearly some 
employers who have adopted progressive policies, too many women--and 
men--continue to work in environments without the protections they need 
to balance work and family responsibilities or ensure that they are 
paid fairly for their work.
    If we want real economic progress, we need policies that respond to 
the everyday challenges facing the diverse group of women who are part 
of today's economy, particularly those women who too often get ignored.
          why women's work matters to our economic well-being
    Women's rapid entry into the workplace during the last three 
decades of the 20th century transformed our country and its labor 
force. Between 1970 and 2000, the percentage of women who work rose 
from 43.3 percent to 59.9 percent.\2\ Before the Great Recession, more 
than three-quarters of women worked 35 hours or more per week.\3\ And 
today, the majority of employed women work full-time.
    Because more women are working, women's income has become a 
lynchpin of our Nation's economic success. Today, two-thirds of mothers 
are breadwinners or co-breadwinners,\4\ up from slightly more than a 
quarter of mothers in 1967.\5\ (See Figure 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    But women's paychecks don't just contribute to their families' 
bottom lines. They are also vital for America's economic growth.
                  continuing women's economic progress
    Over the past four decades, women have made huge economic gains. 
But those gains were unequal. While some women have broken into 
typically male-dominated professions, 43.6 percent of women still work 
in just 20 types of typically low-paying jobs, such as secretary, 
nurse, teacher, and salesperson, among others.\6\
    Low- and middle-wage, young, and less-educated workers in 
particular lack access to benefits that help balance work and family 
life. Employers too often view paid leave or sick days as perks for 
higher-paid workers: The lowest quarter of wage earners are nearly 
three times less likely to have access to paid family and medical leave 
than those in the top quarter.\7\
    Women of color are also more likely to lack benefits such as paid 
leave. Women of color are just as likely to work as white women, but 
twice as likely to work in a low-wage sector or the service industry in 
jobs that don't offer these middle-class benefits.\8\ This is 
especially concerning given the additional demographic change that is 
inevitable in the coming decades.
    Women of color will make up 53 percent of the female population by 
2050. Hispanic women will lead this growth, increasing from a share of 
16.7 percent of the female population in 2015 to 25.7 percent in 
2050.\9\
    And unequal policy will continue to produce unequal economic gains. 
It's bad for families, for labor, and for the economy. But policy can--
and should--change to react to changing demographics.
        federal policies that benefit working women and families
    There are a number of public policy solutions that can make an 
immediate difference in the lives of working women. At the Federal 
level, mandating paid sick days, paid family and medical leave, and a 
more flexible workplace, and strengthening pay equity legislation could 
empower women to meet their full potential.
    Since nearly two-thirds of minimum-wage workers and 70 percent of 
tipped minimum-wage workers are women, making the minimum wage a living 
wage would help close the pay gap and lift millions of Americans out of 
poverty.\10\
    Fostering the policies that allow women to be full participants in 
today's workforce will boost businesses' bottom lines and ensure 
America's competitiveness in the global economy.
    Among the public policy solutions that would empower women to meet 
their full potential are:

    <bullet> Paid sick days, as proposed in the Healthy Families Act, 
and paid family and medical leave insurance, as proposed in the Family 
and Medical Insurance Leave Act, or FAMILY Act.
    <bullet> Pay equity, as proposed in the Paycheck Fairness Act.
    <bullet> High-quality, affordable early childhood education and 
universal pre-K.
    <bullet> A higher minimum wage and tipped minimum wage.

    Let's examine each of these policies briefly in more detail.
paid sick days, paid maternity leave, and paid family and medical leave
    About 100 million private-sector workers lack paid family leave to 
care for a new child or an aging parent.\11\ Tens of millions more lack 
access to paid sick leave.
    The United States is the only industrialized nation without a 
Federal law providing workers access to paid maternity leave, and one 
of only a few that does not offer broader family and medical leave 
insurance.\12\ The failure to offer paid leave makes the United States 
an outlier among developed nations.\13\ In 2013, only 61 percent of 
workers had access to paid sick days,\14\ and only 12 percent of 
workers had access to paid leave to recover from an illness or care for 
a sick family member.\15\
    As a leading nation, we need to adopt workplace policies that allow 
both men and women to balance the demands of parenthood with the 
demands of their jobs. But this is a make-or-break issue for women.
    Because women continue to be more likely than men to provide care 
to their families--even when they are employed--they are 
disproportionately affected by the lack of paid leave. Even married 
mothers take on more family care duties. Compared to employed fathers, 
employed mothers with a child under age 6 spend about 47 more minutes 
per day giving care. And mothers are more likely than fathers to stay 
home with sick children,\16\ so women disproportionately bear the worry 
of losing wages or even a job because they take time off.
    In fact, the lack of family friendly policies often pushes women 
out of the workforce altogether. When women have to take unpaid time 
away from work or drop out of the workforce entirely, it affects their 
wages for the rest of their lives, a factor that exacerbates the gender 
wage gap. Instituting family friendly policies that help women balance 
the dual demands of work and home can help neutralize some of the 
imbalance.
    A whopping 80 percent of low-wage workers lack access to paid sick 
days,\17\ and 40 million Americans struggle with the choice between 
working while sick and losing a day's pay.\18\ A disproportionate 
number of those workers are people of color. From higher levels of 
unemployment to even lower wages, their struggles highlight the need to 
adopt policies that allow for workplace flexibility.
    Guaranteeing workers access to paid leave and sick days will help 
families care for sick parents and children, a newborn or newly adopted 
child, or recovery from a serious illness without suffering 
financially. It will increase labor-force participation, employee 
retention, and lifetime earnings.\19\ Businesses will be able to 
attract higher-quality workers and reduce absenteeism and tardiness 
among employees.\20\
    The Healthy Families Act, introduced by Sen. Tom Harkin (D-IA), 
would ensure workers have access to paid sick days and would no longer 
have to worry about taking a financial hit if they or their children 
fall ill.\21\ This has untold economic benefits. For example, 
researchers at the University of Virginia found that paid parental 
leave policies actually equate to lower unemployment rates.\22\
    Family and medical leave insurance--also known as paid family 
leave--would allow employees to take temporary leave to recover from 
illness or care for a sick loved one. Introduced by Sen. Kirsten 
Gillibrand (D-NY) and Rep. Rosa DeLauro (D-CT), the Family and Medical 
Insurance Leave Act of 2013, also known as the FAMILY Act, would 
relieve the financial burden of taking unpaid time off, providing paid 
leave for nearly every U.S. worker.\23\
                               pay equity
    Today, women make up nearly half of the American workforce.\24\ 
Women graduate from college at higher rates than men.\25\ More women 
are serving in Congress than ever before.\26\ Yet for millions of 
American women, no amount of hard work will bring pay equity with their 
male peers.
    Women, on average, still take home 77 cents for every dollar earned 
by a man. The average American woman makes $11,084 less than her male 
counterpart per year.\27\ If women working full-time, year round were 
paid the same for their work as comparable men, we would cut the 
poverty rate for working women and their families in half.\28\
    And for women of color, the disparity is even greater. Women of 
color are twice as likely as white, non-Hispanic women to live in 
poverty. And the wage gap is more like a gulf. For every dollar a man 
makes, white women make 77 cents, African-American women take home 64 
cents, and Hispanic women take home 55 cents on the dollar.\29\
    These differences among women can be attributed to a variety of 
economic factors, including occupational segregation and higher rates 
of unemployment among women of color, which lead to longer gaps in work 
histories. Wage disparities--even compared to men of color--depress 
lifetime earnings of women of color even more than those of white 
women.
    When women are shortchanged over the course of a lifetime, the 
dollars and cents add up. Over the course of a 35-year career, a woman 
with a college degree will make an average of $1.2 million less than a 
man with the same level of education.\30\
    Since the Equal Pay Act was signed 50 years ago, we have made 
significant progress. Back then, women were paid just 59 cents for 
every dollar earned by men. Legislation has narrowed the pay gap, but 
didn't close it.\31\ The Lilly Ledbetter Fair Pay Act, the first bill 
that Barack Obama signed as President, was another important step 
toward making women full, equal participants in the workforce.
    But if a woman doesn't know she is underpaid, she can't take action 
to close the gap. The Paycheck Fairness Act, sponsored by Sen. Barbara 
Mikulski (D-MD), would enable the Department of Labor to gather better 
information about wage differences. The Paycheck Fairness Act would 
protect employees from retaliation for discussing their salaries. And 
it would empower women to negotiate for equal pay and create strong 
incentives for employers to obey the laws already in place.
    Making sure women receive equal pay for equal work increases their 
lifetime earnings and strengthens our economy in the process. The 
Institute for Women's Policy Research found that if women had received 
pay equal to their male counterparts in 2012, the U.S. economy would 
have produced $447.6 billion in additional income \32\--similar to the 
economic output of the entire State of Virginia.\33\
             early childhood education and universal pre-k
    Our safety net is working overtime to catch those who have been 
left behind by the recovery, but once again, policy hasn't kept up with 
changing demographics. Although the share of working mothers with 
children under age 5 has doubled since 1970, child care subsidies and 
preschool programs remain underfunded. And more mothers are also 
breadwinning alone: At least half of all children in the United States 
today will spend at least part of their childhood in a single-parent 
family.\34\
    Additionally, today's infants and toddlers are the first age cohort 
that is majority children of color, making this a critical issue for 
communities of color.\35\ Communities of color are expected to comprise 
the majority of the U.S. population sometime in the early 2040s. 
Addressing racial and ethnic disparities is not just the right thing to 
do; it is imperative for economic growth and competitiveness.
    In an economy where three-quarters of families have either a single 
parent or two working parents, child care isn't a luxury. It's a 
necessity. More than 60 percent of all preschool-aged children spend 
time in the care of someone other than their parents.\36\
    Unfortunately, most families don't have access to high-quality 
child care and preschool. Programs such as Head Start and the Child 
Care and Development Fund serve only a fraction of eligible families. 
And quality of care is often low. And many more kids don't attend 
preschool or receive high-quality care because their families simply 
can't afford it. Child care is the largest household expense for most 
families and can cost more than a year of college.
    In light of these challenges, one of the most important ways we can 
improve the lives of millions of American families across the economic 
spectrum is to commit to educate children during the first 5 years of 
their lives. Research shows that the early years of a child's cognitive 
and emotional development, more than any others, establish their 
direction in life. High-quality early intervention makes at-risk 
children 25 percent less likely to drop out of school, 40 percent less 
likely to become a teen parent, and 70 percent less likely to be 
arrested for a violent crime. But because of the shortage of quality, 
affordable child care, low-income children are entering kindergarten 
without the skills necessary to succeed.\37\
    Universal preschool for all 3- and 4-year-old children, and 
affordable child care for low-income families with children under age 3 
will help bridge the gap, as will an expansion of Early Head Start and 
home visiting.
    The Strong Start for America's Children Act, which was introduced 
by Sen. Harkin and passed by this committee this month, would create a 
partnership between the Federal Government and States to expand access 
to high-quality preschool for all low-income 4-year-olds and provide 
programs for some younger children as well. Passing and funding this 
bill would narrow the school-readiness gap and help parents access 
employment by building the supply of high-quality programs and reducing 
costs.
                 the minimum wage becomes a living wage
    We should raise the Federal minimum wage to $10.10 per hour. 
Currently, a full-time worker making the minimum wage earns just 
$15,080 per year.\38\ For a family of three, that is $4,000 below the 
Federal poverty line.\39\ Raising the minimum wage to $10.10 would 
increase yearly earnings to $19,777.\40\ It would directly raise the 
wages of 16.5 million American workers and would lift almost 1 million 
Americans out of poverty.\41\
    Nearly two-thirds of minimum-wage workers are women, so raising the 
minimum wage, as proposed by Sen. Harkin, would give 15.4 million women 
a raise \42\ and help close the pay gap.\43\ These workers are not just 
teenagers. Nearly 90 percent of minimum-wage workers are 20 years old 
or older, and the average minimum-wage worker is 35 years old.\44\
    Seventy percent of tipped restaurant workers are women, so raising 
the tipped minimum wage would also strengthen women's prospects.\45\ 
While the Federal minimum wage is $7.25 per hour, the minimum for 
workers who receive tips is just $2.13. Tips are supposed to make up 
the difference. Yet servers are twice as likely to use food stamps as 
is the rest of the U.S. workforce, and three times as likely to live in 
poverty.\46\
    The number of female minimum-wage workers has also increased 
markedly since the beginning of the Great Recession. In 2007, there 
were almost 1.2 million female minimum-wage workers--nearly double the 
number of male minimum-wage workers. But the number of women making 
minimum wage had doubled by 2012.
    And while the number of workers earning minimum wage increased for 
all racial and ethnic groups of women from 2007 to 2012, the share of 
Latina women at minimum wage tripled, and the share of African-American 
and Asian women more than doubled.\47\
    We're already seeing businesses, such as the Gap, Costco, and Whole 
Foods, adopt the attitude that a fair wage is good for corporate 
profits and reputations. Raising the wages of frontline workers helps 
minimize employee turnover, encourage hard work, and increase employee 
productivity, commitment, and loyalty.\48\ Cities, counties, and States 
have also adopted measures to raise the incomes of their lowest paid 
workers because they know that if workers can earn a living wage, it 
will help grow their local economies. More than half of the States that 
raised the minimum wage during periods of high unemployment saw their 
unemployment decrease over the next 12 months.\49\
    And increasing the minimum wage has positive implications for the 
Federal budget as well. CAP recently published research showing that a 
$10.10 minimum wage would reduce spending on the Supplemental Nutrition 
Assistance Program by $46 billion over the next decade.\50\
                           the business case
    Successful businesses already see a competitive advantage when they 
ensure workers with families are happy and successful. Policies that 
support working women and families lead to more productive employees. 
They also help business attract and retain top-notch talent, paying 
dividends in the long term. But there are immediate savings for 
businesses with family friendly benefits as well.\51\
    Studies showed companies that are flexible--that allow adjustable 
work schedules or telework, for example--improved employee retention 
and recruitment, as well as revenue generation and client 
satisfaction.\52\ Employees said their ability to prioritize both 
career and family influenced their choice to remain with the company. 
This translates into real and immediate savings for businesses. While 
replacing a worker can cost up to 20 percent of that worker's salary, 
policies such as earned sick days or flexible options can be 
implemented at little to no net cost.\53\
    But the companies that will excel in tomorrow's economy won't just 
be focused on retaining female employees; they'll be interested in 
cultivating the next generation of female leaders and executives. That 
will mean more than adopting flexible schedules and worker-friendly 
policies. It will mean changing the culture from the factory floor to 
the board room to allow talented, dedicated women to advance and 
succeed. It will mean combating workplace discrimination of every kind. 
It will mean encouraging mentor relationships that pair successful 
women with future leaders in their organizations. And it will mean 
including women in the decisionmaking process, so their voices are 
heard and their concerns are considered. After all, when women have a 
place at the table, they can advocate for the very worker-friendly 
policies that boost morale along with the bottom line.
                               conclusion
    Public policies that help women also strengthen our families, our 
workplaces, our economy, and our Nation. It's time to put women at the 
center of the policy agenda. Every Member of Congress must work 
together to demonstrate, with a proactive policy agenda, that 
government is committed to our families.
    Families are changing. Our workforce is changing. The way we live 
is changing. And our economic success hinges on recognizing those 
changes and committing to public policy that improves the lives and 
livelihood of working families.
    I thank the Chairman, Ranking Member, and the committee for the 
opportunity to testify today.
                                Endnotes
    1. Sarah Jane Glynn, ``The New Breadwinners: 2010 Update: Rates of 
Women Supporting Their Families Economically Increased Since 2007'' 
(Washington: Center for American Progress, 2012), available at http://
www.americanprogress.org/issues/labor/report/2012/04/16/11377/the-new-
breadwinners-2010-update/.
    2. U.S. Bureau of Labor Statistics, ``Women in the Labor Force: A 
Databook'' (2013), Table 2.
    3. Ibid., Table 20.
    4. Heather Boushey, ``The New Breadwinners.'' In Heather Boushey 
and Ann O'Leary, eds., The Shriver Report: A Woman's Nation Changes 
Everything (Washington: Maria Shriver and Center for American Progress, 
2009); Glynn, ``The New Breadwinners.''
    5. Glynn, ``The New Breadwinners.''
    6. Heather Boushey and Alexandra Mitukiewicz analysis of the Center 
for Economic and Policy Research Extracts of the Current Population 
Survey Outgoing Rotation Group.
    7. U.S. Bureau of Labor Statistics, ``Table 32. Leave benefits: 
Access, private industry workers, National Compensation Survey, March 
2013,'' available at http://www.bls.gov/ncs/ebs/benefits/2013/
ownership/private/table21a.htm (last accessed May 2014).
    8. Sophia Kerby, ``The State of Women of Color in the United 
States'' (Washington: Center for American Progress, 2012), available at 
http://www.american
progress.org/issues/race/report/2012/07/17/11923/the-state-of-women-of-
color-in-the-united-states/.
    9. Ibid.
    10. The Restaurant Opportunities Centers United and others, 
``Tipped Over the Edge: Gender Inequity in the Restaurant Industry'' 
(2012), available at http://rocunited.org/wp-content/uploads/2012/02/
ROC_GenderInequity_F1-1.pdf.
    11. U.S. Bureau of Labor Statistics, ``Table 32. Leave benefits.''
    12. Heather Boushey, Ann O'Leary, and Alexandra Mitukiewicz, ``The 
Economic Benefits of Family and Medical Leave Insurance'' (Washington: 
Center for American Progress, 2013), available at http://
www.americanprogress.org/wp-content/uploads/2013/12/PaidFamLeave-
brief.pdf.
    13. Jody Heymann, Alison Earle, and Jeffrey Hayes, ``The Work, 
Family, Equity Index: How Does the U.S. Measure Up?'' (Montreal, 
Canada: Institute for Health and Social Policy, McGill University, 
2009), available at: http://www.hreonline
.com/pdfs/08012009Extra_McGillSurvey.pdf.
    14. U.S. Bureau of Labor Statistics, ``Table 32. Leave benefits.''
    15. Ibid.
    16. University of Cincinnati, ``Working Parents--Who Puts Family 
First When a Child Gets Sick?'', Press release, August 13, 2007, 
available at http://www.uc.edu/News/NR.aspx?ID=6152.
    17. Eileen Appelbaum, ``Paid Sick Days: A Win for Employees and the 
Economy,'' Spotlight on Poverty and Opportunity, June 6, 2011, 
available at http://www.spot
lightonpoverty.org/ExclusiveCommentary.aspx?id=4c4cc307-20b6-44ea-81c2-
0712411
c3e70.
    18. Ibid.
    19. Boushey, O'Leary, and Mitukiewicz, ``The Economic Benefits of 
Family and Medical Leave Insurance.''
    20. Ibid.
    21. Healthy Families Act, S. 631, 113 Cong. (Government Printing 
Office, 2013), available at https://www.govtrack.us/congress/bills/113/
s631.
    22. Christopher J. Ruhm and Jackqueline L. Teague, ``Parental Leave 
Policies in Europe and North America.'' Working Paper 5065 (National 
Bureau of Economic Research, 1995).
    23. National Partnership for Women & Families, ``Fact Sheet: The 
Family and Medical Insurance Leave Act (The FAMILY Act)'' (2014), 
available at http://www.nationalpartnership.org/research-library/work-
family/paid-leave/family-act-fact-sheet.pdf.
    24. Crosby Burns, Kimberly Barton, and Sophia Kerby, ``The State of 
Diversity in Today's Workforce'' (Washington: Center for American 
Progress, 2012), available at http://www.americanprogress.org/issues/
labor/report/2012/07/12/11938/the-state-of-diversity-in-todays-
workforce/.
    25. Mark Hugo Lopez and Ana Gonzalez-Barrera, ``Women's college 
enrollment gains leave men behind,'' Pew Research Center, March 6, 
2014, available at http://www.pewresearch.org/fact-tank/2014/03/06/
womens-college-enrollment-gains-leave-men-behind/.
    26. Rosalind S. Helderman, ``The 113th Congress is the most diverse 
in history,'' The Washington Post, January 3, 2013, available at http:/
/www.washington
post.com/politics/113th-congress-has-more-women-minorities-than-ever/
2013/01/03
/7d1aaf30-55e5-11e2-8b9e-dd8773594efc_story.html.
    27. National Women's Law Center, ``How the Wage Gap Hurts Women and 
Families'' (2013), available at http://www.nwlc.org/sites/default/
files/pdfs/factorother
than_sexfactsheet_5.30.12_final.pdf.
    28. Maria Shriver and the Center for American Progress, The Shriver 
Report: A Woman's Nation Pushes Back from the Brink (Palgrave 
Macmillan, 2014).
    29. Farah Ahmad and Sarah Iverson, ``The State of Women of Color in 
the United States'' (Washington: Center for American Progress, 2013), 
available at: http://www.americanprogress.org / wp-content / uploads / 
2013 / 10 / StateOfWomenColor-1
.pdf.
    30. American Women and others, ``Equal Pay: A Conversation Guide'' 
(2013), available at http://www.americanwomen.org/body/
EqualPayToolkit_National.pdf.
    31. Ibid.
    32. Heidi Hartmann, Jeffrey Hayes, and Jennifer Clark, ``How Equal 
Pay for Working Women Would Reduce Poverty and Grow the American 
Economy'' (Washington: Institute for Women's Policy Research, 2014).
    33. Ibid.; Bureau of Economic Analysis, Widespread Economic Growth 
in 2012: Advance 2012 and Revised 2009-11 GDP-by-State Statistics, 
Table 4 (U.S. Department of Commerce, 2013), available at http://
bea.gov/newsreleases/regional/gdp_state/2013/pdf/gsp0613.pdf.
    34. D'Vera Cohn, Gretchen Livingston, and Wendy Wang, ``After 
Decades of Decline, A Rise in Stay-at-Home Mothers'' (Washington: Pew 
Research Center, 2014), available at http://www.pewsocialtrends.org/
2014/04/08/after-decades-of-decline-a-rise-in-stay-at-home-mothers/.
    35. Children's Defense Fund, ``The State of America's Children'' 
(2014), available at http://www.childrensdefense.org/child-research-
data-publications/data/2014-soac.pdf.
    36. Federal Interagency Forum on Child and Family Statistics, 
``America's Children: Key National Indicators of Well-Being, 2013: 
Child Care,'' available at http://www.childstats.gov/americaschildren/
famsoc3.asp (last accessed May 2014).
    37. Donna Cooper and Kristina Costa, ``Increasing the Effectiveness 
and Efficiency of Existing Public Investments in Early Childhood 
Education'' (Washington: Center for American Progress, 2012), available 
at http://www.americanprogress.org/issues/education/report/2012/06/01/
11723/increasing-the-effectiveness-and-efficiency-of-existing-public-
investments-in-early-childhood-education/.
    38. David Cooper, ``Raising the Federal Minimum Wage to $10.10 
Would Lift Wages for Millions and Provide a Modest Economic Boost'' 
(Washington: Economic Policy Institute, 2013), available at http://
www.epi.org/publication/raising-Federal-minimum-wage-to-1010/.
    39. Families USA, ``Federal Poverty Guidelines,'' available at 
http://www.families
usa.org/resources/tools-for-advocates/guides/Federal-poverty-
guidelines.html (last accessed May 2014).
    40. Cooper, ``Raising the Federal Minimum Wage to $10.10 Would Lift 
Wages for Millions and Provide a Modest Economic Boost.''
    41. Congressional Budget Office, ``The Effects of a Minimum-Wage 
Increase on Employment and Family Income'' (2014), available at http://
www.cbo.gov/publication/44995.
    42. Ibid.
    43. David Madland and Keith Miller, ``Raising the Minimum Wage 
Would Boost the Incomes of Millions of Women and Their Families,'' 
Center for American Progress Action Fund, December 9, 2013, available 
at http://www.american
progressaction.org/issues/labor/news/2013/12/09/80484/raising-the-
minimum-wage-would-boost-the-incomes-of-millions-of-women-and-their-
families/.
    44. David Cooper and Dan Essrow, ``Low-wage Workers Are Older Than 
You Think,'' Economic Policy Institute, August 28, 2013, available at 
http://www.epi.org
/publication/wage-workers-older-88-percent-workers-benefit/.
    45. The Restaurant Opportunities Centers United and others, 
``Tipped Over the Edge.''
    46. Ibid.
    47. Ahmad and Iverson, ``The State of Women of Color in the United 
States.''
    48. John Schmitt, ``Why Does the Minimum Wage Have No Discernible 
Effect on Employment?'' (Washington: Center for Economic and Policy 
Research, 2013), available at http://www.cepr.net/documents/
publications/min-wage-2013-02.pdf.
    49. T. William Lester, David Madland, and Jackie Odum, ``Raising 
the Minimum Wage Would Help, Not Hurt, Our Economy,'' Center for 
American Progress Action Fund, December 3, 2013, available at http://
www.americanprogressaction.org/issues/labor/news/2013/12/03/80222/
raising-the-minimum-wage-would-help-not-hurt-our-economy/.
    50. Rachel West and Michael Reich, ``The Effects of Minimum Wages 
on SNAP Enrollments and Expenditures'' (Washington: Center for American 
Progress, 2014), available at http://www.americanprogress.org/issues/
economy/report/2014/03/05/85158/the-effects-of-minimum-wages-on-snap-
enrollments-and-expenditures/.
    51. Small Business Majority, ``Small Businesses Support Family 
Medical Leave'' (2013), available at http://
www.smallbusinessmajority.org/small-business-research/family medical-
leave/092713-FML-report.php.
    52. Anna Danziger and Shelley Waters Boots, ``The Business Case for 
Flexible Work Arrangements'' (Washington: Georgetown University Law 
Center, 2008), available at http://scholarship.law.georgetown.edu/cgi/
viewcontent.cgi?article=1001
&context=legal.
    53 Heather Boushey and Sarah Jane Glynn, ``There Are Significant 
Business Costs to Replacing Employees'' (Washington: Center for 
American Progress, 2012), available at http://www.americanprogress.org/
issues/labor/report/2012/11/16/44464/there-are-significant-business-
costs-to-replacing-employees/.

    The Chairman. Thank you, Ms. Tanden.
    Ms. Bravo.

STATEMENT OF ELLEN BRAVO, EXECUTIVE DIRECTOR, FAMILY VALUES AT 
                      WORK, MILWAUKEE, WI

    Ms. Bravo. Thank you, Senators and staff of the HELP 
Committee. I'm delighted to be here to testify on behalf of 
Family Values at Work. We're a network of 21 coalitions, more 
than 1,000 groups, very diverse, all of them working for 
policies like paid sick days and family medical leave 
insurance. They're driven by women like Rhiannon Broschat in 
Chicago, mother of a kid with special needs, and Shelby Ramirez 
in Denver, who helps take care of her dad with diabetes. These 
are people who have lost a job or vital income for doing 
exactly what we define as being a good parent or a good child 
to their parents.
    We're in this dilemma because although many employers do a 
great job, as you said, the rest of them are operating as if 
we're still in a madman era. There's good news, though, and 
that is that the States and cities are paving the way toward 
the Federal policies that we need, as they always have, 
incubating model policies and studying them for their 
effectiveness.
    We have three States that have passed family medical leave 
insurance. New York is chomping at the bit. The State-paid 
leave fund in the budget would really help. We have seven 
cities in one State that have let workers earn paid sick days 
and lots more on the horizon. And we have a growing body of 
evidence that shows these policies are good for women's 
economic security, for families, and for business bottom line.
    I've talked a lot about it in my written remarks, all this 
research, and quotes from some of our business partners who 
say,

          ``You know what? These policies--I want to see them 
        as a floor for everyone, because they lower my 
        expenses, but they also put money in the pockets of the 
        people who are going to be my customers, what I need 
        the most.''

    We shouldn't have a situation where having economic 
security is at odds with the security of the emotions and 
physical health of our loved ones, and yet that's where we are.
    I want to end by telling you about one of our leaders, 
Melissa Broome in Maryland, whose son recently had surgery, 4-
year-old Owen. He's going to be OK. She and her husband both 
had paid sick days and could be there the whole week. But as 
they led him on a red wagon through the halls, they saw a lot 
of kids who were much sicker. Owen didn't ask, ``Why is that 
kid bald?'' or ``Why is that kid hooked up to a machine?'' But 
he did ask, ``Why is that kid alone, and where is that kid's 
mommy and daddy?''
    It's going to be very difficult to cure all the ailments of 
those children. It should not be at all difficult to get 
bipartisan support to pass the Healthy Families Act and the 
Family Act so that every family knows they can have someone 
holding their hand and whispering in their ear when they're 
poked and prodded when they're ill.
    Thank you so much.
    [The prepared statement of Ms. Bravo follows:]
                   Prepared Statement of Ellen Bravo
    Thank you so much, Senator Harkin and Senator Alexander, for 
hosting this hearing and inviting me to testify on economic security 
for working women.
    My name is Ellen Bravo, and I have been working for years to 
advance policies that value families at work, first as director of 
9to5, National Association of Working Women, and for the last decade as 
director of Family Values @ Work Consortium. In 1995 I was appointed by 
Congress to the bipartisan Commission on Leave to study the impact of 
the Family and Medical Leave Act on employers and employees. I have 
written several books and numerous articles on working women and 
testified before Federal, State and local legislative bodies. For a 
number of years I taught a masters level class on Family-Friendly 
Workplace Practices at University of Wisconsin-Milwaukee.
    Family Values @ Work is a network of coalitions in 21 States that 
bring together a wide range of local groups--working women and men, 
restaurant owners and restaurant workers, feminists and faith leaders, 
those who want to end poverty and end asthma, advocates for workers, 
children, seniors and racial justice, LGBT activists and public health 
professionals, and many business owners. Together, we have been making 
strides toward establishing economic security for families through paid 
sick days and paid family leave policies.
    While many employers already offer the policies we seek, millions 
of workers are still operating in workplaces designed for men with 
wives at home full-time.
    In 2010, nearly three quarters of children had both parents or 
their only parent working, a 13 percent increase since the mid-1980s 
when FMLA was first drafted.\1\ Women are the primary or co-
breadwinners for nearly two-thirds of the Nation's families, so a 
woman's income loss during maternity leave or even a few days with a 
sick child has significant economic consequences for her family.\2\
---------------------------------------------------------------------------
    \1\ Houser, L. and Vartanian, T. (January 2012). ``Pay Matters: The 
Positive Economic Impacts of Paid Family Leave for Families, Businesses 
and the Public,'' retrieved May 15, 2014 from http://smlr.rutgers.edu/
paymatters-cwwreport-january2012.
    \2\ Boushey, H. (2009). The New Breadwinners. In H. Boushey and A. 
O'Leary (Eds.), The Shriver Report: A Woman's Nation Changes 
Everything. Retrieved May 15 2013 from http://shriverreport.org/
special-report/a-womans-nation-changes-everything/.
---------------------------------------------------------------------------
    Not having these policies in place also holds back our economy. For 
stronger families, stronger businesses, a stronger country, we must 
make sure that working women have opportunities to succeed as providers 
and as caregivers. Policies like paid sick days and family and medical 
leave insurance are small steps that can create a big difference in 
making us the Nation we set out to be.
    I'm here to speak on behalf of all the working women, men and 
families who are involved in this important work in the States. It is 
their voices and commitment that are the center of this movement--and 
this progress--that we are seeing.
    They are women like Shelby Ramirez in Denver, whose father and 
daughter each had surgery within days of each other. Shelby took unpaid 
time from work to care for them. For doing what a good daughter and 
mother does, Shelby nearly wound up homeless and had to pawn the one 
thing of value she owned, a ring given to her by her father many years 
earlier.\3\
---------------------------------------------------------------------------
    \3\ https://www.youtube.com/watch?v=Ofpe3PZXRgM&feature=youtu.be.
---------------------------------------------------------------------------
    I speak also for Rhiannon Broschat who lives in Chicago.\4\ On a 
day this winter when the Chicago Public Schools closed because it was 
too cold to be safe for children to go to schools, Rhiannon had no one 
to care for her special needs son. For safeguarding her child as a good 
mother does, Rhiannon was ``separated'' from the company for 
``abusing'' the attendance policy. What this means is that Rhiannon was 
fired from a very profitable company for refusing to leave her son home 
alone.
---------------------------------------------------------------------------
    \4\ https://www.youtube.com/watch?v=lEB1kGP_ghg.
---------------------------------------------------------------------------
    Women and families in this country will not have real economic 
security until their earnings and their jobs are protected when they or 
a family member needs care. The lack of modest policies like those that 
exist in the rest of the world forces women like Shelby and Rhiannon 
and millions of others to make an impossible choice between the jobs 
they need and the family that needs them.
    This goes against the core family values that our country believes 
in--across party lines and geographies.
    Our coalitions are also working to ensure that pregnant workers can 
have a stool to sit on, water to drink or sufficient bathroom breaks 
without losing their job. New York, New Jersey, and a number of other 
places have passed such bills with bipartisan support. We are working 
on solutions to another serious set of issues--how to ensure people 
have enough hours and predictable schedules as businesses seek staffing 
solutions that can also meet their needs.
    However, my testimony today will focus on the need for paid sick 
days and family and medical leave insurance.
    Twenty-one years ago, Congress passed the Family and Medical Leave 
Act with bipartisan support. The FMLA provides up to 12 weeks unpaid 
time for the occasional longer term leave people need to care for a new 
baby or for a serious personal or family illness. It applies to those 
who work in a firm of 50 or more, have been on the job at least a year 
and work at least 25 hours a week on average for the same employer.
    FMLA was a great first step for families--but as our economy and 
our families have changed, so too must our laws. The FMLA leaves out 
more than 40 percent of the workforce.\5\ It does not include routine 
illness or preventive care. While an employee covered by FMLA could 
take leave to care for her father if he had a heart attack, that same 
employee could be fired for taking Dad to the doctor to get his 
cholesterol down and prevent a heart attack in the first place.
---------------------------------------------------------------------------
    \5\ Klerman, J., et al. (updated September 2013). ``Family and 
Medical Leave in 2012, Technical Report,'' Abt Associates, Inc., http:/
/www.dol.gov/asp/evaluation/fmla/FMLA-2012-Technical-Report.pdf.
---------------------------------------------------------------------------
    Furthermore, many of those who are covered are unable to take the 
time they need because it is unpaid. In 2012, two and a half times as 
many people as in 2000 needed leave and were eligible but didn't take 
it, mostly because they couldn't afford it. Many others went back from 
leave too early, without fully recovering.\6\
---------------------------------------------------------------------------
    \6\ Ibid.
---------------------------------------------------------------------------
    What is needed? We need to expand the FMLA to cover those currently 
excluded.\7\
---------------------------------------------------------------------------
    \7\ Jorgensen, H. and Appelbaum, E, Center for Economic and Policy 
Research, (April 2014). ``Expanding Family and Medical Leave to Small 
Firms, http://www.cepr.net/documents/fmla-small-firms-2014-04.pdf.
---------------------------------------------------------------------------
    We also need public policies like the Healthy Families Act (H.R. 
1286/S. 631) that address short-term, routine illness and the 
preventive care that people need every year. The Healthy Families Act, 
introduced by Senator Harkin, would allow workers to earn paid sick 
days they can use to care for their own illness or that of a loved one, 
or to deal with the aftermath of sexual or domestic violence.
    In addition, we need a policy like the FAMILY Act (H.R. 3712/S. 
1810), introduced by Senator Gillibrand, to establish a family and 
medical leave insurance fund. By pooling small contributions from 
employees and employers, this fund would enable those needing leave to 
have some vital income during an already challenging time.
    Consider these facts related to the lack of access to paid sick 
days:
    More than 41 million workers in the United States, nearly 40 
percent of the workforce, do not earn paid sick days.\8\ Millions more 
are not allowed to use the sick time they earn to care for a sick 
family member. The numbers are much lower for low-wage workers and 
particularly those with the closest contact with the public, such as 
those who work in food preparation and service, and those in personal 
care.\9\
---------------------------------------------------------------------------
    \8\ Williams, C. and Gault, B., Institute for Women's Policy 
Research (March 2014). ``Paid Sick Days Access in the United States: 
Differences by Race/Ethnicity, Occupation, Earnings, and Work 
Schedule,'' retrieved May 15, 2014 from http://www.iwpr.org/
publications/pubs/paid-sick-days-access-in-the-united-states-
differences-by-race-ethnicity-occupation-earnings-and-work-schedule.
    \9\ Ibid.
---------------------------------------------------------------------------
    Nearly one quarter of adults in the United States have been fired 
or threatened with job loss for taking time off to recover from illness 
or care for a sick loved one.\10\ Even losing a few days' pay can be 
devastating. For low-income families, going just 3.5 days without wages 
is equivalent to losing a month's groceries.\11\
---------------------------------------------------------------------------
    \10\ Smith, T. and Kim, J. National Opinion Research Center, (June 
2010). ``Paid Sick Days: Attitudes and Experiences,'' retrieved May 15, 
2014. http://www.publicwelfare.org/resources/DocFiles/psd2010final.pdf.
    \11\ Gould, E. et al., Economic Policy Institute, (June 2011). 
``The Need for Paid Sick Days,'' 
retrieved May 15, 2014 from http://www.epi.org/publication/
the_need_for_paid_sick_days
/.
---------------------------------------------------------------------------
    The Center for Disease Control found that more than 2.5 million 
cases of foodborne illness each year were caused by sick restaurant 
workers contaminating food while they are at work.\12\ During the H1N1 
epidemic, 7 million people caught the virus from co-workers who came to 
the job while sick.\13\
---------------------------------------------------------------------------
    \12\ Painter, J., et al. (2013, March). ``Attribution of Foodborne 
Illnesses, Hospitalizations, and Deaths to Food Commodities by using 
Outbreak Data, United States, 1998-2008.'' Centers for Disease Control. 
Retrieved May 18, 2014 from http://wwwnc.cdc.gov/eid/article/19/3/pdfs/
11-1866.pdf.
    \13\ Drago, R. and Miller, K. (2010 February). ``Sick at Work: 
Infected Employees in the Workplace During the H1N1 Pandemic.'' 
Institute for Women's Policy Research. Retrieved May 18, 2014 from 
http://www.iwpr.org/publications/pubs/sick-at-work-infected-employees-
in-the-workplace-during-the-h1n1-pandemic/at_download/file.
---------------------------------------------------------------------------
    Health conditions go undiagnosed because workers without paid sick 
days are less likely to get basic health and cancer screenings.\14\ 
More than one in four parents of a child with asthma (28 percent) has 
missed one of their child's medical appointments because they could not 
get time off work.\15\ Injuries on the job are also more common when 
workers go to the job ill.\16\
---------------------------------------------------------------------------
    \14\ Peipins, L.A., Soman, A., Berkowitz, Z., White, M.C. ``The 
lack of paid sick leave as a barrier to cancer screening and medical 
care-seeking: results from the National Health Interview Survey.'' BMC 
Public Health 2012;12(1):520.
    \15\ Smith, L.A., et al. (2002, September). ``Employment barriers 
among welfare recipients and applicants with chronically ill 
children.'' Published in American Journal of Public Health, Retrieved 
May 18, 2014 from http://www.ncbi.nlm.nih.gov/pubmed/12197972.
    \16\ Asfaw, A., et al. (2012, September). ``Paid Sick Leave and 
Nonfatal Occupational Injuries.'' American Journal of Public Health, 
102(9), e59-e64. Retrieved May 18, 2014, from http://
ajph.aphapublications.org/doi/abs/10.2105/AJPH.2011.300482.
---------------------------------------------------------------------------
    The human cost of sick days is also borne by businesses and 
society.
    Presenteeism, (the cost of employees' lower productivity when 
working sick) adds up to $160 billion annually--considerably more than 
the cost of absenteeism.\17\
---------------------------------------------------------------------------
    \17\ Kalorama Information (2009, October). ``The Market for 
Wellness Programs and Their Impact on Pharmaceutical, Diagnostic and 
Device Product Markets.'' Retrieved May 18, 2014 from http://
www.kaloramainformation.com/about/release.asp?id=1463.
---------------------------------------------------------------------------
    The United States spends $1.1 billion in unnecessary emergency 
department costs because people can't take time off to see a doctor 
during business hours and either go straight to ERs or wait until 
conditions worsen and an ER becomes necessary.\18\
---------------------------------------------------------------------------
    \18\ Miller, K., et al. (2011, November). ``Paid Sick Days and 
Health: Cost Savings from Reduced Emergency Department Visits.'' 
Institute for Women's Policy Research, Retrieved May 18,
2014 from http://www.iwpr.org/publications/pubs/paid-sick-days-and-
health-cost-savings-from-reduced-emergency-department-visits/
at_download/file.
---------------------------------------------------------------------------
    The United States is the only country that does not provide paid 
sick leave for a worker undergoing a 50-day cancer treatment.\19\ And 
we are one of only three countries that do not provide paid sick days 
for a worker missing 5 days of work due to the flu.\20\
---------------------------------------------------------------------------
    \19\ Heymann, J., et al. (2009, May). ``Contagion Nation: A 
Comparison of Paid Sick Day Policies in 22 Countries.'' Center for 
Economic and Policy Research. Retrieved May 18, 2014, from http://
www.cepr.net/documents/publications/paid-sick-days-2009-05.pdf.
    \20\ Ibid.
---------------------------------------------------------------------------
    The figures on lack of access to affordable family and medical 
leave are also stark.
    The United States is one of three countries to guarantee no paid 
maternity leave. The other countries are Papua New Guinea and Oman.\21\ 
Only 12 percent of private sector employees have paid family leave from 
an employer.\22\
---------------------------------------------------------------------------
    \21\ Addati, L., et al., ``Maternity and paternity at work: Law and 
practice across the world. Appendix II: Key national statutory 
provisions on maternity leave, by region, 2013.'' International Labour 
Organization, 2014. Retrieved May 18, 2014 from http://www.ilo.org/
wcmsp5/groups/public/_dgreports/_dcomm/documents/publication/
wcms_242615.pdf.
    \22\ Bureau of Labor Statistics. Table 32. Leave benefits: Access, 
private industry workers, National Compensation Survey, March 2013. 
Retrieved May 18, 2014 from http://www.bls.gov/ncs/ebs/benefits/2013/
ownership/private/table21a.htm.
---------------------------------------------------------------------------
    That lack of pay can have disastrous impact on a family's economic 
security. Studies show that 7 percent of people who filed for 
bankruptcy cited the birth of a child as the cause.\23\ A significant 
number of bankruptcies also happen after a worker misses 2 or more 
weeks of work due to illness.\24\
---------------------------------------------------------------------------
    \23\ The David and Lucile Packard Foundation (Spring/Summer 2001). 
``The Future of Children.'' Retrieved May 18, 2014 from http://
futureofchildren.org/futureofchildren/publications/docs/
11_01_FullJournal.pdf.
    \24\ Boushey, H and Glynn S (2012 April). ``The Effects of Paid 
Family and Medical Leave on Employment Stability and Economic 
Security,'' Center for American Progress. Retrieved May 18, 2014 from 
http://www.americanprogress.org/wp-content/uploads/issues/2012/04/pdf/
Boushey
EmploymentLeave1.pdf.
---------------------------------------------------------------------------
    Forty-eight percent of family caregivers who have to take time off 
to care for a family member lost income during that time.\25\ And the 
number of caregivers is growing as the population ages. By 2030, the 
number of Americans over 65 will be 70 million--double today's 35 
million.\26\ Nearly two-thirds of Americans under the age of 60 expect 
to be responsible for the care of an elder relative within the next 10 
years, and by 2020 about 40 percent of the workforce will be caring for 
older parents.\27\
---------------------------------------------------------------------------
    \25\ Aumann, K (2008). ``The Elder Care Study: Everyday Realities 
and Wishes for Change, Families and Work Institute.'' Retrieved May 18, 
2014 from http://familiesandwork.org/site/research/reports/
elder_care.pdf.
    \26\ A Profile of Older Americans (2011), Administration on Aging, 
U.S. Department of Health and Human Services. Retrieved May 18, 2014 
from http://www.aoa.gov/Aging_Statistics/Profile/2011/docs/
2011profile.pdf.
    \27\ Lerman, R and Schmidt, S. ``Trends and Challenges for Work in 
the 21st Century,'' The Urban Institute. Retrieved May 18, 2014 from 
http://www.dol.gov/oasam/programs/history/herman/reports/futurework/
conference/trends/trendsi.htm.
---------------------------------------------------------------------------
    Both paid sick days and family and medical leave insurance are 
common sense solutions to the dilemma our Nation faces: the very thing 
that makes us good parents or children to our parents often jeopardizes 
our ability to make ends meet.
                 cities and states are leading the way
    My children and I were part of helping to win unpaid Family and 
Medical Leave in Wisconsin in 1988. That win, along with similar ones 
in many other States, paved the way for the national bill in 1993. They 
helped disprove the predictions of job loss and business closings--
family leave in fact strengthened families and businesses by helping 
people keep their jobs and their earnings. It lowers turnover costs, 
boosts productivity and morale.
    Now States and municipalities are developing models for both family 
and medical leave insurance and paid sick days.
    The 1995 Commission on Leave unanimously recommended that States 
``consider voluntarily establishing or expanding existing temporary 
disability insurance programs to provide wage replacement for periods 
of family and medical leave.'' \28\
---------------------------------------------------------------------------
    \28\ A Workable Balance: Report to Congress on Family and Medical 
Leave Policies, Depart-
ment of Labor, 1996 https://archive.org/stream/
workablebalancer00unit#page/198/mode/2up/
search/Policy+Directions.
---------------------------------------------------------------------------
    Research conducted for that Commission found that nearly 1 in 10 (9 
percent) of leave-takers had to rely on public assistance to support 
themselves while on leave. That number was more than one in five (20.9 
percent) for those earning $20,000 or less.\29\ The overall figure 
increased in the most recent survey (9.8 percent).\30\
---------------------------------------------------------------------------
    \29\ Ibid.
    \30\ Klerman, J., et al, (updated September 2013). ``Family and 
Medical Leave in 2012, Technical Report,'' Abt Associates, Inc., http:/
/www.dol.gov/asp/evaluation/fmla/FMLA-2012-Technical-Report.pdf.
---------------------------------------------------------------------------
    In 2002, California became the first State to attempt to make 
family leave affordable. Implemented in 2004, the new law expanded the 
State's existing temporary disability insurance program--just as the 
Commission had recommended--to help ensure working families had income 
to rely on during family leave. Those needing family leave may take up 
to 6 weeks at 55 percent of their pay with a cap of $533 a week in 
2013. New Jersey followed in 2009. Benefits there are typically two-
thirds of the last 8 weeks of pay, up to $584 a week for up to 6 weeks.
    Just last year, Rhode Island became the third State to pass such a 
measure. Together these three States have brought access to family 
leave insurance programs to more than 17 million people. Other States 
are on their way, with Washington having passed and hoping to have 
funding to implement the program next year. In New York State, 
legislators are moving a bill forward, and in Vermont and Connecticut, 
study commissions are laying the groundwork for legislation. Colorado 
has a bill pending and a number of other States are considering similar 
action. The State Paid Leave Fund, $5 million in the Department of 
Labor budget, would be a significant boost to these programs.
    Economists, business owners and workers alike have confirmed the 
success of these programs. A recent Rutgers study shows that New 
Jersey's family leave insurance (FLI) program has saved businesses 
money by improving employee retention, decreasing turnover costs, and 
improving productivity.\31\ Despite ``sky is falling'' claims about the 
potential costs of FLI for business, research from Unfinished Business, 
a book on the success of California's program, shows employers 
reporting that a neutral or positive effect on employee productivity, 
profitability, and turnover; most employers coordinate their own 
benefits with the State's paid family leave program.\32\ Workers who 
took paid family or medical leave are more likely to return to the same 
employer, reducing turnover costs, which can range from nearly $5,400 
to more than $18,000.\33\
---------------------------------------------------------------------------
    \31\ Houser, L and Vartanian, T. (2012 January). ``Pay Matters: The 
Positive Economic Impacts of Paid Family Leave for Families, Businesses 
and the Public, A Report of the Center for Women and Work.'' Rutgers 
School of Management and Labor Relations. Retrieved May 18, 2014 from 
http://news.rutgers.edu/news-releases/2012/01/rutgers-study-finds-
20120118#.U3
ZiJ9JdXTo.
    \32\ Appelbaum, E and Milkman, R. (2011). ``Leaves That Pay: 
Employer and Worker Experiences with Paid Family Leave in California.'' 
Center for Economic and Policy Research. Retrieved May 18, 2014 from 
http://www.cepr.net/documents/publications/paid-family leave-1-
2011.pdf.
    \33\ Ibid.
---------------------------------------------------------------------------
    Most employees who used California's paid family leave program 
reported that leave had a positive effect on their ability to care for 
a child or ill family member (82.3 percent), allowed them to initiate 
breast feeding (91.3 percent), had a positive effect on their ability 
to arrange child care (62.5 percent) and had a positive effect on an 
ill family member's health (86.5 percent).\34\
---------------------------------------------------------------------------
    \34\ Ibid.
---------------------------------------------------------------------------
    In New Jersey, women who take paid leave after a child's birth are 
more likely to be employed the following year and report increased 
wages than women who do not take leave. Parents who took leave report 
lower levels of public assistance (about 40 percent less) in the year 
following their child's birth, when compared to those without paid 
leave.\35\
---------------------------------------------------------------------------
    \35\ Houser, L and Vartanian, T. (2012 January). ``Pay Matters: The 
Positive Economic Impacts of Paid Family Leave for Families, Businesses 
and the Public, A Report of the Center for Women and Work.'' Rutgers 
School of Management and Labor Relations. Retrieved May 18, 2014 from 
http://news.rutgers.edu/news-releases/2012/01/rutgers-study-finds-
20120118#.U3Zi
J9JdXTo.
---------------------------------------------------------------------------
    Another benefit of family and medical leave insurance is that it 
increases men's role in caregiving by making it possible for them to be 
involved without the family taking a big financial hit.\36\ In 
California, for example, fathers' leave-taking for bonding with a new 
child rose 12 percent from 2011 to 2012.
---------------------------------------------------------------------------
    \36\ Appelbaum, E and Milkman, R. (2011). ``Leaves That Pay: 
Employer and Worker Experiences with Paid Family Leave in California.'' 
Center for Economic and Policy Research. Retrieved May 18, 2014 from 
http://www.cepr.net/documents/publications/paid-family leave-1-
2011.pdf.
---------------------------------------------------------------------------
    Paid family leave also promotes children's well-being. Ensuring 
that new parents can take time to care for a newborn gives babies their 
best start in life. Four-fifths of respondents who took paid leaves 
reported they were better able to care for a new baby.\37\ New mothers 
who take paid leave are more likely to take the minimum doctor-
recommended 6 to 8 weeks to recover from birth.\38\ Newborns whose 
mothers take 12 weeks of leave are more likely to be breast-fed, 
receive regular check-ups, and get critical immunizations.
---------------------------------------------------------------------------
    \37\ Ibid.
    \38\ Gomby, D., & Pei, D. (2009). ``Newborn Family Leave: Effects 
on Children, Parents, and Business.'' David and Lucile Packard 
Foundation publication. Retrieved 4 January 2013, from http://
www.packard.org/wp-content/uploads/2011/06/NFLA_fullreport_final.pdf.
---------------------------------------------------------------------------
    An examination of more than two decades of data from 16 European 
countries showed that paid parental leave policies were associated with 
lower rates of infant and child mortality.\39\
---------------------------------------------------------------------------
    \39\ Ruhm, C., ``Parent Leave and Child Health,'' Journal of Health 
Economics 19, no. 6 (2000), 931-60.
---------------------------------------------------------------------------
    And paid family leave promotes the well-being and independence of 
seniors by enabling families to care for aging parents without fear of 
losing all their wages and allowing seniors to age in their homes 
instead of State facilities. This also saves taxpayer money.\40\ When 
cared for by family members, patients in the hospital recover from 
illness and injury faster, leading to shorter hospital stays, improved 
health outcomes, and decreased health costs.\41\
---------------------------------------------------------------------------
    \40\ Institute of Medicine of the National Academies (2008 April). 
``Retooling for an Aging America: Building the Health Care Workforce.'' 
Retrieved May 18 2014 from http://www.iom.edu/Reports/2008/Retooling-
for-an-Aging-America-Building-the-Health-Care-Workforce.aspx.
    \41\ Taylor, MRH and O'Connor, P. Resident parents and shorter 
hospital stay, National Children's Hospital and Department of 
Paediatrics, Trinity College, Dublin. Retrieved May 18, 2014 from 
http://adc.bmj.com/content/64/2/274.full.pdf+html.
---------------------------------------------------------------------------
    Businesses support family and medical leave programs and 
replacement income provided by FMLI goes right back into the local 
economy, as workers spend it to help cover the basics.
    According to Herb Greenberg, founder and CEO of Caliper, a human 
resources consulting firm in New Jersey:

          ``Family Leave Insurance . . . has been a huge positive for 
        Caliper. When you think about the cost of individuals leaving, 
        the cost of seeking new employees, the cost of maybe hiring the 
        wrong person, training them, etc., and you compare that to the 
        pennies that Family Leave costs you--there is just no 
        comparison in terms of the pure balance sheet.'' \42\
---------------------------------------------------------------------------
    \42\ Family Values @ Work. ``From the Story Bank: Dr. Herb 
Greenberg's Story.'' http://familyvaluesatwork.org/story/dr-herb-
greenbergs.

    A survey for Small Business Majority found that 6 in 10 New York 
small business owners support a family and medical leave program with 
shared contributions from employers and employees.\43\
---------------------------------------------------------------------------
    \43\ Small Business Majority (2013 December). ``New York Small 
Businesses Support Publicly Administered Family and Medical Leave 
Insurance Pools.'' Retrieved May 18, 2014 from http://
www.smallbusinessmajority.org/small-business-research/family medical-
leave/121213-NY-FML-report.php.
---------------------------------------------------------------------------
                             paid sick days
    Working women also need to be able to take a day off when they or 
their kids are sick. Because of the momentum behind paid sick days 
policies, more than two million people previously uncovered now have 
that protection. Millions more can use those sick days to care for an 
ill family member and all can do so without being disciplined for using 
the time they have earned.
    That means mothers are not losing grocery money when their kids get 
the flu; it means that workers are not going to work sick to spread the 
flu. A growing body of research affirms that these policies help 
strengthen families while having a positive or no negative effect on 
business profitability, productivity, performance and morale.
    San Francisco was the first city with the law, followed by wins in 
DC, then Seattle and the State of Connecticut. 2013 saw paid sick days 
measures pass in Portland, New York City and Jersey City and an 
expansion to tipped workers in DC. Already this year Newark enacted 
paid sick days and New York City expanded its new laws. More wins are 
likely before the end of this year.
    The combined impact on our economy, on our families and on 
businesses is worth noting.
    First, economists say job retention policies like paid sick days 
help reduce unemployment and strengthen the economy,\44\ and the local 
economies where paid sick days policies have been implemented are doing 
well. For instance, more than two in three businesses in San Francisco 
support their city's paid sick days law and six in seven employers 
report no negative impact on profitability.\45\ The city experienced 
better job growth than five surrounding counties without earned sick 
time.\46\ PriceWaterhouseCoopers ranked San Francisco as one of the top 
cities in the world to do business. Even the chief lobbyist against the 
bill in San Francisco told Businessweek it's ``the best public policy 
for the least cost.'' \47\
---------------------------------------------------------------------------
    \44\ Appelbaum, E and Golden, L. ``Sick days for healthy 
recovery.'' April 29, 2011. Philadelphia Business Journal. http://
www.bizjournals.com/philadelphia/print-edition/2011/04/29/sick-days-
for-healthy-recovery.html.
    \45\ Drago, R and Lovell, V (2011 February). ``San Francisco's Paid 
Sick Leave Ordinance: Outcomes for Employers and Employees,'' Institute 
for Women's Policy Research. Retrieved May 18, 2014 from http://
www.iwpr.org/publications/pubs/San-Fran-PSD.
    \46\ Petro, J (2011 January). ``Paid Sick Leave Does Not Harm 
Business Growth or Job Growth,'' Drum Major Institute for Public 
Policy. Retrieved May 18, 2014 from http://everybodybenefits.org/wp-
content/uploads/2011/01/Paid_Sick_Leave_Does_Not_Harm.pdf.
    \47\ Warren, J. ``Cough If You Need Sick Leave,'' Businessweek. 
June 3, 2010. http://www.businessweek.com/magazine/content/10_24/
b4182033783036.htm.
---------------------------------------------------------------------------
    Since Connecticut enacted the first statewide paid sick days law, 
the Department of Labor reports that employment has grown in 
Connecticut's Leisure and Hospitality \48\ and Education and Health 
Services \49\ sectors, the two most impacted by the new law. A recent 
study by Eileen Appelbaum and Ruth Milkman showed more than three-
quarters of Connecticut employers are supportive of the law.\50\ The 
authors found that the law had minimal effects on businesses. Typically 
businesses covered absent workers by assigning the work to other 
employees, a solution which has little effect on costs. Since the 
implementation of the paid sick days law, Connecticut employers saw 
decreases in the spread of illnesses and increases in morale, among 
many more effects.\51\
---------------------------------------------------------------------------
    \48\ Industry Sector Employment (CES)--State of Connecticut, State 
of Connecticut Labor Market Information. Retrieved May 18, 2014 from 
http://www.ctdol.State.ct.us/lmi/SecEmp.asp#
map8.
    \49\ Ibid.
    \50\ Kroeger, T, ``Is Paid Sick Leave Good for Business?'' Center 
for Economic and Policy Research, January 6, 2014. http://www.cepr.net/
index.php/blogs/cepr-blog/is-paid-sick-leave-good-for-business.
    \51\ Appelbaum, E and Milkman, R. (2014 January). ``Good for 
Business? The Case of Paid Sick Leave in Connecticut. Retrieved May 18, 
2014 from http://www.cepr.net/documents/presentations/
CT_PSD_Jan_2014.pptx.
---------------------------------------------------------------------------
    Administrators of the programs also confirm that they are not a 
burden on business. Donna Levitt, Division Manager, San Francisco 
Office of Labor Standards Enforcement, told Connecticut legislators in 
2011, ``Since [the PSLO took effect in February 2007,] we have heard 
relatively few complaints or problems with respect to implementation of 
the law . . . I am not aware of any employer in San Francisco who has 
reduced staff or made any other significant change in their business as 
a result of the sick leave ordinance.'' \52\
---------------------------------------------------------------------------
    \52\ http://cga.ct.gov/2011/LABdata/Tmy/2011SB-00913-R000301-
Donna%20Levitt-City%20of
%20San%20Francisco-TMY.PDF.
---------------------------------------------------------------------------
    Earned sick days strengthen families. The Healthy Families Act--and 
local and State bills--would make it easier for workers to be good 
employees and good parents and will let children lead healthier lives, 
be more successful in school and be better prepared for the future. 
Seniors will also benefit when adult children can afford to take them 
to the doctor or care for them during an illness. Today, as a hospital 
administrator in Atlanta testified, hospital hallways are often lined 
with seniors whose adult children cannot leave work to pick them up 
after a test or minor procedure.
    When their parents are able to care for them at home, sick children 
get better sooner and reduce the risk of spreading the illness to their 
classmates,\53\ and parents with paid sick days are less likely to send 
a sick child to school.
---------------------------------------------------------------------------
    \53\ Heymann, J. ``We Can Afford to Give Parents a Break,'' 
Washington Post, May 14, 2006. http://www.washingtonpost.com/wp-dyn/
content/article/2006/05/12/AR2006051201817.html.
---------------------------------------------------------------------------
    Sick days also let parents keep their children healthy by getting 
them to doctor visits for detection, treatment, and vaccinations. 
Earned sick days protect public health and will make our country a 
safer, healthier place to live.
    Small businesses support earned sick days because it's good for 
their bottom line. The real experiences of small businesses show earned 
sick days result in reduced turnover, which saves businesses money. Jim 
Houser, owner of Houser Automotive Clinic in Portland, OR, says that 
because employees know ``we care about their health and well-being, 
they're loyal to us in return.'' \54\ The average tenure for his 
employees is 18 years, bringing enormous savings in recruitment and 
training costs. ``Any business person can calculate what that means for 
overall savings,'' says Houser.
---------------------------------------------------------------------------
    \54\ Family Values @ Work and Main Street Alliance, (2011). ``How 
Your Business Can Benefit from Paid Sick Days,'' retrieved May 15, 2014 
from http://familyvaluesatwork.org/wp-content/uploads/2011/10/Business-
Outreach-Trifold-Brochure.pdf.
---------------------------------------------------------------------------
    Paid sick days boost businesses and the economy overall by keeping 
money in people's pockets. Freddy Castiblanco, owner of Terraza 7 Train 
Cafe in Queens, recognizes that other employers' workers are his 
customers. ``If we protect the salaries, if we give job stability, we 
are going to protect the purchasing power of potential customers,'' he 
says. ``If you give me tax cuts, I won't be able to generate any more 
jobs. What really creates jobs in my community is customers.'' \55\
---------------------------------------------------------------------------
    \55\ Community Service Society of New York (March 2013,) ``Latino 
Workers Can't Afford to Get Sick,'' retrieved May 15, 2014 from http://
b.3cdn.net/nycss/8edff06bac4f0ab330_4dm6b625v
.pdf.
---------------------------------------------------------------------------
                               conclusion
    Recently one of our leaders in Maryland, Melissa Broome, spent a 
week at Johns Hopkins Hospital with her 4-year-old son, Owen. Both 
Melissa and her husband had paid sick days that allowed them to be at 
his side so they could, as Melissa put it, hold his hand and whisper in 
his ear every time he was poked and prodded. Fortunately, Owen will be 
fine. But it broke Melissa's heart to see how many children were alone 
during the day. When they took Owen for a walk through the halls in a 
red wagon, he didn't ask why so many of the kids were bald. But he did 
ask, ``Where are that boy's mommy and daddy? . . . He shouldn't be all 
by himself.'' \56\ Talking to a parent in the family kitchen one 
evening, Melissa learned that this woman's 18-month-old daughter was 
about to be discharged with a feeding tube. Her day care won't take 
children with feeding tubes. ``I don't know how I'm going to be able to 
keep my job,'' the woman said. ``I don't know what I'm going to do.''
---------------------------------------------------------------------------
    \56\ Melissa Broome, ``Choosing Between Your Child and Your Job,'' 
May 16, 2014 Baltimore Sun http://articles.baltimoresun.com/2014-05-16/
news/bs-ed-family-leave-20140517_1_johns-hopkins-children-owen-day-
care#.U3jS9jnS6PI.email.
---------------------------------------------------------------------------
    It may be very difficult to cure the diseases that afflict these 
children. But it is not difficult to institute policies like paid sick 
days and family and medical leave insurance so that their parents can 
hold their hands and whisper in their ears.
    We thank you for holding this hearing today and hope that you will 
champion these policies--not as a favor to women but as a way to 
strengthen families, businesses and the economy.

    The Chairman. Thank you, Ms. Bravo.
    Ms. Goss Graves.

 STATEMENT OF FATIMA GOSS GRAVES, VICE PRESIDENT FOR EDUCATION 
  AND EMPLOYMENT, NATIONAL WOMEN'S LAW CENTER, WASHINGTON, DC

    Ms. Goss Graves. Thank you, Chairman Harkin and Ranking 
Member Alexander and members of the committee, for the 
opportunity to speak today on behalf of the National Women's 
Law Center. We've had 50 years of laws on the books that 
provide baseline protections against discrimination in the 
workplace. But what we know is that employment discrimination 
still takes place across the income spectrum, and workers in 
low-wage jobs are hit shockingly hard by it.
    Sexual harassment remains a persistent problem, and the 
cases are filled with reports that seem like they must come 
from another time. Women report being verbally and physically 
abused and even raped on the job. One positive step is the 
recently introduced Fair Employment Protection Act, which would 
help provide stronger protection for workers who experience 
harassment on the job from their bosses.
    Despite the Pregnancy Discrimination Act, women continue to 
face sex discrimination because of stereotypes about women who 
are pregnant or who have caregiving responsibilities, including 
being forced off the job entirely because of their pregnancy.
    One of our clients, Amy Crosby's, case illustrates this 
problem. She worked as a cleaner in a hospital in Florida, 
lifting up to 50 pounds each day. The hospital refused her 
request for an accommodation when her doctor advised that she 
receive one, placed her on unpaid leave, and threatened to fire 
her. Never mind that they accommodated workers who had 
temporary disabilities and those that had been injured on the 
job for other reasons.
    Cases like Amy Crosby's are just the tip of the iceberg. 
The Pregnant Workers Fairness Act would provide a lifeline to 
pregnant workers who need reasonable accommodations to be able 
to stay on the job.
    We also know that pay discrimination is present, even in 
the lowest paying fields. In the 10 largest low-wage 
occupations, women working full-time were typically paid 90 
percent of what their male counterparts were paid each week. 
Latoya Weaver of Maryland is one example. She worked full-time 
at a hotel in Maryland, ultimately making $8.88 an hour. She 
later learned that two male co-workers were paid $10 an hour 
for doing the same job. The Paycheck Fairness Act would make it 
easier to detect pay discrimination and provide employers with 
more incentives to address it voluntarily.
    We know that women who are paid low wages and who are 
juggling multiple personal and caregiving and financial 
responsibilities have a lot on their shoulders, and we know 
they can least afford to have their livelihood threatened by 
discrimination. We really owe it to these workers to make a 
serious effort to address the many remaining barriers that they 
face.
    Thank you for having me today, and I look forward to any 
questions.
    [The prepared statement of Ms. Goss Graves follows:]
                Prepared Statement of Fatima Goss Graves
    Thank you for the opportunity to speak today on behalf of the 
National Women's Law Center on the critical issue of economic security 
for working women. The National Women's Law Center has been working 
since 1972 to secure and defend women's legal rights. We advance the 
issues that cut to the core of women's lives in education, employment, 
family and economic security, and health and reproductive rights--with 
special attention given to the needs of low-income women and their 
families. We believe that ending all forms of workplace discrimination 
is crucial to removing barriers to women's economic opportunity.
    Employment discrimination takes place across the income spectrum, 
but workers in low-wage jobs are hit shockingly hard. For example, 
about 50 percent of pregnancy discrimination charges filed with the 
Equal Employment Opportunity Commission (EEOC) between 1996 and 2005 
involved the service or retail industries.\1\ Between January and 
November 2011 alone, 37 percent of sexual harassment charges filed with 
the EEOC came from women in the restaurant industry.\2\ These are jobs 
that tend to be low-wage.
    Women working in low-wage jobs, who are juggling multiple personal, 
caregiving, and financial responsibilities, can least afford to have 
their livelihoods threatened by discrimination. But they also 
unfortunately confront systemic discrimination that shapes their basic 
employment opportunities. Women are subject to sexual harassment, 
experience discrimination when pregnant or caregiving, and are paid 
less in nearly every occupation, even those that pay the very lowest 
wages. These and other basic violations of the employment 
discrimination laws continue 50 years after Congress outlawed workplace 
discrimination in Title VII of the Civil Rights Act, and undermine the 
advancement of women in jobs in nearly every sector.
     i. sexual harassment remains pervasive in low-wage workplaces
    Sexual harassment remains a persistent problem in workplaces 
overall and in low-wage workplaces in particular. In fiscal year 2013, 
the combined total number of harassment charges filed with the Equal 
Employment Opportunity Commission (EEOC) and State and local Fair 
Employment Practices Agencies was over 30,000.\3\ More than 10,000 of 
these charges involved sexual harassment, and 82 percent were brought 
by women.\4\ But these numbers probably do not even come close to 
reflecting the extent of sexual harassment. In a recent survey, 60 
percent of workers who experienced harassment said they never reported 
it.\5\ The pervasiveness of sexual harassment has also been well-
documented among low-wage workers.\6\ In a study of more than 1,200 
predominantly low-income union workers in the Boston area, 26 percent 
of women and 22 percent of men reported experiencing sexual 
harassment.\7\ African-American women were more likely to report having 
experienced sexual harassment (28 percent) than white women (21 
percent) and Latinas (17 percent).\8\
    Sexual harassment is pervasive in many low-wage sectors. For 
example, a survey conducted by Restaurant Opportunities Centers (ROC) 
United found that more than 1 in 10 workers in the restaurant industry 
reported that they or a coworker had experienced sexual harassment, and 
this is likely an undercount.\9\ As noted above, a 2011 review by MSNBC 
of EEOC charge data found that nearly 37 percent of EEOC sexual 
harassment charges from January to November 2011 came from women in the 
restaurant industry.\10\ Workers have described harassment in 
restaurants as simply ``an accepted part of the culture.'' \11\ Women 
working in agriculture, who are often migrant workers, are also 
especially vulnerable to sexual harassment. Sexual harassment and 
assault is so common that farms in California have been referred to by 
farm workers as the ``field of panties'' and farms in Florida as the 
``Green Motel.'' \12\
    More than 15 years ago, the Supreme Court put in place strong 
protections against workplace harassment. Recognizing the potential for 
supervisors to abuse their power over their subordinates, in Burlington 
Industries, Inc. v. Ellerth and Faragher v. City of Boca Raton, the 
Supreme Court held that employers have a heightened legal 
responsibility to protect workers from supervisor harassment.\13\ 
Faragher and Ellerth established an important principle: because a 
supervisor's ability to harass is a direct result of the authority 
given to the supervisor by the employer, the employer should be liable 
for the supervisor's actions unless the employer can show that it took 
steps to prevent harassment and to address harassment when it occurred, 
and that the plaintiff failed unreasonably to take advantage of the 
opportunities provided by the employer to report and address the 
harassment.\14\ This rule encourages employers to put policies in place 
to prevent harassment and to respond promptly and effectively when 
harassment occurs.
    However, the Supreme Court recently undermined this longstanding 
principle in the narrow 5-4 decision in Vance v. Ball State 
University.\15\ Maetta Vance, an African-American employee who worked 
in the catering department at Ball State, filed a lawsuit against her 
employer for racial harassment alleging that Saundra Davis, whom Vance 
argued was her supervisor, subjected Vance to racial slurs, threats, 
and intimidation.\16\ Because Davis did not have the power to take 
tangible employment actions against Vance, the Court held that Davis 
did not qualify as Vance's supervisor, and that Ball State could not be 
held vicariously liable for Davis's actions.\17\ The decision held that 
heightened protections from harassment no longer apply to harassment by 
those higher-ups who direct daily work activities but do not have the 
power to hire and fire.\18\ Now, workers who are harassed by their boss 
must proceed under the more difficult negligence standard that applies 
in coworker harassment cases, unless that boss has the power to hire 
and fire.\19\ And their cases may be thrown out as a result.
    Unfortunately this decision has the potential to have negative 
consequences for millions of workers, and especially for low-wage 
workers. Based on a review of the academic literature and an informal 
survey of sector-based organizations advocating for workers, we believe 
that millions of lower-level supervisors have significant power over 
low-wage workers.\20\ First, our analysis shows that there are more 
than 6-million lower-level supervisors in our Nation's workplaces, and 
that more than half of these oversee low-wage workers.\21\ Second, our 
analysis suggests that these lower-level supervisors have significant 
responsibility for directing entry-level workers' day-to-day 
activities.\22\ And finally, our analysis suggests that most of these 
lower-level supervisors have no formal authority to hire or fire 
workers, which often lies with managers.\23\ All of that tells us that 
most employees with the day-to-day management authority are not the 
ones with the formal power to hire or fire employees, and are therefore 
not supervisors in the eyes of the law when it comes to holding their 
employers liable for harassment that they might perpetrate.
    Because they often have little bargaining power, workers in low-
wage jobs can be severely affected by harassment that involves 
manipulation of their daily work activities.\24\ And this is exactly 
the type of harassment that lower-level supervisors are well-positioned 
to perpetrate. The person who tells you to clean toilets instead of 
working the register, to stay late, to work on weekends, or to work the 
night shift, is enough of a boss to make your life miserable.
    Take 15-year-old Megan McCafferty, for example. Jacob Wayne 
Peterson was McCafferty's 21-year-old shift supervisor at McDonald's, 
and was often the most senior person on duty when McCafferty worked. 
Peterson participated in McDonald's manager-in-training program, 
assigned job duties, scheduled break time, and had authority to 
authorize overtime and to send employees home when work was slow or 
when an employee had engaged in misconduct. One day McCafferty agreed 
to cover a shift for a coworker, and Peterson promised to pick her up 
from school to give her a ride to work. But when Peterson picked up 
McCafferty he told her that she did not have to report to work that 
day; instead he drove her to his friend's home and then his own house, 
where she alleged that he supplied her with drugs and alcohol and 
repeatedly sexually assaulted her. McCafferty brought a sexual 
harassment lawsuit, but the trial court dismissed her case on the 
grounds that her employer could not be held liable for Peterson's 
actions, since he was not a supervisor as defined in the Vance decision 
because he did not have the power to hire, fire, or promote employees. 
The appellate court then affirmed the lower court's dismissal on these 
grounds.\25\
    In March Senator Baldwin, Chairman Harkin, Representative Miller, 
and Representative DeLauro introduced the Fair Employment Protection 
Act, which addresses this loophole in the law.\26\ The bill would amend 
Title VII of the Civil Rights Act of 1964, the Americans with 
Disabilities Act, the Age Discrimination in Employment Act, the Genetic 
Information Nondiscrimination Act and other Federal nondiscrimination 
laws to restore strong protections from harassment by making clear that 
employers can be vicariously liable for harassment by individuals with 
the authority to undertake or recommend tangible employment actions or 
with the authority to direct an employee's daily work activities. In 
other words, workers who report to higher-ups without the authority to 
hire and fire--and many of the employees making these reports will be 
low-wage workers--would once again have an effective remedy if these 
higher-ups abuse their power through harassment. Such robust protection 
against sexual harassment is critical if women are to have a fair shot 
to succeed in the workplace.
ii. women are penalized for pregnancy and for caregiving, leaving them 
  with lower wages and sometimes forcing them out of a job altogether
    Despite women making up nearly half the labor force today, women 
also still continue to shoulder a far larger share of caregiving 
responsibilities than men, on average.\27\ And women continue to 
experience sex discrimination at work because of employers' gender 
stereotypes about the competence and commitment of women with 
caregiving responsibilities. A recent study about the penalty that 
women who are mothers face in the workplace illustrates this point. In 
that study, employers recommended mothers for hire less often, 
recommended lower starting salaries for them, and rated them as less 
competent than non-mothers with nearly identical resumes.\28\ (In 
contrast, fathers were recommended for hire more often, regarded as 
more competent, and recommended for higher salaries than non-fathers.) 
\29\ Indeed, motherhood accounts for a large proportion of the wage gap 
between women and men. Women who work full-time, year-round are 
typically paid only 77 cents for every dollar paid to their male 
counterparts.\30\ However, there is an even larger gap between parents: 
among full-time, year-round workers, mothers earn only 69 percent what 
fathers earn.\31\ Sociologists have documented a wage penalty of 
approximately 4 to 15 percent per child, with low-wage workers 
suffering the largest penalties.\32\ Discrimination against caregivers 
based on gender stereotypes constitutes sex discrimination,\33\ and 
enforcement of protections against this form of discrimination is 
especially important for women in low-wage jobs.
    Pregnant workers face particular burdens. Prior to the Pregnancy 
Discrimination Act of 1978 (PDA), it was not uncommon for employers to 
categorically exclude pregnant workers from particular jobs, particular 
industries, or the workforce entirely. The PDA changed this forever by 
providing that the right to be free of discrimination on the basis of 
sex includes: (1) the right not to be treated adversely because of 
pregnancy, childbirth, or related medical conditions; and (2) the right 
for workers affected by pregnancy, childbirth, or related medical 
conditions to be treated as well as other employees not so affected who 
are ``similar in their ability or inability to work.'' \34\
    While these protections have been critical to women's advances in 
the workforce, the latest data show that women continue to face 
pregnancy discrimination on the job. In fact, between 1997 and 2011 the 
number of pregnancy discrimination charges received by the EEOC and 
State and local counterparts increased by nearly 50 percent.\35\ Today, 
women are still being forced off the job because of pregnancy.
    In particular, pregnant workers sometimes have a medical need for 
temporary adjustments of job duties or work rules so that they can 
continue to work safely and provide the income on which their families 
depend. While many women will work through their pregnancies without 
any need for accommodations, these adjustments are necessary for 
others, especially in jobs that require running, lifting, long periods 
of standing, or repetitive motions--physical activities that may pose 
challenges to some women at some stages of pregnancy. However, too 
often when pregnant workers ask even for modest accommodations 
recommended by their medical provider, like the opportunity to sit on a 
stool or drink water during a long shift, they are instead forced onto 
unpaid leave, or even fired.\36\ Indeed, 35 years after the passage of 
the PDA, employers continue to believe that they have no obligation to 
provide reasonable accommodations to workers with limitations arising 
out of pregnancy, even when they provide these accommodations to 
workers with similar limitations arising out of disabilities or 
injuries unrelated to pregnancy.\37\ One recent survey estimated that 
more than a quarter of a million pregnant workers are denied their 
requests for reasonable accommodations nationally every year.\38\
    Amy Crosby's case illustrates this problem. She worked as a cleaner 
in a hospital in Florida, cleaning 20 to 30 hospital rooms per shift 
and lifting up to 50 pounds of trash and linens each day. After she 
became pregnant, she started experiencing intense shooting pains in her 
back and arms due to carpal tunnel syndrome exacerbated by her 
pregnancy, and her OB-GYN advised that she not lift more than 20 
pounds. But the hospital refused to accommodate her, because it said it 
would only accommodate workers injured on the job or people with 
disabilities and that she did not qualify under either of those 
categories, since she was pregnant. Crosby knew of other cleaners in 
her department who were accommodated when they had medical needs 
unrelated to pregnancy, by being allowed to perform other tasks or 
getting help with heavy lifting. But the hospital placed Crosby on 12 
weeks of FMLA leave, which was due to run out more than a month before 
her due date--and threatened to fire her if she did not return to work 
without restrictions once this leave was up, even though she would be 
in the middle of her last trimester.\39\
    As this story shows, women working in low-wage jobs often work in 
jobs that are physically demanding--for example, jobs in the retail 
sector, in food service, in nursing assistance, or in housekeeping--and 
are particularly likely to have a medical need for workplace 
accommodations during pregnancy as a result. Yet these same sectors 
often are marked by inflexible workplace cultures, which lead to 
employers refusing to make accommodations as simple as providing a 
stool to sit on or the right to drink water during a long shift.
    Women of color and immigrant women make up a disproportionate share 
of the workers in low-paying jobs that are also physically demanding. 
For example, immigrant women make up just 7 percent of employed workers 
but 45 percent of workers are employed as maids or housekeepers.\40\ 
Workers in these jobs are typically paid less than $10 an hour.\41\ 
Latinas make up only 7 percent of employed workers, but make up 26 
percent of workers employed as hand packers and packagers \42\--jobs 
that also pay only $10 per hour.\43\ These are jobs where workers can 
spend the bulk of their days standing, walking, or moving and lifting 
heavy objects \44\--which can be a challenge or pose a health risk for 
some pregnant workers.
    To address this problem, the Equal Employment Opportunity 
Commission must follow through on its identification of pregnancy 
accommodations as a strategic enforcement priority, and strengthen 
enforcement of the PDA and the Americans with Disabilities Act, to 
ensure pregnant workers receive the accommodations to which they are 
entitled under current law. In addition, the Pregnant Workers Fairness 
Act, introduced by Senator Casey, Senator Shaheen and Representative 
Nadler, would provide a lifeline to pregnant workers.\45\ This bill 
would make it unmistakably clear that workers who need changes in job 
rules or duties because of physical limitations arising from pregnancy, 
childbirth, or a related medical condition can get such reasonable 
accommodations. In other words, the bill treats medical needs for 
accommodation arising out of pregnancy or childbirth in the same way 
that the Americans with Disabilities Act treats medical needs for 
accommodation arising out of disability, requiring that employers 
provide these accommodations if they can do so without undue 
hardship.\46\
    Low-wage jobs that are primarily held by women are also marked by 
work scheduling policies and practices that pose particular challenges 
for workers with significant responsibilities outside of their job, 
including caregiving, pursuing education and workforce training, or 
holding down a second job.\47\ The work schedules in these jobs are 
often unpredictable, unstable and inflexible. For example, in some low-
wage sectors ``just-in-time'' scheduling practices, which base workers' 
schedules on perceived consumer demand, often result in workers being 
given very little advance notice of their work schedules\48\--a 
practice that can make it nearly impossible to arrange child care, take 
a second job, or enroll in post-secondary courses. Indeed, in the 
retail sector workers report that they are routinely required to work 
call-in shifts, which means they must call their employer to find out 
whether they will be scheduled to work that day--and if they are told 
to report to work, they often must do so within 2 hours.\49\ Many 
workers in low-wage jobs experience unstable schedules with hours that 
vary from week to week or month to month, or periodic reductions in 
work hours when work is slow, leading to major fluctuations in income 
that put workers and their families in financial jeopardy. And many of 
these jobs require working nights, weekends or even overnight, or offer 
only part-time work, despite many workers' need for full-time hours.
    These challenging work schedules have a cascade of negative 
consequences for both workers in low-wage jobs and their children. In 
contrast, fairer work schedules benefit employees and employers alike. 
Workers in low-wage jobs report that more job autonomy and involvement 
in management decisionmaking led to less negative spillover from work 
to their non-work life.\50\ Employees with flexible workplaces are less 
stressed and have better physical and mental well-being.\51\ Less 
negative spillover from work also leads to greater productivity and job 
retention: lower-wage workers with flexibility are almost half as 
likely as other workers to intend to leave their positions within 2 
years.\52\ State and local governments have taken the lead in exploring 
innovative solutions to some of the problems posed by abusive 
scheduling practices, including requiring some minimum hours of pay for 
workers who are called into a shift or premium pay for workers required 
to work particularly challenging schedules. Some have also protected 
workers' rights to request changes in their schedules at work, without 
fear of retaliation--as would be protected through the Flexibility for 
Working Families Act introduced by Senator Casey and Representative 
Maloney.\53\ These State and local innovations suggest ways in which 
Federal law could promote fairer work schedules, which is particularly 
important for workers with caregiving responsibilities.
 iii. women experience pay discrimination, even in the lowest paid jobs
    The wage gap between women and men persists in nearly every 
occupation, and affects women across the income spectrum.\54\ There are 
a range of unfair factors that contribute to the wage gap including: 
job segregation, and the fact that women-dominated jobs pay less than 
male-dominated jobs; the lower pay that women who are mothers face, as 
discussed above; and the fact that even when women are working in the 
same jobs as men, they are often still paid less.\55\ The wage gap 
exists even in the lowest paid fields. In the 10 largest low-wage 
occupations, women working full-time were typically paid only 90.4 
percent of what their male counterparts were paid each week--an average 
wage gap of 9.6 cents for every dollar earned by men.\56\
    Latoya Weaver is one woman who experienced pay discrimination 
first-hand. She worked full-time as a Guest Services Representative at 
a hotel in Maryland, ultimately making $8.88 an hour.
    In 2012 she was offered another job that would pay more, but she 
wanted to stay at the hotel so she asked for a raise to $9.50. Her 
manager turned her down because she said that the hotel was undergoing 
construction, so Weaver ended up taking the other job. During her time 
at the hotel, employees were told that they were not supposed to 
discuss their pay with each other. However, just before Weaver left the 
hotel for her new job she saw some papers that her manager left sitting 
out that showed that two men recently hired as Guest Services 
Representatives were each making $10 an hour. As a single mother of 
three children, being paid fairly would have made a huge difference to 
Weaver, who struggled to pay $100 out-of-pocket each week for child 
care. In order to finally get a job that would pay her more, she had to 
travel 45 minutes from her home.
    The Equal Pay Act (EPA), along with Title VII of the Civil Rights 
Act, has helped to reduce pay discrimination, but the protection 
offered by the EPA is weakened by court decisions that have opened 
loopholes in the Act--including by allowing employers to escape 
accountability for pay disparities even when they are not related to 
business needs--and by the incomplete remedies the Act provides.\57\ In 
addition, too often wage disparities go undetected and thus unremedied 
because employers maintain policies that punish employees who 
voluntarily sharelary information with their coworkers.\58\
    The Paycheck Fairness Act, introduced by Senator Mikulski and 
Representative DeLauro, is a commonsense piece of legislation that 
would strengthen the EPA in a number of important ways by making it 
easier to identify and remedy discriminatory pay decisions, closing 
loopholes in the law, and providing incentives for employers to 
voluntarily comply with the law.\59\ For example, the bill would 
prohibit retaliation against employees for discussing their pay; bring 
the remedies for equal pay violations in line with those available for 
other pay discrimination based on race or ethnicity by allowing 
plaintiffs who win their equal pay cases to recover compensatory and 
punitive damages; and tighten the defenses available to employers by 
requiring employers to provide a business justification for paying 
unequal wages.\60\
    The Fair Pay Act, introduced by Chairman Harkin and Representative 
Holmes Norton, would address the devaluation of women's work simply 
because it is done by women.\61\ The bill would ensure that female-
dominated jobs receive the same pay as male-dominated jobs that require 
equivalent skill level, effort, responsibility and working conditions.
    Title VII of the Civil Rights Act of 1964 outlined a fundamental 
promise--a promise that a woman's sex or race or ethnicity would no 
longer prevent her from having access to any opportunity in the 
workplace. Yet, the sort of biases that underlie all of these 
discriminatory practices that I've described today, and more, are 
really rooted in outmoded stereotypes about women. For example, the 
stereotype that women are not breadwinners and that families do not 
rely on women's income and women therefore do not need higher pay often 
underlies employer decisions to pay men more than women and to offer 
career-track, family-supporting jobs to men only. Women are also 
regularly confronted by the idea that women working particular jobs 
should just put up with harassment as a part of the job, and the idea 
that women cannot be productive workers and take care of their families 
at the same time. It is clear that a serious effort is still required 
to fulfill that promise and address the many remaining barriers to 
women's economic equality, especially for those in the lowest paid 
jobs.
                               References
    1. See National Partnership for Women & Families, The Pregnancy 
Discrimination Act: Where We Stand 30 Years Later Chart A (Oct. 2008), 
available at http://go.nationalpartnership.org/site/DocServer/
Pregnancy_Discrimination_
Act_here_We_Stand_30_Years_L.pdf?docID=4281.
    2. Restaurant Opportunities Centers United, et al., Tipped Over the 
Edge: Gender Inequity in the Restaurant Industry 23 (Feb. 2012), 
available at http://rocunited.org/tipped-over-the-edge-gender-inequity-
in-the-restaurant-industry/.
    3. E-mail from Indu Kundra, Senior Program Analyst, Program 
Planning and Analysis Division, Office of Research, Information and 
Planning, U.S. Equal Employment Opportunity Commission, to Lauren 
Khouri, Fellow, National Women's Law Center (Feb. 27, 2014) (on file 
with the National Women's Law Center).
    4. Id.; E-mail from Indu Kundra, Senior Program Analyst, Program 
Planning and Analysis Division, Office of Research, Information and 
Planning, U.S. Equal Employment Opportunity Commission, to Lauren 
Khouri, Fellow, National Women's Law Center (March 3, 2014) (on file 
with the National Women's Law Center).
    5. ABC News & Washington Post, One in Four U.S. Women Reports 
Workplace Harassment (Nov. 16, 2011), available at http://
www.langerresearch.com/uploads/1130a2WorkplaceHarassment.pdf.
    6. Not only does sexual harassment make working conditions for 
women in low-wage jobs extremely difficult, it also operates to keep 
women from moving into higher-paying traditionally male fields. Sexual 
harassment plays a major contributing role in the persistence of 
occupational segregation between men and women. See, e.g., Burlington 
N. & Santa Fe Ry. Co. v. White, 548 U.S. 53, 58 (2006). This 
occupational segregation in turn plays a significant role in women's 
predominance in low-wage jobs, discussed further below.
    7. Nancy Krieger, et al., Social Hazards on the Job: Workplace 
Abuse, Sexual Harassment, and Racial Discrimination, 36 Int'l J. Health 
Services 51, 67 (2006).
    8. Id.
    9. Restaurant Opportunities Centers United, supra note 2, at 23.
    10. Id.
    11. Id.
    12. Rebecca Clarren, The Green Motel, Ms. Magazine, Summer 2005, 
available at http://www.msmagazine.com/summer2005/greenmotel.asp.
    13. Burlington Industries, Inc. v. Ellerth, 524 U.S. 742, 763-65 
(1998); Faragher v. City of Boca Raton, 524 U.S. 775, 802-7 (1998). See 
also Ellerth, 524 U.S. at 754-55 (applying the principles of agency law 
to title VII employer liability).
    14. Ellerth, 524 U.S. at 763-65; Faragher, 524 U.S. at 801-7. See 
also U.S. Equal Employment Opportunity Commission, Notice No. 915.002, 
Enforcement Guidance on Vicarious Employer Liability for Unlawful 
Harassment by Supervisors (1999), available at http://www.eeoc.gov/
policy/docs/harassment.html.
    15. 133 S. Ct. 2434 (2013).
    16. Brief for the Petitioner at 6-10, Vance v. Ball State Univ., 
133 S.Ct. 2434 (2013) (No. 11-556).
    17. 133 S. Ct. at 2454.
    18. Id. at 2443, 2448.
    19. Id. at 2448.
    20. See National Women's Law Center, Reality Check: Seventeen 
Million Reasons Low-Wage Workers Need Strong Protections from 
Harassment (2014), available at http://www.nwlc.org/sites/default/
files/pdfs/final_nwlc_
vancereport2014.pdf.
    21. Id. at 8.
    22. Id. at 5-6.
    23. Id. 
    24. Stephanie Bornstein, Work, Family, and Discrimination at the 
Bottom of the Ladder, 19 Geo. J. on Poverty L. & Pol'y 1, 8-11 (2012).
    25. McCafferty v. Preiss Enterprises, Inc., 534 F. App'x 726 (10th 
Cir. 2013)
    26. Fair Employment Protection Act, S. 2133, H.R. 4227, 113th Cong. 
(2014).
    27. National Women's Law Center, 50 Years & Counting: The 
Unfinished Business of Achieving Fair Pay 14, 9 (2013), available at 
http://www.nwlc.org/sites/default/files/pdfs/
final_nwlc_equal_pay_report.pdf.
    28. Shelley J. Correll, Stephan Benard, & In Paik, Getting a Job: 
Is There a Motherhood Penalty?, 112 Am. J. Soc 1297, 1315-17 (2007), 
available at http://gender.stanford.edu/sites/default/files/
motherhoodpenalty_0.pdf.
    29. Id.
    30. National Women's Law Center, The Wage Gap Over Time (Oct. 
2013), available at http://www.nwlc.org/sites/default/files/pdfs/
wage_gap_over_time
_overall.pdf.
    31. Half in Ten And National Women's Law Center, Half in Ten Report 
2014--Poverty and Opportunity Profile: Mothers (2014), available at 
http://www.nwlc.org/sites/default/files/pdfs/mothers-poverty-
opportunity-profile.pdf.
    32. Michelle Budig, Parenthood exacerbates the gender pay gap, The 
Hill Congress Blog, Sept. 30, 2010, http://thehill.com/blogs/congress-
blog/economy-a-budget/121869-parenthood-exacerbates-the-gender-pay-gap.
    33. See U.S. Equal Employment Opportunity Commission, Enforcement 
Guidance: Unlawful Disparate Treatment of Workers with Caregiving 
Responsibilities (2007), available at http://www.eeoc.gov/policy/docs/
caregiving .html.
    34. See 42 U.S.C.  2000e(k).
    35. U.S. Equal Employment Opportunity Commission, Pregnancy 
Discrimination Charges EEOC & FEPAs Combined: fiscal year 19k97-fiscal 
year 2011, http://www.eeoc.gov/eeoc/statistics/enforcement/
pregnancy.cfm.
    36. For stories of women pushed out of work because they were 
denied the temporary accommodations that they sought during pregnancy, 
see generally National Women's Law Center and a Better Balance, It 
Shouldn't Be a Heavy Lift: Fair Treatment For Pregnant Workers (2013), 
available at http://www.nwlc
.org/sites/default/files/pdfs/pregnant_workers.pdf.
    37. Id.
    38. National Partnership for Women & Families, Listening to 
Mothers: The Experience of Expecting and New Mothers in the Workplace 3 
(Jan. 2014), available at http://www.nationalpartnership.org/research-
library/workplace-fairness/pregnancy-discrimination/listening-to-
mothers-experiences-of-expecting-and-new-mothers.pdf.
    39. See It Shouldn't Be a Heavy Lift, supra note 36, at 8.
    40. National Women's Law Center calculations based on Integrated 
Public Use Microdata--American Community Survey (IPUMS-USA), 2010-12 
multi-year ACS (three-year estimates), Minnesota Population Center, 
University of Minnesota, https://usa.ipums.org/usa/index.shtml (last 
visited Mar. 24, 2014).
    41. Bureau of Labor Statistics, Occupational Employment Statistics, 
May 2013 National Occupational Employment and Wage Estimates United 
States (2014), available at http://www.bls.gov/oes/current/
oes_nat.htm#00-0000. Maids and housekeeping cleaners had a median 
hourly wage of $9.51 in 2013.
    42. National Women's Law Center calculations based on Integrated 
Public Use Microdata--American Community Survey (IPUMS-USA), 2010-12 
multi-year ACS (three-year estimates), Minnesota Population Center, 
University of Minnesota, https://usa.ipums.org/usa/index.shtml (last 
visited Mar. 24, 2014).
    43. Bureau of Labor Statistics, supra note 41. Hand packers and 
packagers had a median hourly wage of $9.60 in 2013.
    44. See, e.g., O*NET OnLine, Details Report for: 37-2012.00--Maids 
and Housekeeping Cleaners, http://www.onetonline.org/link/details/37-
2012.00 (last visited May 16, 2014); O*NET OnLine, Details Report for: 
53-7064.00--Packers and Packagers, Hand, http://www.onetonline.org/
link/details/53-7064.00 (last visited May 16, 2014).
    45. Pregnant Workers Fairness Act, S. 942, H.R. 1975, 113th Cong. 
(2013).
    46. See National Women's Law Center, The Pregnant Workers Fairness 
Act: Making Room for Pregnancy on the Job (May 2012), available at 
http://www.nwlc.org/resource/pregnant-workers-fairness-act-making-room-
pregnancy-job.
    47. See, e.g., Restaurant Opportunities Centers United, The Third 
Shift: Child Care Needs and Access for Low-Wage Working Mothers in 
Restaurants 1-2 (July 2013), available at http://www.scribd.com/doc/
161943672/The-Third-Shift-Child-Care-Needs-and-Access-for-Working-
Mothers-in-Restaurants.
    48. See generally Nancy C. Cauthen, Demos, Scheduling Hourly Works: 
How Last Minute, Just-in-Time Scheduling Practices are Bad for Workers, 
Families and Business (2011), available at http://www.demo.org/sites/
default/files/publications/Scheduling_Hourly_Workers_Demos.pdf.
    49. Stephanie Luce & Naoki Fujita, Retail Action Project, 
Discounted Jobs: How Retailers Sell Workers Short 13 (2012), available 
at http://retailactionproject.org/wp-content/uploads/2012/03/7-
75_RAP+cover_lowres.pdf.
    50. James T. Bond & Ellen Galinsky, How Can Employers Increase the 
Productivity and Retention of Entry-Level, Hourly Employees?, Families 
and Work Institute 12 (Nov. 2006), available at http://
familiesandwork.org/site/research/reports/brief2.pdf; see also Ellen 
Galinsky, James T. Bond & Eve Tahmincioglu, What if Employers Put Women 
at the Center of Their Workplace Policies? When Businesses Design 
Workplaces that Support their Employees, Both the Businesses and the 
Employees Benefit, in The Shriver Report: A Woman's Nation Pushes Back 
from the Brink (Olivia Morgan & Karen Shelton eds., 2014) (``Overall, 
55 percent of low-
income mothers surveyed said it would be ``extremely important'' to 
``have the flexibility I need to manage my work and personal or family 
life. . . . No one surveyed said it was `not important.' '').
    51. Sloan Center on Aging & Work at Boston College, Why Employees 
Need Workplace Flexibility, http://workplaceflexibility.bc.edu/need/
need_employees (citing sources).
    52. WFD Consulting, Corporate Voices for Working Families, 
Innovative Workplace Flexibility Options for Hourly Workers 94-5 (Oct. 
2006), available at http://www.wfd.com/PDFS/
Innovative_Workplace_Flexibility_Options_
for_Hourly_Workers.pdf.
    53. Flexibility for Working Families Act, S. 1248, H.R. 2559, 113th 
Cong. (2013).
    54. See 50 Years & Counting, supra note 27, at 1.
    55. Id. at 4-9.
    56. Joan Entmacher, Katherine Gallagher Robbins, & Lauren Frolich, 
National Women's Law Center, Women are 76 Percent of Workers in the 10 
Largest Low-Wage Jobs and Suffer a 10-Percent Wage Gap (Mar. 2014), 
available at http://www.nwlc.org/sites/default/files/pdfs/
women_are_76_percent_
of_workers_in_the_10_largest_low-wage_jobs_and_suffer_a_10_percent_
wage_gap.pdf.
    57. See National Women's Law Center, Paycheck Fairness: Closing the 
``Factor Other Than Sex'' Gap in the Equal Pay Act (May 2012), 
available at http://www.nwlc.org/sites/default/files/pdfs/
factorotherthan_sexfactsheet_5.29
.12_final.pdf.
    58. See National Women's Law Center, Combating Punitive Pay Secrecy 
Policies (Apr. 2012), available at http://www.nwlc.org/sites/default/
files/pdfs/paysecrecyfactsheet.pdf.
    59. Paycheck Fairness Act, S. 84, H.R. 377, 113th Cong. (2013).
    60. National Women's Law Center, How The Paycheck Fairness Act Will 
Strengthen the Equal Pay Act (2012), available at http://www.nwlc.org/
resource/how-paycheck-fairness-act-will-strengthen-equal-pay-act.
    61. Fair Pay Act, S. 168, H.R. 438, 113th Cong (2013).

    The Chairman. Thank you very much.
    Ms. Legros, please tell us your story.

STATEMENT OF ARMANDA LEGROS, LOW-WAGE WORKER, JAMAICA ESTATES, 
                               NY

    Ms. Legros. Good afternoon, Senators. My name is Armanda 
Legros. I live in Queens, NY, with my two young boys. It's just 
them and me, and I am the sole breadwinner for our family.
    I worked for an armored truck company on Long Island for 2 
years before I was pushed out of my job. I was 6\1/2\ months 
pregnant when I pulled a muscle in my stomach doing some heavy 
lifting at work. My doctor told me to avoid heavy lifting so I 
wouldn't hurt myself again. He was also concerned because I had 
a miscarriage a few months earlier. My manager took one look at 
the note and sent me home without pay, indefinitely.
    The result was devastating. Having a child shouldn't mean 
losing your job. It should not lead to fear and financial dire 
straits. But the experience of having my son, without a 
paycheck, was one of the hardest for my family. I had no choice 
but to apply for public assistance.
    When I was 8\1/2\ months pregnant, my health insurance was 
cutoff. Once my baby arrived, just putting food on the table 
for him and my 4-year-old was a challenge. I was forced to use 
water in his cereal at times because I could not afford milk. I 
was scared every time I looked in my empty fridge.
    I'm doing my best to get back on my feet, but it's been 
really hard. I recently started a new job, but they only give 
me 17 to 18 hours per week and no benefits. I have to wait 6 
months to be considered for full-time. I used to have some 
security in my job. I used to be able to support my family and 
myself. Now I worry what will happen if I get sick or my kids 
get sick. We simply can't afford it.
    The lawyers at A Better Balance are working to defend and 
advance my legal rights. They have also inspired me to use my 
voice to seek fairness and justice for all women. That's why 
I'm here today. I implore you to stand up for women like me so 
we have an equal shot in the workplace.
    The Pregnant Workers Fairness Act would help keep women 
healthy and earning a paycheck when they need it the most. And 
the workers in this country need paid sick days, family leave 
to care for a new child or a seriously ill family member. If 
you truly value families and children, then you have to make 
sure that the women who bear those children and raise them can 
earn the fair and equal wages we need to support them.
    Thank you for this opportunity and thank you for listening.
    [The prepared statement of Ms. Legros follows:]
                  Prepared Statement of Armanda Legros
    My name is Armanda Legros. I live in Queens, NY, with my two boys, 
Aveyl (age 4) and Ayden (16 months). It's just them and me--I am the 
sole breadwinner for our family.
    I worked for an armored truck company on Long Island for 2 years 
before I was pushed out of my job. I was 6\1/2\ months pregnant when I 
pulled a muscle in my stomach doing some heavy lifting at work and had 
to miss the rest of the week recovering. My doctor told me to avoid 
heavy lifting so I wouldn't hurt myself again, and gave me a note to 
bring into work. My manager took one look at the note and sent me home 
without pay, indefinitely. He said I could only work if I had no 
restrictions--company policy. I knew this wasn't true: they had 
accommodated my co-worker who had injured his back on-the-job. The 
result was devastating.
    Having a child shouldn't mean losing your job. It should not lead 
to fear and financial dire straits. But the experience of having my 
son--without a paycheck--was one of the hardest for my family.
    I tried to get another job, but I was showing and could tell from 
the interviews that no one was going to hire me. I had to go 7 months 
without pay when I needed that income more than ever. My credit score 
dropped and I almost lost my apartment when I fell behind on rent 
payments. Even when I applied for emergency rental assistance, I didn't 
qualify because I didn't have any income coming in. My employer fought 
my unemployment benefits, and when they did finally arrive, it was 
still only a fraction of my original salary. I had no choice but to 
apply for public assistance. The experience was so draining. I almost 
fainted after waiting in line for hours. I actually fell to the ground. 
Thankfully, the stranger behind me was kind enough to help me up. I was 
desperate to leave but dreaded the thought of going back.
    When I was 8\1/2\ months pregnant, my health insurance was cutoff. 
I couldn't afford the COBRA payments and had to apply for Medicaid for 
my prenatal care. Once my baby arrived, just putting food on the table 
for him and my 4-year-old was a challenge. I was forced to use water in 
his cereal at times because I could not afford milk.
    I was scared every time I looked in my empty fridge.
    I'm doing my best to get back on my feet, but it's been really 
hard. I had to apply for Medicaid for my kids, and have relied on food 
stamps to help feed my family. I started a new job in February but they 
only give me 17-18 hours of work per week, about $260/week. As a part-
time worker, I don't get any benefits. And since I work in Nassau 
County, the New York City Paid Sick Time law does not protect me. If I 
got pregnant again and needed a modest accommodation to maintain a 
healthy pregnancy or recover from childbirth, the New York City 
Pregnant Workers Fairness Act wouldn't help me either. I have to wait 6 
months to be eligible for a full-time position at my new job, which 
means it will be August 2015, at the earliest, before I could be 
entitled to Family and Medical Leave.
    I used to have some security in my job. I used to be able to 
support my family and myself. Now I worry what happens if I get sick or 
my kids get sick. We simply can't afford it. I can't even afford 
childcare for both of my kids--care for them costs an entire month's 
paycheck.
    I hate knowing this happens to other women in New York and all over 
the country, but I know it does. All the time. The lawyers at A Better 
Balance are working to defend and advance my legal rights--I shouldn't 
have been pushed out of my job for being pregnant and trying to do 
right by my family. They've also inspired me to use my voice to seek 
fairness and justice for all women--both in New York and nationwide. 
That's why I'm here today.
    I implore you to stand up for women like me so we have an equal 
shot in the workplace. The Pregnant Workers Fairness Act would ensure 
that no expecting mother in America has to choose between her job and a 
healthy pregnancy. And workers in this country need paid sick days and 
family leave to care for a new child or seriously ill family member. If 
you truly value families, and children, then you have to make sure that 
the women who bear those children and raise them can earn the fair and 
equal wages we need to support them.
    Thank you for this opportunity and thank you for listening.

    The Chairman. Thank you for being here and telling us your 
story. We've got a lot of experts here today. You're the best 
expert.
    Ms. Traub, please proceed.

STATEMENT OF AMY TRAUB, SENIOR POLICY ANALYST, DEMOS, NEW YORK, 
                               NY

    Ms. Traub. Thank you for the opportunity to participate 
today on behalf of Demos. Demos is a nonpartisan public policy 
organization working for an America where we all have an equal 
say in our democracy and an equal chance in our economy, and 
economic security for women is an essential part of an economy 
where we all have an equal chance.
    My testimony is going to focus on women in the retail 
industry, a major sector of the American economy and one that's 
projected to add more than a million jobs by 2022. I believe 
the experience of women working in retail illuminates many of 
the broader challenges facing women trying to earn a living 
throughout our economy.
    Currently, 7.2 million American women work in the retail 
industry, and retail salesperson is the most common occupation 
in the country today. Yet the typical woman working this job 
earns just $10.58 an hour, a wage that keeps a family of three 
near poverty, even if the employee is able to secure enough 
hours for full-time work.
    Erratic schedules, a lack of sufficient work hours, and a 
scarcity of basic benefits like paid sick days contribute to 
making hourly retail jobs insecure for American women, with 
serious consequences for their families and for our Nation as a 
whole. The reality is that women, who make up about half of the 
retail workforce, are disproportionately represented among low-
wage retail workers and among retail's working poor.
    At the same time, women still assume the majority of family 
caregiving responsibilities, meaning that it's 
disproportionately female retail employees who juggle care for 
children and other family members with the unpredictable and 
unstable work schedules that prevail for hourly workers in this 
industry.
    I would like to say a few words about scheduling, in 
particular, because I think it's an under-appreciated problem. 
In an effort to optimize labor costs, retail employers 
increasingly use scheduling software to match workers' hours to 
the projected need for labor that day or even that hour. This 
just-in-time scheduling practice can have a highly detrimental 
impact on workers' lives.
    Without a stable and predictable work schedule, incomes 
fluctuate and workers can't budget effectively. Ever shifting 
schedules mean working mothers can't plan childcare 
arrangements in advance. Efforts to move into a better paying 
job might also be blocked since pursuing education or training 
is more difficult with an ever-changing work schedule.
    Attempts to take a second job to make up for inadequate 
income in the first job are similarly problematic. In fact, 
unstable and unpredictable schedules deprive working women of 
both income and opportunities to rise up.
    There's good news, which is that the retail industry, like 
the rest of our economy, does not have to pay low wages and 
offer unstable schedules. For example, successful retail chains 
that we're all familiar with, like Trader Joe's Supermarkets 
and Costco Wholesale Clubs, invest in their workforce, provide 
stable schedules, and also offer low prices and solid business 
performance.
    But, historically, we know that widespread change hasn't 
come mostly from voluntary actions like this from employers. 
Legislation raising the minimum wage, promoting equal pay, 
guaranteeing paid sick time and paid family leave, and 
strengthening women's right to band together and form unions is 
going to be critical to improving women's economic security in 
the retail industry and really beyond as well.
    Thank you.
    [The prepared statement of Ms. Traub follows:]
                    Prepared Statement of Amy Traub
                                summary
    My testimony will focus on women in the retail industry, a major 
sector of the American economy, and one that is projected to add more 
than a million new jobs by 2022.\1\ Retail is one of the top industries 
employing women, and I believe that the experience of women working in 
retail illuminates many of the broader challenges facing women trying 
to earn a living throughout our economy.
    Currently 7.2 million American women work in the retail 
industry.\2\ According to the Bureau of Labor Statistics, retail 
salesperson is the most common occupation in the country today.\3\ Yet 
the typical woman working in this job earns just $10.58 an hour: a wage 
that keeps a family of three near poverty, even if the employee is able 
to secure enough hours for full-time work.\4\ Erratic schedules, a lack 
of sufficient work hours, and the scarcity of basic benefits like paid 
sick days contribute to making hourly retail jobs--not just for 
salespeople, but for cashiers, stockers, and other front-line 
positions--insecure jobs for American women, with serious consequences 
for their families and our Nation as a whole.
    In many cases, hourly retail jobs are insecure positions for men in 
the retail industry as well, but the reality is that women, who make up 
about half of the retail workforce are disproportionately represented 
among low-wage retail workers and among retail's working poor. It's 
also the case that in retail--as in other sectors--a substantial wage 
gap persists between male and female workers doing the same job: the 
typical female salesperson, for example, is paid $4 less per hour than 
her male counterpart. Overall in sales and related occupations, women 
must work the equivalent of 103 days longer every year than their male 
co-workers doing the same job in order to bring home the same 
paycheck.\5\ At the same time, women still assume the majority of 
family care-giving responsibilities, meaning that it is 
disproportionately female retail employees who must juggle care for 
children and other family members with the rigid, unpredictable, and 
unstable work schedules (often with insufficient hours) that prevail 
for hourly workers in the retail industry. In turn, these rigid and 
unstable work schedules also impose extensive social costs on the 
Nation in terms of poverty, public health, child well-being, and 
educational opportunities and outcomes for retail workers and their 
families. Low wages impose public costs as well, because families often 
must rely on public benefits, such as food stamps and Medicaid, to 
supplement women's income from retail jobs. In effect, taxpayers are 
subsidizing the labor costs of the Nation's largest and most profitable 
retailers.
    The retail industry does not have to pay low wages and offer 
unstable schedules. For example, successful retail chains like 
QuickTrip convenience stores, Trader Joe's Supermarkets, and Costco 
wholesale clubs invest in their workforce while also offering low 
prices and solid business performance.
    The recent decision by The Gap to significantly raise pay for its 
65,000 U.S. retail employees \6\ illustrates how a company can shift 
its business model to improve compensation. Even more striking are the 
steps recently taken by the Nation's largest retailer, Walmart, which 
recently improved scheduling and treatment of pregnant workers after 
years of organizing and strikes by its employees, as well as a lawsuit 
and shareholder resolution relating to conditions for pregnant 
workers.\7\ The changed business strategies at these two major 
companies in the last year illustrate a growing recognition of the 
inadequacy of retail jobs and the potential for retailers to improve 
employment conditions when pushed by workers and political leaders. 
Women working in retail are consistently the biggest beneficiaries.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander, and members of the HELP 
Committee: I greatly appreciate this opportunity to speak to you about 
economic security for working women, particularly the experience of 
women in the retail industry. My name is Amy Traub and I am a senior 
policy analyst at Demos. Demos is a non-partisan public policy 
organization working for an America where we all have an equal say in 
our democracy and an equal chance in our economy. Economic security for 
women--who make up half of America's workforce and contribute to the 
incomes of a majority of American households--is an essential part of 
an economy where we all have an equal chance.
    My testimony this afternoon will focus on women in the retail 
industry, a major sector of the American economy, and one that is 
projected to add more than a million new jobs by 2022.\8\ Retail is one 
of the top industries employing women, and I believe that the 
experience of women working in retail illuminates many of the broader 
challenges facing women trying to earn a living throughout our economy.
    Currently 7.2 million American women work in the retail 
industry.\9\ According to the Bureau of Labor Statistics, retail 
salesperson is the most common occupation in the country today.\10\ Yet 
the typical woman working in this job earns just $10.58 an hour: a wage 
that keeps a family of three near poverty, even if the employee is able 
to secure enough hours for full-time work.\11\ Erratic schedules, a 
lack of sufficient work hours, and the scarcity of basic benefits like 
paid sick days contribute to making hourly retail jobs--not just for 
salespeople, but for cashiers, stockers, and other front-line 
positions--insecure jobs for American women, with serious consequences 
for their families and our Nation as a whole.
    In many cases, hourly retail jobs are insecure positions for men in 
the retail industry as well, but the reality is that women, who make up 
about half of the retail workforce (48.7 percent) are 
disproportionately represented among low-wage retail workers and among 
retail's working poor. It's also the case that in retail--as in other 
sectors--a substantial wage gap persists between male and female 
workers doing the same job: the typical female salesperson, for 
example, is paid $4 less per hour than her male counterpart. Overall in 
sales and related occupations, women must work the equivalent of 103 
days longer every year than their male co-workers doing the same job in 
order to bring home the same paycheck. At the same time, women still 
assume the majority of family care-giving responsibilities, meaning 
that it is disproportionately female retail employees who must juggle 
care for children, ill family members, and elderly parents with the 
rigid, unpredictable, and unstable work schedules (often with 
insufficient hours) that prevail for hourly workers in the retail 
industry. In turn, these rigid and unstable work schedules also impose 
extensive social costs on the Nation in terms of poverty, public 
health, child well-being, and educational opportunities and outcomes 
for retail workers and their families. Low wages impose public costs as 
well, because families often must rely on public benefits, such as food 
stamps and Medicaid, to supplement women's income from retail jobs. In 
effect, taxpayers are subsidizing the labor costs of the Nation's 
largest and most profitable retailers.
    The retail industry does not have to pay low wages and offer 
unstable schedules. Before I go into detail about the challenges facing 
women in low-paid retail jobs, I want to highlight some bright spots: 
cases where retail offers jobs that advance the economic security of 
working women. For example, retail expert Zeynap Ton notes in the 
Harvard Business Review, ``highly successful retail chains--such as 
QuickTrip convenience stores, Mercadona and Trader Joe's Supermarkets, 
and Costco wholesale clubs--not only invest heavily in store employees 
but also have the lowest prices in their industries, solid financial 
performance, and better customer service than their competitors.'' \12\ 
The recent decision by The Gap to significantly raise pay for its 
65,000 U.S. retail employees \13\ illustrates how even companies with a 
history of paying low wages can shift their business model to improve 
compensation. Even more striking are the steps recently taken by the 
Nation's largest retailer--Walmart--to upgrade its scheduling practices 
for hourly workers and improve its treatment of pregnant employees. 
Walmart improved scheduling and treatment of pregnant workers after 
years of organizing and strikes by its employees, as well as a lawsuit 
and shareholder resolution relating to conditions for pregnant 
workers.\14\ While neither The Gap nor Walmart have taken sufficient 
steps to offer adequately paid, sustainable jobs to the workers who 
make their stores profitable, their changed business strategies in the 
last year illustrate both a growing recognition of the inadequacy of 
retail jobs and the potential for retailers to improve employment 
conditions.
    My testimony explores the challenges to women's economic security 
in the retail industry in terms of wages and schedules; the public 
costs of the lack of economic security for women in the retail 
industry; and a discussion of the benefits of raising wages and 
improving schedules for women in the retail industry, including 
benefits for retailers themselves.
     challenges to women's economic security in the retail industry
Poverty wages for women in retail
    5.5 million American women were classified as working poor in 2012, 
and millions more live just over the poverty level.\15\ The retail 
industry is one of their leading employers, with 571,000 working poor 
women--one in every 10 working poor women in the Nation--employed in 
retail. 1.3 million women working in retail lives in poverty or near 
poverty (defined as within 150 percent of the poverty line). And with 
substantial job growth projected for the industry in the coming years, 
the Nation can expect hundreds of thousands retail jobs that pay wages 
too low to support a family if wages do not rise.
    Retail jobs are a critical source of income for the families of 
women working in this sector. Approximately 93 percent of women working 
year-round in the retail industry are ages 20 and above, not teens 
looking for extra spending money, while 36 percent of them are raising 
children. Whatever the household composition, retail wages provide for 
household necessities. Four out of ten (39.5 percent) of women workers 
in retail contribute at least half of their family's total income. A 
large number of them--more than one in five--are the sole earner of 
their household. The lowest paid women in retail are even more likely 
to be supporting their households single-handedly.
    The gender pay gap in retail is another major concern: in sales and 
related occupations, the typical woman is paid just 72 cents for every 
dollar made by the typical man. The impact of that pay gap reverberates 
beyond individual households to the larger economy: in 2012, lost wages 
to women mounted to an estimated $40.8 billion, with steep costs for 
female retail workers, their families, and the economy as a whole.
Scheduling problems for women in retail
    Retail employees trying to work their way out of poverty face an 
obstacle that goes beyond low wages: the lack of sufficient work hours 
and predictable, stable schedules. If retail workers cannot secure 
enough hours of work each week, higher wages will not be sufficient to 
provide a decent standard of living and will fail to lift families out 
of poverty. In 2012, nearly 1 in every 5 women employed in low-wage 
retail jobs worked part-time hours despite wanting a full-time 
position. Some, although officially working as full-time employees, 
were simply not scheduled to work full hours every week, cutting into 
their incomes. These findings are consistent with the results of the 
CitiSales Study, a 2006 survey of more than 6,000 predominantly female 
employees of a large retail firm which found that 33 percent of full-
time retail employees, and 43 percent of part-time employees would like 
to work more hours.\16\ Our analysis of Census data suggests scarcity 
of work hours was not limited to small retailers with few workers on 
the payroll: among workers at the largest retail firms--which might 
seem to have greater resources to offer sufficient hours to employees 
eager for more work--the percentage of involuntary part-time workers 
was even higher than at smaller companies.
    The problem of inadequate and unstable hours in retail is not 
limited to workers officially classified as involuntary part-timers: 
many women trying to balance their jobs with educational pursuits, 
family responsibilities, additional employment, or other commitments 
choose to work only part time. Yet rigid, unpredictable, and unstable 
work schedules threaten the economic stability of full and part-timers 
alike. Demos' 2011 report, ``Scheduling Hourly Workers,'' documented 
the rise of just-in-time scheduling practices in retail and other 
service industries.\17\ In an effort to optimize their labor costs, 
employers use scheduling software and measures of consumer demand such 
as floor traffic, sales volume, or weather conditions to match workers' 
hours to the projected need for labor on a daily or even hourly basis. 
The Retail Action Project's 2012 survey of New York City retail 
employees is one of the best sources of data on this growing industry 
practice.\18\ According to the survey, only 17 percent of New York 
retail workers--and 10 percent of part-timers--had a fixed work 
schedule. For others, hours varied week to week or month to month, with 
70 percent of workers reporting that they were notified of their 
schedule just a week in advance.
    Without a stable and predictable work schedule, incomes fluctuate 
and workers cannot budget effectively. At the same time, low-income 
workers may lose eligibility for public benefits that supplement their 
incomes if they do not work the required amount of hours. Ever-shifting 
schedules mean working mothers cannot plan child care arrangements--
meaning they may lose the opportunity to work a much-needed shift (or 
the job itself) if they cannot arrange last-minute child care. Efforts 
to move into a better-paying job may also be stymied, as pursuing 
education or training opportunities is made more difficult, if not 
impossible, by ever-changing work schedules. Attempts to take a second 
job to make up for inadequate income in the first are similarly 
unfeasible. In effect, unstable and unpredictable schedules deprive 
women in retail of both income and opportunities to rise up.
    The rigidity of retail schedules poses a related problem. If 
workers are scheduled for a shift they cannot work, they may face 
disciplinary measures and a loss of income. The problem is exacerbated 
by the lack of paid leave, including time off for the inevitable 
illness. Less than half of workers at retail trade establishments are 
provided with any paid sick days \19\ and it is disproportionately low-
paid workers that lack this benefit. In a 2013 survey of low-wage 
workers in a range of industries, 14 percent of workers overall, and 19 
percent of working mothers, reported having lost a job because they got 
sick or stayed home to care for child or parent.\20\ For women, who 
still disproportionately assume the majority of family caregiving 
responsibilities, a lack of paid sick time and paid family leave pose 
particularly serious risks of income loss and job loss.
        public costs of the lack of economic security for women 
                         in the retail industry
Taxpayers subsidize retailers' payroll
    Retail's most obvious public cost stems from large retailers paying 
their employees so little that workers and their families must rely on 
publicly funded benefits, such as food stamps, Medicaid, and the Earned 
Income Tax Credit, to make ends meet. With women employed by large 
retailers more likely to be in low-wage jobs and more likely to be 
raising families, this is a key issue for women in the industry.\21\ A 
recent study by Americans for Tax Fairness estimates that the Nation's 
largest retail employer, Walmart, receives $6.2 billion annually in 
taxpayer subsidies in the form of benefits that supplement its low 
wages.\22\ The research builds on a congressional study finding that 
employees at a single Walmart supercenter in Wisconsin rely on $904,542 
to $1,744,590 per year in public benefits because Walmart does not pay 
enough to support a family.\23\ While other retailers have not been 
analyzed as systematically, a review of State-level studies by Good 
Jobs First found that Walmart routinely leads the list of corporations 
whose payroll costs are subsidized by taxpayers, followed by other 
large retailers such as Target, Kroger, and Home Depot, as well as fast 
food companies, nursing homes, and meat processors.\24\ Absent a wage 
increase or other policy change, the taxpayer bill for subsidizing the 
labor costs of the Nation's largest and most profitable retailers will 
continue to increase as the low-paid retail workforce grows.
The public health costs of low wages and rigid, unstable schedules in 
        retail
    A growing body of research illustrates how low wages and unstable 
schedules contribute to public health crises such as the obesity 
epidemic that impose steep public costs.\25\ Special concerns arise for 
female workers when they are pregnant or their children are young. For 
example, pregnant employees may be unable to safely carry out typical 
retail tasks such a climbing ladders to bring down merchandise, lifting 
heavy boxes, using harsh cleaning chemicals, or even standing on their 
feet for prolonged periods. Yet as a recent lawsuit and shareholder 
resolution at Walmart vividly illustrated, some retailers refuse to 
accommodate pregnant workers with light duty, potentially imperiling 
their pregnancy, or pushing them to take unpaid leave they cannot 
afford.\26\ The lack of paid maternity leave is a related problem. Just 
5 percent of workers in retail trade establishments are offered paid 
leave to care for a new baby,\27\ increasing the financial pressure on 
low-income mothers to return to work very soon after birth. This too 
has a public health consequence, as short leaves at pregnancy are 
associated with higher rates of infant mortality, lower birth weight 
babies, and shorter duration of breast feeding.\28\
    As children grow up, last-minute unpredictable work schedules make 
it difficult to set up doctor's appointments. As noted earlier, less 
than half of workers in retail have access to paid sick days, 
increasing parents' risk missing regular infant and childhood medical 
check-ups and immunizations. Because mothers are more likely to be the 
parent taking their children to the doctor, female workers and their 
families are disproportionately affected. The lack of paid sick days 
also increases the risk that retail workers will go to work (and their 
children will go to school or daycare) while sick, potentially 
spreading the flu or other communicable diseases to customers and 
contributing to outbreaks. If large retailers shifted to offer paid 
sick days and more stable schedules, they could contribute to 
significant public savings: the Institute for Women's Policy Research 
calculates that 1.3 million hospital emergency department visits could 
be prevented in the United States each year if businesses of all kinds 
provided paid sick days to workers who currently lack access, reducing 
medical costs by $1.1 billion annually, with over $500 million in 
savings for public health insurance programs.\29\
Low wages and unstable schedules in retail block opportunity for the 
        next generation
    Beyond public health, the unpredictable and inflexible schedules 
associated with retail and other low-wage work hinder parents from 
participating in their children's education and development, 
constraining opportunity for the next generation of Americans and 
entrenching economic inequality. No matter how much they want to, women 
working the unstable schedules common in the retail industry may not be 
regularly available to help children with homework, attend parent-
teacher conferences or other school events, or otherwise have sustained 
involvement in their child's education. Indeed, an analysis of the 
American Time Use Survey finds that low-wage women working non-standard 
schedules spend less time with their families--particularly with 
school-age children--than those working standard schedules.\30\ The 
study also notes that retail is among the top industries employing 
workers with non-standard schedules, defined as work before 6 a.m. or 
after 6 p.m. or on the weekends. Researchers at New York University 
examined the consequences of this time deficit, finding that low-income 
parents working changing shifts at non-standard hours were more likely 
to have children with behavior problems at school and lower school 
performance as reported by teachers.\31\
    Retail's low wages are also an impediment to opportunity for 
children, with potentially devastating consequences for their future 
life chances. Children of low-income parents are seven times more 
likely to drop out of school than are higher income youth \32\ and are 
far more likely to become parents in their teen years.\33\ Young people 
whose parents hold low-wage jobs are more likely to become 
``disconnected youth'' in their post-high school years, neither working 
nor pursuing education or training.\34\ Considering the tremendous 
societal loss, researchers at the University of Massachusetts note, 
``the effects of non-high school completion are profound . . . lifelong 
income loss, diminished health, and more likely reliance on publicly 
funded services results in considerable societal expense. Yet, 
arguably, the greatest cost to society is the loss of talents, 
abilities, and affiliation of millions of young people.'' \35\
    And yet, a different path is possible. Based on his studies of low-
income working parents in Milwaukee, Harvard professor Hirokazu 
Yoshikawa observes that ``a work trajectory that's characterized by 
full-time work with wage growth over the period of the 2-years resulted 
in increases in children's school performance and reductions in their 
acting out behaviors . . . positive work experiences that result in 
increases in income over time . . . can help actually improve 
children's school success.'' \36\ By investing in stable careers for 
the women working in its stores, the retail industry can make a 
positive difference for the next generation.
Low wages and unstable schedules in retail combine with high pay at the 
        top to fuel inequality
    The United States has seen a highly unbalanced economic recovery, 
with the Nation's highest earners pocketing nearly all of the economic 
growth since the Great Recession, and the top 10 percent taking home 
their greatest share of income in recorded history.\37\ This growing 
concentration of income at the top, combined with a wave of strikes and 
protests by low-wage workers--including retail workers employed by 
Walmart--has brought renewed attention to the corrosive effects of 
inequality. And retail is among the most unequal sectors of the 
economy.
    In 2012, CEOs in the retail industry earned 304 times the annual 
income of the average retail worker--among the highest CEO-to-worker 
ratios of any sector in the economy in any year since 2000.\38\ Over 
the years between 2000 and 2012, the only economic sector with greater 
average pay disparities than retail is accommodations and food 
services. And the trend is worsening: after dipping briefly during the 
Great Recession, pay disparities in retail have grown since 2009, 
nearly recovering their pre-Recession peak. This mounting inequality 
has a gendered face: while women make up more than half of the retail 
labor force at large firms, they account for just 1.8 percent of retail 
CEOs in the Fortune 1000, according to Catalyst.\39\
    The growing inequality fueled by retail and other low-wage 
industries has far-reaching effects on our society. Increasingly, 
research shows that inequality is associated with slower economic 
growth and volatility, as well as social instability and declines in 
the quality of health and education.\40\ At the same time, studies 
suggest that inequality undermines our democracy, as political 
decisionmaking increasingly reflects the policy preferences of major 
political donors with substantially different priorities than the 
voting public.\41\ Of course, no single industry caused this damage on 
its own or can fix it single-handedly. Nevertheless, as the employer of 
1 in 10 working Americans--and 1 in 10 working poor women--raising 
wages and improving schedules in the retail industry would be a 
significant step toward reducing inequality and the harms it causes 
throughout society.
    the benefits of raising wages and improving schedules for women 
                         in the retail industry
    In Demos' forthcoming paper on women in the retail industry, we 
model the effects of a wage increase to $12.25 an hour (the equivalent 
of $25,000 a year for a full-time worker) at large retail companies. We 
look at costs to retailers, the price increase for consumers, and the 
impact on the Nation's gross domestic product and job creation. We also 
consider the impact of improved scheduling practices such as providing 
work schedules further in advance, guaranteeing workers a consistent 
number of hours, and giving workers opportunities to swap shifts, 
cross-train for different positions, or work in different store 
locations, ensuring that both employee and employer scheduling needs 
are met. While the numerical results of that study are not yet 
available, this section discusses the evidence for the benefits of 
raising wages and improving schedules for women in the retail industry.
Improving wages and schedules for women in retail would benefit the 
        economy
    Families living in or near poverty spend close to 100 percent of 
their income just to meet their basic needs, so when they receive an 
extra dollar in pay, they spend it on goods or services that were out 
of reach before. This ongoing need makes low-income households more 
likely to spend new earnings immediately--channeling any addition to 
their income right back into the economy. High-income households, in 
contrast, put a larger portion of their money into long-term 
investments such as retirement savings that do not factor into consumer 
demand.\42\ Because spending patterns differ widely across income 
groups, investments that enhance the budgets of low-income households 
have a greater impact on the economy than money given to those at the 
top. For example, the economic stimulus payments of 2008 increased 
spending among low-income households far more than higher earners, with 
a substantial portion of the new purchases going toward durable and 
non-durable retail goods.\43\ Increasing the purchasing power of low-
income households is good economic policy during a period of flagging 
demand. By raising the floor of large chain retail wages, these 
businesses can provide a private sector stimulus without depending on 
the government to enact the change.
    The amount of economic activity generated by a wage raise is 
determined by what economists refer to as the multiplier. The 
multiplier indicates how many times a new dollar will circulate in the 
economy before its amplifying effects fade away. When a worker receives 
a raise, she will have additional money to spend--that spending becomes 
someone else's new income, either the business owner where she makes a 
purchase or the worker at the store who gets more hours or more money 
when business is good. Multipliers differ depending on where the dollar 
appears in the economy; if low-income households have an extra dollar 
to spend the multiplier is higher than if that dollar goes to high-
income savers. A transfer of purchasing power to low-wage workers will 
boost economic activity to the degree that the multiplier forecasts 
ripple effects across consumer spending.
    In order to predict how a raise for employees at large retail firms 
will impact the economy, we incorporate both the positive effect of the 
multiplier on household spending and the potentially negative effect on 
the balance sheet of employers. Firms can either pay for the wage raise 
out of profits, pass on the cost of the additional wage bill to 
consumers through higher prices, or combine both tactics to cover the 
cost. The extent to which retail employers will place the burden of 
higher wages on their customers is unclear. Research on the 
relationship between prices and the minimum wage focuses entirely on 
the fast food industry and presents mixed results.\44\ But there is 
reason to believe that firms will pass-through less than 100 percent of 
the cost. That is because the new minimum produces gains to the firm 
that offset part of the cost before either profits or consumer spending 
have to make up the difference.
    Employers that invest in their labor force are better able to hang 
on to their best, most experienced workers, increasing operational 
efficiency and cutting down on the costs of labor turnover. The 
differences can be dramatic. One study from the Wharton School of 
Business found that a $1 increase in payroll at retailers leads to an 
additional $4 to $28 in sales each month, with a 25 percent rise in 
payroll generating 2.6 percent more in sales.\45\ Revenue grows because 
well-paid, experienced employees are better able to provide the 
essential services that customers need--with knowledge of inventory, 
products, brands, and prices--and satisfied customers spend more money 
in the store.\27\ The benefits of the new wage floor appear on the 
balance sheet as profits, mitigating a part of the wage bill so that 
customers and firms take on only the remaining part of the cost. A 
raise for retail wages is an investment in the labor force, increasing 
productivity and translating to lower costs and higher sales for the 
firm, and negating a portion of the wage bill before it ever reaches 
consumers.
Higher wages and better schedules lead to higher sales
    The reality is that large retail firms won't have to cover the 
entire wage bill or cost of improving scheduling because these 
improvements to retail jobs have the potential to pay for themselves, 
at least in part. A large body of research shows that paying higher 
wages in the retail sector results in greater productivity and higher 
sales. Zeynep Ton, an expert on the retail sector at MIT, has shown 
that businesses that make an investment in their retail workforce find 
that well-paid, knowledgeable, and experienced employees can be a 
driver of sales, rather than costs.\46\ Paying for high quality workers 
who can answer customer requests and identify priorities meets the 
long-term goals of the business, as opposed to simply satisfying short-
term cost minimization.
    Ton's close study of retailers like Home Depot and the defunct 
Borders bookstore chain leads to similar conclusions about scheduling: 
retailers' efforts to precisely match labor supply to consumer traffic 
often fall short because just-in-time scheduling strategies fuel 
employee turnover, absenteeism and tardiness. This means that despite 
sophisticated scheduling software, retailers ``don't know who will 
quit, who will be late tomorrow, and who just won't bother to show 
up.'' \47\ Finally, Ton concludes that a misguided effort to cut labor 
costs leads many retailers to under-staff their stores, losing sales 
and passing up profits. Missed sales opportunities could be recaptured 
if, for example, retailers drew on the pool of more than 1 million 
women working part-time retail jobs who report wanting full-time hours.
    Ton's findings are supported by other research on the performance 
of retail firms. For example, the CitiSales study conducted by 
researchers at Boston College and the University of Kentucky finds that 
giving retail employees more control over their work schedules 
optimizes recruitment among the hourly workforce, boosts retention of 
key talent, promotes employee productivity, engages employees, 
cultivates quality customer service, and reduces costs associated with 
turnover.\48\ Researchers have also compared Costco, a high-wage retail 
employer that guarantees employees a set number of hours per week, with 
its warehouse club rival, low-wage employer Sam's Club, revealing a 
substantial payoff to paying fair wages and offering stable schedules: 
sales per employee at Costco are nearly double the average sales per 
employee at Sam's Club.\49\ Across the retail sector higher payroll 
levels and more stable schedules are associated with customer 
satisfaction, which translates to more money in the register.
                               conclusion
    The retail industry has tremendous potential to offer good, family 
sustaining jobs to the 7.8 million American women projected to work in 
the industry in the next decade. To realize this potential, and advance 
women's economic security, retailers must raise wages and improve 
scheduling policies for their workforce. Recent movements toward 
increasing pay at the Gap and improving schedules at Walmart have been 
encouraging, but broad change is likely to occur only as a result of 
legislation. Legislation to increase the minimum wage, strengthen the 
Equal Pay Act, facilitate union organizing, and guarantee a minimum 
number of paid sick days and paid family leave would enhance the 
economic security of women in the retail industry and throughout the 
economy. Congress should also consider the models offered by State laws 
on reporting pay, which compensate employees for a minimum number of 
hours during a work shift for which they have been scheduled.
                                Endnotes
    1. The Bureau of Labor Statistics projects that the retail industry 
will employ approximately 16 million Americans by 2022, a number of 
private employees exceeded only by health care and social assistance 
(22 million workers) and professional and business services (21 million 
workers). See The Bureau of Labor Statistics, ``Employment by major 
industry sector, 2002, 2012, and projected 2022,'' 2013. http://
www.bls.gov/news.release/ecopro.t03.htm.
    2. Bureau of Labor Statistics Current Population Survey March 
Supplement, 2012.
    3. Bureau of Labor Statistics, ``Occupational Employment and Wages, 
May 2013'' 2014. http://www.bls.gov/news.release/pdf/ocwage.pdf.
    4. Bureau of Labor Statistics Current Population Survey March 
Supplement, 2012.
    5. Demos calculations based on the Bureau of Labor Statistics.
    6. Gap, ``Gap Inc. Announces Increase in Minimum Hourly Rate for 
U.S. Employees,'' Bloomberg, February 19, 2014, http://
www.bloomberg.com/article/2014-02-19/aM2Qeuhus_2E.html.
    7. Lydia Depillis, ``Under pressure, Wal-Mart upgrades its policy 
for helping pregnant workers,'' Washington Post, April 5, 2014 http://
www.washingtonpost.com/blogs/wonkblog/wp/2014/04/05/under-pressure-
walmart-upgrades-its-policy-for-helping-pregnant-workers/.
    8. The Bureau of Labor Statistics projects that the retail industry 
will employ approximately 16 million Americans by 2022, a number of 
private employees exceeded only by health care and social assistance 
(22 million workers) and professional and business services (21 million 
workers). See The Bureau of Labor Statistics, ``Employment by major 
industry sector, 2002, 2012, and projected 2022,'' 2013. http://
www.bls.gov/news.release/ecopro.t03.htm.
    9. Bureau of Labor Statistics Current Population Survey March 
Supplement, 2012.
    10. Bureau of Labor Statistics, ``Occupational Employment and 
Wages, May 2013'' 2014. http://www.bls.gov/news.release/pdf/ocwage.pdf.
    11. Bureau of Labor Statistics Current Population Survey March 
Supplement, 2012.
    12. Zeynep Ton, ``Why `Good Jobs' Are Good for Retailers,'' Harvard 
Business Review, January-February 2012, http://hbr.org/2012/01/why-
good-jobs-are-good-for-retailers.
    13. Gap, ``Gap Inc. Announces Increase in Minimum Hourly Rate for 
U.S. Employees,'' Bloomberg, February 19, 2014, http://
www.bloomberg.com/article/2014-02-19/aM2Qeuhus_2E.html.
    14. Lydia Depillis, ``Under pressure, Wal-Mart upgrades its policy 
for helping pregnant workers,'' Washington Post, April 5, 2014 http://
www.washingtonpost
.com/blogs/wonkblog/wp/2014/04/05/under-pressure-walmart-upgrades-its-
policy-for-helping-pregnant-workers/.
    15. Meaning they were in the labor force for at least 27 weeks in 
the last year, their household incomes did not rise above the poverty 
level http://stats.bls.gov/cps/cpswp2012.pdf.
    16. Cited in: Liz Watson and Jennifer E. Swanberg, ``Flexible 
Workplace Solutions for Low-Wage Hourly Workers,'' May 2011, http://
workplaceflexibility2010.org/images/uploads/whatsnew/
Flexible%20Workplace%20Solutions%20for%20Low-
Wage%20Hourly%20Workers.pdf.
    17. Nancy K. Cauthen, ``Scheduling Hourly Workers,'' Demos, March 
14, 2011, http://www.demo.org/publication/scheduling-hourly-workers-
how-last-minute-just-time-scheduling-practices-are-bad-workers.
    18. Stephanie Luce and Naoki Fujita, ``Discounted Jobs,'' Retail 
Action Project, January 2011, http://retailactionproject.org/wp-
content/uploads/2012/01/FINAL
_RAP.pdf.
    19. http://www.bls.gov/ncs/ebs/benefits/2013/ownership/private/
table21a.htm.
    20. The survey defined ``low-income'' as holding a job paying $14 
or less. Oxfam America, ``Hard Work, Hard Lives,'' 2013, http://
www.oxfamamerica.org/static/oa4/low-wage-worker-report-oxfam-
america.pdf.
    21. There 35 percent more women than men among low-wage earners at 
large retailers. 40.3 percent of women employed at large retailers has 
children, compared to 30.3 percent of men.
    22. Americans for Tax Fairness, ``Walmart on Tax Day,'' April 2014, 
http://www.americansfortaxfairness.org/files/Walmart-on-Tax-Day-
Americans-for-Tax-Fairness-1.pdf.
    23. Democratic staff of the U.S. House Committee on Education and 
the Workforce, ``The Low-Wage Drag on Our Economy,'' May 2013, http://
democrats.ed
workforce.house.gov / sites / democrats.edworkforce.house.gov / files / 
documents / Wal
MartReport-May2013.pdf.
    24. Good Jobs First, ``Hidden Taxpayer Costs,'' July 24, 2013, 
http://www.good
jobsfirst.org/corporate-subsidy-watch/hidden-taxpayer-costs.
    25. Lisa Dodson, Randy Albelda, Diana Salas Coronado and Marya 
Mtshali, ``How Youth Are Put At Risk by Parents' Low-Wage Jobs,'' 
Center for Social Policy, University of Massachusetts Boston, Fall 
2012, http://cdn.umb.edu/images/centers
_institutes/center_social_policy/Youth_at_RiskParents_Low_Wage_Jobs_
Fall_121.pdf.
    26. A Better Balance, ``Pregnant Workers at Walmart,'' 2014. http:/
/www.abetterbalance.org/web/ourissues/fairnessworkplace/293-pregnant-
workers-at-walmart.
    27. Bureau of Labor Statistics, ``National Compensation Survey,'' 
March 2013, http://www.bls.gov/ncs/ebs/benefits/2013/ownership/private/
table21a.htm.
    28. Curtis Skinner and Susan Ochshorn, ``Paid Family Leave,'' 
National Center for Children in Poverty, April 2012, http://
www.nccp.org/publications/pdf/text
_1059.pdf.
    29. Kevin Miller, Ph.D., Claudia Williams and Youngmin Yi, ``Paid 
Sick Days and Health: Cost Savings from Reduced Emergency Department 
Visits,'' Institute for Women's Policy Research, November 2011, http://
www.iwpr.org/publications/pubs/paid-sick-days-and-health-cost-savings-
from-reduced-emergency-department-visits.
    30. Urban Institute, ``Nonstandard Work Schedules and the Well-
being of Low-Income Families,'' July 31, 2013, http://www.urban.org/
publications/904597.html.
    31. Working Nonstandard Schedules and Variable Shifts in Low-Income 
Families. Hsueh, JoAnn; Yoshikawa, Hirokazu. Developmental Psychology, 
vol. 43 issue 3 May 2007. p. 620-32.
    32. Lisa Dodson, Randy Albelda, Diana Salas Coronado and Marya 
Mtshali, ``How Youth Are Put At Risk by Parents' Low-Wage Jobs,'' 
Center for Social Policy University of Massachusetts Boston, Fall 2012, 
http://cdn.umb.edu/images/centers_
institutes/center_social_policy/Youth_at_RiskParents_Low_Wage_Jobs_Fall
_121.pdf.
    33. Ibid.
    34. Ibid.
    35. Ibid.
    36. Hirokazu Yoshikawa, ``Making it Work: Low-wage employment, 
family life, and child development,'' http://www.uknow.gse.harvard.edu/
decisions/audio-DD101-uk_hy_q1.html.
    37. Emmanuel Saez, ``Striking it Richer: The Evolution of Top 
Incomes in the United States,'' UC Berkeley, September 3, 2013, http://
elsa.berkeley.edu/saez/saez-UStopincomes-2012.pdf.
    38. Catherine Ruetschlin, ``Fast Food Failure,'' Demos, 2014. 
http://www.demos.org/publication/fast-food-failure-how-ceo-worker-pay-
disparity-undermines-industry-and-overall-economy.
    39. ``Pyramid: Women in U.S. Retail Trade,'' Catalyst, 2014. http:/
/www.catalyst.org/knowledge/women-us-retail-trade-0.
    40. Jonathan D. Ostry, Andrew Berg, and Charalambos G. Tsangarides, 
``Redistribution, Equality, and Growth,'' International Monetary Fund 
Research Department, February 2014, http://www.imf.org/external/pubs/
ft/sdn/2014/sdn1402
.pdf.
    41. See, for example: Martin Gilens and Benjamin Page, ``Testing 
Theories of American Politics: Elites, Interest Groups, and Average 
Citizens,'' April 9, 2014, https://www.princeton.edu/mgilens/
Gilens%20homepage%20materials/Gilens%20and%20Page/
Gilens%20and%20Page%202014-Testing%20Theories%203-7-14.pdf.
    42. BLS Consumer Expenditures Survey, Table 1202. Income before 
taxes: Annual expenditure means, shares, standard errors, and 
coefficient of variation, 2012 http://www.bls.gov/cex/#tables.
    43. Jonathan A. Parker, Nicholas S. Souleles, David S. Johnson, and 
Robert McClelland, ``Consumer Spending and the Economic Stimulus 
Payments of 2008,'' NBER Working Paper No. 16684, January 2011, http://
www.nber.org/papers/w16684.
    44. James MacDonald and Daniel Aaronson, ``How Do Retail Prices 
React to Minimum Wage Increases? '' Federal Reserve of Chicago Working 
Paper 2000-20, 2000, http://www.chicagofed.org/digital_assets/
publications/working_papers/2000/wp2000_20.pdf Carrie Colla, Will Dow 
and Arindrajit Dube, ``The Labor Market Impact of Employer Health 
Benefit Mandates: Evidence from San Francisco's Health Care Security 
Ordinance,'' NBER Working Paper 17198, 2011, http://www.nber.org/
papers/w17198.
    45. Fisher, M., J. Krishnan and S. Netessine. ``Retail Store 
Execution: An Empirical Study,'' Wharton School Working Paper, 
Philadelphia, PA: The Wharton School, University of Pennsylvania, 2006, 
http://knowledge.wharton.upenn.edu/papers/1336.pdf.
    46. Zeynap Ton, The Good Jobs Strategy: How the Smartest Companies 
Invest in Employees to Lower Costs and Boost Profits. Houghton Mifflin 
Harcourt, 2012.
    47. Zeynap Ton, The Good Jobs Strategy: How the Smartest Companies 
Invest in Employees to Lower Costs and Boost Profits. Houghton Mifflin 
Harcourt, 2012. p. 142
    48. Jennifer E. Swanberg, Jacquelyn B. James, and Sharon P. 
McKechnie, ``Can Business Benefit By Providing Workplace Flexibility to 
Hourly Workers? '' University of Kentucky CitiSales study, http://
www.uky.edu/Centers/iwin/citisales/_pdfs/IB3-HourlyWorkers.pdf.
    49. Wayne F. Cascio, ``Decency Means More than `Always Low Prices': 
A Comparison of Costco to Wal-Mart's Sam's Club,'' Academy of 
Management Perspectives, August 2006, http://www.ou.edu/russell/UGcomp/
Cascio.pdf.

    The Chairman. Thank you, Ms. Traub.
    Ms. Pelletier.

  STATEMENT OF LORI PELLETIER, EXECUTIVE SECRETARY-TREASURER, 
     CONNECTICUT STATE FEDERATION OF LABOR, ROCKY HILL, CT

    Ms. Pelletier. Thank you, Senator Harkin, Senator 
Alexander, Senator Mikulski and, if I may, Senator Murphy from 
Connecticut. My name is Lori Pelletier, and I'm the executive 
secretary-treasurer of the Connecticut AFL-CIO. Today, I have 
the honor of being here representing what is the largest 
women's organization in the Nation with 6.5 million working 
women of the AFL-CIO.
    I think that our point here is exactly what Senator 
Alexander talked about in his opening remarks about jobs and 
about flexibility, and that jobs need to pay. We have a 
consumer-driven economy, and so the more that people make, the 
more money they can put into the economy and spend, and more 
jobs are created. If we are looking to create more low-wage 
jobs, again--and we wonder why our economy may sputter.
    As far as flexibility goes, I will say to you that the best 
flexibility is a collective bargaining agreement, when both 
sides can come to the table and decide on what's important, 
what needs to be looked at, issues like family medical leave 
that first of all was passed in Connecticut over 20 years ago 
and brought to this august body by then-Senator Chris Dodd.
    The flexibility--as a member of the Machinist Union, a rank 
and file member at the time, when we were trying to implement 
the family medical leave in our shops, it was very helpful that 
as a union representative, I could sit down with the employer 
and try to figure out how this was best implemented.
    The idea that since the 1970s, the pay equity problem is 
becoming more and more rampant, also goes hand in glove with 
the fact that the labor movement has also been in decline and 
has gotten worse as far as the percentage of the workforce. 
Again, I'm honored to be here today. I'm thrilled to be able to 
answer any questions you have, and thank you for the 
opportunity.
    [The prepared statement of Ms. Pelletier follows:]
                  Prepared Statement of Lori Pelletier
    Good morning, my name is Lori Pelletier, and I am president of the 
Connecticut AFL-CIO. As a woman in the labor movement, I know 6.5 
million women stand with me everyday. We're the largest working women's 
organization in the country.
    I want to focus on the importance of unions and collective 
bargaining for the economic security of women. I also want to explain 
why we in the labor movement are among the strongest supporters of 
labor standards like the minimum wage and paid sick days and the Family 
and Medical Leave Act (FMLA), and why we believe so strongly in the 
funding of agencies that enforce our labor standards.
    There has been a lot of attention given lately to the growth of 
economic inequality and the stagnation of workers' wages since the late 
1970s. One important reason why wages have stagnated is that the 
percentage of workers who belong to unions is a lot lower now than it 
was then. The decline of unions has had a bigger impact on men's pay 
than on women's, but it also had a big impact on women. About one-fifth 
of the growth of wage inequality among women workers from 1973 to 2007 
was because of the decline of unions.
    Unions today continue to be critical to the economic security of 
working women and their families, who still face an uphill battle in 
the workplace. What we are seeing in Connecticut is more and more jobs 
moving offshore and being replaced with lower paid jobs without 
benefits, and this puts women's economic security at risk.
    When women are protected by a mutually agreed upon collective 
bargaining agreement, it gives them an important weapon to combat the 
undermining of their economic security. Collective bargaining raises 
women's wages by 12.9 percent, and the union difference is even higher 
for African-American women, Latino women, and women who have immigrated 
recently.
    The union difference is especially pronounced for women who have 
less formal education, and for women workers in low-wage industries. In 
the retail food industry, where women workers are now the majority, 
unionized women workers earn 31 percent more than their non-union 
counterparts.
    Collective bargaining is one of the best solutions for gender 
discrimination because a union contract sets standard rates for 
different positions. As a result, the gender pay gap for workers 
covered by a union contract is much smaller--91 cents on the dollar--
than for non-union workers. As women become the majority of the 
workforce, it is even more important for them to join together 
collectively to protect themselves and their families.
    Collective bargaining also gives women workers more economic 
security by increasing their chances of having employer-provided health 
insurance and pension benefits. The share of women workers who have 
employer-provided health insurance is 18.4 percentage points higher for 
union women, and the share of women workers who have an employer-
provided retirement plan is 22.8 percentage points higher.
    Two other ways that collective bargaining helps union workers are 
paid family leave and short-term disability benefits. Union workers are 
more likely than non-union workers to have both.
    Finally, collective bargaining levels the playing field when it 
comes to training and opportunities for advancement. When employers 
offer training programs, often one big issue is whether child care and 
elder care will be available for workers who want to participate. 
Without this training, women workers may be put in the position of not 
being qualified for a promotion, which hurts them and their families. 
But the availability of child care and elder care is the kind of thing 
you can negotiate collectively through the union.
    I've seen the same kind of productive and fruitful bargaining when 
it comes to implementation of legislation passed by Congress. Take for 
example the Family and Medical Leave Act, the FMLA. When it came time 
to implement the FMLA, collective bargaining made things so much 
simpler for the workers, for management, for everybody. When we hit 
bumps in the road, we were able to smooth them out through the union. 
And when it came time to educating our members about how the new law 
worked, well, that's one of the things the union does best. Everybody 
benefits from that.
    Speaking of which, I want to say just a few words about labor 
standards legislation. We believe legislation and collective bargaining 
go hand in hand. One of the best ways for unions to protect our members 
is by working with our representatives to pass legislation. We in the 
labor movement have always been among the strongest supporters of 
increasing the minimum wage, paid sick days, and paid family and 
medical leave, and we always will be.
    In Connecticut we were the first State in the country to pass 
legislation requiring paid sick days. That would not have happened 
without the labor movement. Our members are not the main beneficiaries, 
but we understand that everybody does better when everybody does 
better.
    In the Connecticut General Assembly, we also a have a task force 
working on paid family and medical leave. The FMLA was a giant step 
forward, but too many workers can't afford to take FMLA leave.
    We in the labor movement strongly support an increase in the 
Federal minimum wage to $10.10. We understand that women are over-
represented in low-wage occupations. Almost a quarter of women workers 
would benefit from an increase in the minimum wage, and that more than 
half the workers who would benefit are women.
    We also understand the importance of raising the minimum wage for 
tipped workers, such as restaurant servers, bartenders, and 
hairstylists, which has not been raised since 1991. Almost three 
quarters of tipped workers are women. Tipped workers are paid 40 
percent less than other workers, on average, and they are twice as 
likely to be poor.
    I hear people in the business community complain about these labor 
standards and demand less regulation because they say the ``free 
market'' will take care of things. But what that boils down to in 
reality is a lower paid, less safe, and a more exploitable workforce. 
It's the role of government to ensure that people are protected and are 
not treated like the property of the business owner.
    By claiming ``government doesn't work'' and then gutting the budget 
of enforcement and protection agencies because they represent ``big 
government,'' they are making sure government doesn't work as well as 
it should. They are rendering these agencies powerless. Employers in 
Connecticut know that the chance of an OSHA audit are very low, and an 
inspection by a State DOL wage and hour investigator is not likely to 
happen.
    So I just want to put in a good word for the funding of enforcement 
agencies. When Congress passed the Fair Labor Standards Act (FLSA) in 
1938, there was one wage and hour investigator for every 11,000 
workers. By 2007, there was only one investigator for every 164,000 
workers. In 1980 there were about 50 percent more investigators per 
employee than there are today.
    One way for workers to be protected in the workplace is when the 
employer is responsible and treats people with dignity and respect. But 
in my experience this is often not the case. That's why collective 
bargaining and legislation and enforcement are so important for women 
workers.

    The Chairman. Thank you, Ms. Pelletier.
    Ms. Troy.

STATEMENT OF GAYLE E. TROY, SPHR, HUMAN RESOURCE MANAGER, GLOBE 
           MANUFACTURING COMPANY, LLC, PITTSFIELD, NH

    Ms. Troy. Good afternoon, Chairman Harkin, Senator 
Alexander, and other Senators. Thank you for inviting me to be 
here today. My name is Gayle Troy. I'm the Human Resources 
Manager for Globe Firefighter Suits--that's our trade name--in 
Pittsfield, NH. I'm pleased to be here to represent the Society 
for Human Resources Management, or SHRM, of which I've been a 
member for 28 years.
    This topic is particularly relevant to Globe. Our workforce 
is 71 percent female, so it's very important to us. We are the 
world's largest manufacturer of firefighters' protective 
clothing. We produce over 100,000 garments per year for 
firefighters in more than 80 countries, including approximately 
one-third of the gear sold here in the United States. I'm 
especially proud to say that our products helped to clothe and 
protect many of the brave first responders on and after 
September 11th.
    Ensuring that Globe is a great place to work is very 
important to our company owners. One of the best ways we 
support our workforce is by helping our employees with work-
life fit through our flexible hours program. This program 
allows our non-exempt employees, almost all of them--about 90 
percent of our employees are non-exempt--to choose their start 
time, between 6 a.m. and 8 a.m., and to end their work day 
eight and a half hours later, between 2:30 p.m. and 4:30 p.m. 
Interestingly, most of those people, about 80 percent, have 
chosen the 6 a.m. to 2:30 p.m. shift, likely to maximize time 
with their families.
    In addition, Globe instituted a new approach to paid time 
off in response to high turnover rates, especially among new 
employees. Our new flexible approach to paid time off is known 
as Globe Time Off or GTO. Under GTO, non-exempt employees 
receive 12 days off per year to use for any purpose, meaning 
the time could be used to care for a sick child or for the 
employees themselves, to run errands, or as a vacation day. Six 
of these days are paid, and six are unpaid, and any unused paid 
time is given as a bonus at the end of the year.
    All these practices are voluntary. We're not required to 
offer these benefits. But we do because they work well for our 
employees and help us attract and retain the best people.
    Because one-size-fits-all mandates limit employer 
flexibility and innovation, pending legislation such as the 
Healthy Families Act actually could curtail leave flexibility. 
Life cannot always be divided between sick and vacation 
buckets. Sometimes an employee needs to chaperone a school trip 
or they need to renew a driver's license. Are these examples of 
sick time or vacation time? Requiring employees to use leave 
for very specific reasons does not provide the flexibility 
valued by employees in meeting their work-life needs.
    Mr. Chairman, thank you for the opportunity to share 
Globe's story and the impact new Federal leave mandates would 
impose on employers. SHRM remains committed to working with the 
committee to ensure that employers can continue to provide 
workplace flexibility to employees in a manner that does not 
threaten existing benefits or create unnecessary and 
counterproductive regulations.
    Thank you again for allowing me to share my views, and I 
welcome any questions.
    [The prepared statement of Ms. Troy follows:]
               Prepared Statement of Gayle E. Troy, SPHR
                              introduction
    Good afternoon Chairman Harkin, Ranking Member Alexander, and 
distinguished Senators. My name is Gayle Troy, and I am the Human 
Resources Manager at Globe Manufacturing Company, LLC at our company 
headquarters in Pittsfield, NH. I am pleased to appear before you today 
on behalf of the Society for Human Resource Management (SHRM). Thank 
you for this opportunity to participate in this roundtable discussion.
    SHRM is the world's largest association devoted to human resource 
(HR) management. Representing more than 275,000 members in over 160 
countries, the Society serves the needs of HR professionals and 
advances the interests of the HR profession. Founded in 1948, SHRM has 
more than 575 affiliated chapters within the United States and 
subsidiary offices in China, India and United Arab Emirates.
    By way of introduction, I have been a SHRM member for nearly 28 
years, and have twice served in a volunteer leader role as President of 
the Human Resources Association of Greater Concord, my local chapter of 
SHRM. I have 32 years of experience as an HR professional, including 28 
years working in human resources for Globe. With 424 employees across 
four States including Oklahoma, Virginia, and Maine, today Globe is the 
world's largest manufacturer of firefighters' protective clothing, 
producing over 100,000 garments (coats or pants) every year in more 
than 80 countries, including approximately one-third of all garments 
sold in the United States.
    Globe opened in 1887 in Lynn, MA and was moved to Pittsfield, NH, 
in 1901. Business operations and manufacturing continue today from this 
small New Hampshire town and the business is currently owned and 
managed by the fourth generation of the Freese family. The owners live 
locally so they tend to meet our employees everywhere--at the grocery 
store, the movies, or the motorcycle rally. It is extremely important 
to the owners to know that they are offering their employees a quality 
place to work.
    In order for my company to be an employer of choice, remain 
competitive and promote economic security, Globe actively works to 
create an environment that encourages employee development and 
retention. At Globe, we focus on employee retention by frequently 
connecting our employees to our mission. For example, firefighters will 
occasionally visit the company and share how their lives were saved by 
the gear produced by employees. During these visits, our team gathers 
in the cafeteria to meet these professionals, examines the remains of 
the garments, and asks questions. One firefighter brought a letter 
``written'' by his toddler-aged daughter, thanking us for saving her 
Daddy so he could go in the pool with her--a moment none of us will 
ever forget.
    In addition, we are diligent about promoting from within the 
organization. Our two most senior production managers (each with more 
than 40 years of service) both started as front-line workers. Each of 
them was eager to learn, and took the bold step of asking for more 
responsibility. Neither has formal education beyond a high school 
diploma, but both are absolutely star performers for the company.
    In my testimony, I will share with you how Globe's rich benefits 
and workplace flexibility practices promote economic security, describe 
the merits and challenges inherent in both current and proposed Federal 
leave mandates, reveal recent SHRM research on employer practices, 
offer SHRM's workplace flexibility policy recommendations to Congress 
and discuss SHRM's effort to educate HR professionals about the 
importance of effective and flexible workplaces.
       promoting economic security through workplace flexibility
    The purpose of today's roundtable is to discuss ways to promote 
economic security for working women across our country. This topic is 
particularly relevant and important for Globe's workforce which is made 
up of 71 percent women.
    As I mentioned earlier, ensuring Globe is a great place to work is 
very important to the owners. As such, we are a company that invests in 
our people, by focusing on recruiting, retaining, and advancing our 
skilled workforce. We have found that one of the best ways to retain 
talented and dedicated employees is to create an effective and flexible 
workplace, with generous benefits and innovative workplace flexibility 
policies. At Globe, our employees are treated like true professionals 
with more control over their work time and schedules, which helps 
improve engagement and morale, increases productivity, retains top 
performers, and, ultimately, improves business performance.
    Our workplace flexibility practices help meet the work-life needs 
of our workforce while also ensuring business operations continue. In 
other words, our policies and programs work for both our employees and 
for our company. As a small company, Globe is creative in providing 
employee benefits and flexible work strategies. These employee benefits 
have contributed to our company's 93 percent employee retention rate. 
Higher employee retention leads to greater economic security and 
stability for our workforce. Organizations like ours want to be able to 
continue to manage our workplace in ways that work for our company 
culture and that help us meet our business objectives, including our 
financial sustainability.
    Below I have outlined some of Globe's total rewards offerings that 
help ensure we are an employer of choice. These include:

    <bullet> Flexible Work Hours--Offering flexible work hours is one 
of the best ways we help employees meet their work and life 
obligations. Our Flexible Hours program allows most non-exempt 
employees to choose their start time between 6 a.m. and 8 a.m. and 
correspondingly, to end their workday 8.5 hours later, between 2:30 
p.m. and 4:30 p.m. Employees may choose to change their start and end 
times at any time as long as they have their supervisor's approval. 
Interestingly, almost 80 percent of eligible employees have chosen the 
6 a.m. to 2:30 p.m. shift. I believe many employees choose this shift 
to maximize time with their families.
    <bullet> Globe Time Off (GTO)--Globe instituted a new approach to 
paid time off in reaction to high turnover rates, especially with our 
new employees. In order to keep the best talent, we developed a 
comprehensive package of benefits, which included a flexible approach 
to paid time off, that we termed, ``Globe Time Off.'' Under the Globe 
Time Off program, non-exempt employees (90 percent of our workforce) 
receive 12 days off per year to be used for any purpose. The time could 
be used to care for a sick child or for the employees themselves, to 
run errands, or as a vacation day. Six days are paid, and 6 days are 
unpaid. Any unused paid time is paid as a bonus at the end of the year.
    <bullet> Paid Vacation Days--In addition to GTO, Globe offers 10 to 
20 paid vacation days, depending on length of service. Any unused 
vacation time is paid as a bonus at the end of the year.
    <bullet> Paid Leave Days--In addition to the GTO program and paid 
vacation days mentioned above, Globe offers additional paid-time-off 
policies important to our workforce. For example, we remove some of the 
disincentives associated with blood donation by ensuring workers 
continue to be paid while traveling to and from the donation site. As a 
manufacturer of firefighter suits, we believe it is important to offer 
Volunteer Firefighters Time, allowing for unlimited paid time off 
during working hours to respond to fires and other serious emergencies 
in our community. To further incentivize employee advancement and 
growth, we offer paid time (at half their regular rate) for employees 
to attend classes to become certified as a firefighter and we provide 
paid time provisionally for disaster relief in other areas of the 
country. Additionally, we provide unlimited time off at full pay for 
jury duty and for time spent in criminal cases where the employee is a 
crime victim or if the employee is a witness to a crime and is called 
upon to testify. All employees receive 10 paid holidays as well.
    <bullet> Disability--Our short-term disability program is paid 100 
percent by the company and provides 70 percent of regular pay for up to 
26 weeks in a 2-year period. Our long-term disability program is also 
paid 100 percent by Globe; it begins after 26 weeks and continues as 
needed.
    <bullet> Equipping Our Workers--At Globe, we want to ensure that 
our employees have the tools needed to be safe and successful in the 
workplace. That is why we provide a shoe allowance of $75 per year to 
spend on appropriate footwear for employees whose jobs require them to 
stand or walk for most of the day. In addition, the company provides 
all general safety equipment; however, if an employee prefers to 
purchase prescription safety glasses, the company will reimburse 50 
percent of the cost, up to $150, every 2 calendar years.
    <bullet> Employee Well-Being--Globe offers high-quality health care 
to our employees, contributing 87 percent toward the single health 
insurance plan and 81 percent of the family health insurance plan. In 
addition, we provide dental insurance and Flexible Spending Accounts 
(FSA), which allow employees the opportunity to set aside pre-tax 
dollars to pay for medical expenses not covered by their health 
insurance. In order to encourage participation and promote employee 
well-being, Globe contributes $100 to the FSA for each employee who 
participates. Another way Globe encourages employee health and well-
being is through our smoking cessation program. When an employee is 
smoke-free for 1 year, our company pays half of the smoking cessation 
program and the employee is taken to a celebratory lunch by the three 
company owners.
    <bullet> Employee Financial Health--Promoting long-term economic 
security through competitive pay and a variety of retirement and 
profit-sharing tools is a major component of our compensation package. 
Globe provides an array of retirement tools to help our employees and 
their families prepare for the future. Through Globe's 401(k) plan, the 
company matches 50 percent of our employee's contributions up to 6 
percent and offers a 3 percent company contribution.

    Mr. Chairman, these offerings, whether employee benefits or 
workplace flexibility strategies, are intended to improve employee 
engagement and retention while improving business results. All of these 
practices I described are voluntary. We are not required to offer these 
benefits at Globe, but we do because they work well for our employees 
and help us attract and retain the best people. However, if Globe's 
benefits were forced onto another employer in New Hampshire, or across 
the State or the country, these benefits might not work as well in 
meeting the business needs of the organization and the personal needs 
of its employees. What works at one company may not be appropriate for 
another organization's culture, business structure or industry.
                   the family and medical leave act?
    To date, the Family and Medical Leave Act (FMLA) is the only 
Federal statute that mandates employee leave. While SHRM supports the 
spirit and intent of the Act, it is an example of a well-intended 
Federal employment law that has had unexpected consequences and 
burdensome administrative requirements.
    As you know, Mr. Chairman, the FMLA provides unpaid leave for the 
birth, adoption or foster care placement of an employee's child, as 
well as for the ``serious health condition'' of a spouse, son, 
daughter, or parent, or for the employee's own medical condition. The 
Act also provides specific protections for employees who have family 
members that have been called up to serve on active duty in the 
military, and for employees to take care of a covered service member 
who has suffered an injury or illness incurred in the line of duty.
    From the beginning, HR professionals have struggled to interpret 
various provisions of the FMLA. What began as a fairly simple 12-page 
document has become 200 pages of regulations governing how the law is 
to be implemented. This is the result of a well-intentioned, but 
counterproductive attempt to anticipate every situation in every 
workplace in every industry--without regard for the evolving and 
diverse needs of today's workforce or the new operations and 
technologies that organizations employ to stay competitive. For 
example, one of my human resources staff members has estimated that she 
spends up to 65 percent of her time on FMLA compliance work. In my 
office, there are only three of us, so that accounts for one-fifth of 
my team.
    Vague FMLA rules mean that practically any ailment lasting 3 
calendar days and including a doctor's visit now qualifies as a serious 
medical condition. Unfortunately, if the doctor has written the 
certification without great care, the employer has little to no 
recourse. Although Congress intended medical leave under the FMLA to be 
taken only for truly serious health conditions, sometimes I'm concerned 
that employees use this leave to avoid coming to work. This behavior is 
damaging to employers and fellow employees alike.
    At Globe, our challenges with the FMLA center on the definitions of 
a serious health condition, intermittent leave, and medical 
certifications. In particular, Globe has struggled with intermittent 
leave for episodic conditions. Intermittent leave means that employees 
can basically be absent from work on any random day as long as it fits 
the parameters given by the medical provider. Currently, more than 10 
percent of my workforce could be out on any given day. A few years ago, 
25 percent of our workforce could be out on any given day. When large 
segments of your employee population can take this time off, without 
much advance notice, production and output is negatively impacted.
                        proposed leave mandates
    Congress's examination of proposals to help employees navigate 
their work-life needs should focus on encouraging or incentivizing 
employers to voluntarily adopt workplace flexibility offerings that 
work for the organization and the employees, not on additional, rigid 
mandates.
    For example, the one-size-fits-all mandate contained in S. 631, the 
``Healthy Families Act'' (HFA) raises serious concerns. The bill would 
require public and private employers with 15 or more employees to 
provide 56 hours--effectively 7 days--of paid sick leave annually to 
each employee. Employees who work for 20 or more calendar workweeks in 
the current or preceding year would be eligible for HFA leave.
    If organizations are required to offer paid sick leave as 
envisioned in the HFA, they will likely absorb this added cost by 
cutting back or eliminating other employee benefits, such as health or 
retirement benefits, or forgo wage increases. Keep in mind that many 
employees may prefer higher wages or other benefits over receiving more 
paid sick leave--yet another way the HFA's one-size-fits-all approach 
will not meet the needs of all employees.
    SHRM believes the Federal Government should encourage paid leave--
without creating new mandates on employers and employees. As has been 
our experience under the FMLA, proscriptive attempts to micromanage 
how, when and under what circumstances leave must be requested, 
granted, documented and used would be counterproductive to encouraging 
flexibility and innovation. If a paid sick leave mandate were enacted, 
an employer's focus would have to be on documentation of incremental 
leave and the reasons for the leave, rather than on seeking innovative 
ways to help employees to meet the demands of both their work and 
personal lives.
    As mentioned, Globe provides over 20 days of paid leave, plus 10 
paid holidays and other leave. It is unclear whether the HFA would 
require Globe to provide another 7 days of leave in addition to our 
vacation and GTO. In this economy, many employers cannot afford that. 
Even those that can afford it will have to cut employee benefits 
somewhere else. At Globe, profits are shared with the employees through 
our 401(k) and profit sharing programs. The cost of adding 7 additional 
days of paid leave, on top of our 30-plus days of leave, would have to 
come from somewhere and would therefore curtail or remove some other 
benefit, or would lessen our profit sharing.
    We provide generous paid leave so that we can continue to be an 
employer of choice for employees and applicants in our area. What we do 
not want is a government-imposed paid-leave mandate to take away our 
competitive edge over other employers.
                             shrm research
    Today's roundtable is well-timed with the recent release of a new 
report by SHRM and the Families and Work Institute (FWI), the 2014 
National Study of Employers, which looks at changes in the workplace 
since 2008. First conducted by FWI in 1998, the National Study of 
Employers is the most comprehensive and far-reaching study of the 
practices, policies, programs and benefits provided by U.S. employers 
to address the changing needs of today's workforce and workplace, 
including workplace flexibility, health care and benefits, caregiving 
leave and elder care assistance.
    The study found that more employers are adopting flexibility 
policies over when and where full-time employees work. This includes 
options such as working remotely occasionally (telecommuting) and 
control over overtime. The most common forms of flexibility are control 
over taking breaks, time off for important family and personal needs, 
and flextime. Overall, from 2008 to 2014, the study found employers 
have continued to increase their provision of options that allow at 
least some employees to better manage the times and places in which 
they work. These include occasional flex place (67 percent in 2014 
compared with 50 percent in 2008); control over breaks (92 percent in 
2014 compared with 84 percent in 2008); control over overtime hours (45 
percent in 2014 compared with 27 percent in 2008) and time off during 
the workday when important needs arise (82 percent in 2014 compared 
with 73 percent in 2008).
    The data show that employers continue to find ways to offer 
flexibility to their employees, despite the economic challenges they 
face. Employers are dealing with lingering economic instability by 
trying to accomplish more with fewer employees. While it may have been 
expected that employers would cut back on flexibility entirely during 
the economic downturn, we are seeing employers leverage flexibility to 
remain competitive.
 shrm's recommendations for a 21st century workplace flexibility policy
    Because HR professionals are on the front lines of devising 
workplace strategies to create effective and flexible organizations, 
SHRM and its members have given careful consideration to the role 
public policy can play in advancing the adoption of workplace 
flexibility. It is our strong belief that public policy must not hinder 
an employer's ability to provide flexible work options. Rather, public 
policy should incentivize and enhance the voluntary employer adoption 
of workplace flexibility programs.
    SHRM and its members believe the United States must have a 21st 
century workplace flexibility policy that reflects the nature of 
today's workforce, and that meets the needs of both employees and 
employers. It should enable employees to navigate their work and 
personal needs while providing predictability and stability to 
employers. Most importantly, such an approach must encourage employers 
to offer greater flexibility, creativity and innovation to meet the 
needs of their employees' families.
    In 2009, SHRM developed a set of five principles to help guide the 
creation of a new workplace flexibility public policy. In essence, SHRM 
believes that all employers should be encouraged to provide paid leave 
for illness, vacation and personal days to accommodate the needs of 
employees and their family members. In return for meeting a minimum 
eligibility requirement, employers that choose to provide paid leave 
would be considered to have satisfied Federal, State and local 
requirements and would qualify for a statutorily defined ``safe-
harbor.'' The principles are as follows:

    <bullet> Shared Needs--SHRM envisions a ``safe-harbor'' standard 
where employers voluntarily provide a specified number of paid leave 
days for employees to use for any purpose, consistent with the 
employer's policies or collective bargaining agreements. A Federal 
policy should:

        <bullet>  Provide certainty, predictability and accountability 
        for employees and employers.
        <bullet>  Encourage employers to offer paid leave under a 
        uniform and coordinated set of rules that would replace and 
        simplify the confusing--and often conflicting--existing 
        patchwork of regulations.
        <bullet>  Create administrative and compliance incentives for 
        employers that offer paid leave by offering them a safe-harbor 
        standard that would facilitate compliance and save on 
        administrative costs.
        <bullet>  Allow for different work environments, union 
        representation, industries and organizational size.
        <bullet>  Permit employers that voluntarily meet safe-harbor 
        leave standards to satisfy Federal, State and local leave 
        requirements.

    <bullet> Employee Leave--Employers should be encouraged to 
voluntarily provide paid leave to help employees meet work and personal 
life obligations through the safe-harbor leave standard. A Federal 
policy should:

        <bullet>  Encourage employers to offer employees some level of 
        paid leave that meets minimum eligibility requirements as 
        allowed under the employer's safe-harbor plan.
        <bullet>  Allow the employee to use the leave for illness, 
        vacation, personal and family needs.
        <bullet>  Require employers to create a plan document, made 
        available to all eligible employees, that fulfills the 
        requirements of the safe-harbor.
        <bullet>  Require the employer to attest to the U.S. Department 
        of Labor that the plan meets the safe-harbor requirements.

    <bullet> Flexibility--A Federal workplace leave policy should 
encourage maximum flexibility for both employees and employers. A 
Federal policy should:

        <bullet>  Permit the leave requirement to be satisfied by 
        following the policies and parameters of an employer plan or 
        collective bargaining agreement, where applicable, consistent 
        with the safe-harbor provisions.
        <bullet>  Provide employers with predictability and stability 
        in workforce operations.
        <bullet>  Provide employees with the predictability and 
        stability necessary to meet personal needs.

    <bullet> Scalability--A Federal workplace leave policy must avoid a 
mandated one-size-fits-all approach and instead recognize that paid 
leave offerings should accommodate the increasing diversity in 
workforce needs and environments. A Federal policy should:

        <bullet>  Allow leave benefits to be scaled to the number of 
        employees at an organization; the organization's type of 
        operations; talent and staffing availability, market and 
        competitive forces, and collective bargaining arrangements.
        <bullet>  Provide pro-rated leave benefits to full- and part-
        time employees as applicable under the employer plan, which is 
        tailored to the specific workforce needs and consistent with 
        the safe-harbor.

    <bullet> Flexible Work Options--Employees and employers can benefit 
from a public policy that meets the diverse needs of the workplace in 
supporting and encouraging flexible work options such as telecommuting, 
flexible work arrangements, job sharing and compressed or reduced 
schedules. Federal statutes that impede these offerings should be 
updated to provide employers and employees with maximum flexibility to 
navigate work and personal needs. A Federal policy should:

        <bullet>  Amend Federal law to allow employees to manage work 
        and family needs through flexible work options such as 
        telecommuting, comp time, flextime, a part-time schedule, job 
        sharing and compressed or reduced schedules.
        <bullet>  Permit employees to choose either earning 
        compensatory time off for work hours beyond the established 
        work week, or overtime wages.
        <bullet>  Clarify Federal law to strengthen existing leave 
        statutes to ensure they work for both employees and employers.

    One approach to providing additional workplace flexibility that 
works for both employers and employees and that meets the principles 
outlined above is legislation to allow for compensatory (comp) time off 
in the private sector. S. 1626, the Family Friendly and Workplace 
Flexibility Act of 2013, would allow more U.S. workers to access comp 
time. Specifically, the bill would modernize the application of the 
Fair Labor Standards Act to the private sector by permitting employers 
to offer employees the voluntary choice of taking overtime in cash 
payments, as they do today, or in the form of paid time off from work. 
Currently, Federal employees are offered a similar benefit.
    At Globe, we are in close proximity to our State capital of 
Concord. Many current Globe employees are former State employees and 
are often surprised when they learn that compensatory time is not 
available to private-sector employees. Since comp time has worked well 
within the public sector at the State and Federal level for nearly 
three decades, I think it is disappointing that Congress has not 
extended this same benefit to private-sector employees.
               workplace flexibility educational efforts
    As SHRM continues to advocate for public policy proposals that 
encourage or incentivize employers to create effective and flexible 
workplaces, the Society has also formed a multi-year partnership with 
the FWI to educate HR professionals about the business benefits of 
workplace flexibility. The primary goal of the SHRM/FWI partnership is 
to transform the way employers view and adopt workplace flexibility by 
combining the research and expertise of a widely respected organization 
specializing in workplace effectiveness with the influence and reach of 
the world's largest association devoted to human resource management.
    Although FWI is an independent non-advocacy organization that does 
not take positions on these matters, and the position of SHRM should 
not be considered reflective of any position or opinion of FWI, I'd 
like to mention one of the key elements of the SHRM/FWI partnership, 
When Work Works, a national initiative to bring research on workplace 
effectiveness and flexibility into community and business practice. 
When Work Works partners with communities and States around the country 
to:

    <bullet> Share rigorous research and employer best practices on 
workplace effectiveness and flexibility.
    <bullet> Recognize exemplary employers through the Sloan Award for 
Excellence in Workplace Effectiveness and Flexibility.
    <bullet> Inspire positive change so that increasing numbers of 
employers understand how effective and flexible workplaces benefit both 
employers and employees, and use this information to make work ``work'' 
better.

    Change is constant in business. We know that in order for 
organizations to remain competitive, they must employ strategies to 
respond to the changes in the economy, the workforce, and work itself. 
By highlighting strategies that enable people to do their best work, 
When Work Works promotes practical, research-based knowledge that helps 
employers create effective and flexible workplaces that fit the 21st 
century workforce and ensures a new competitive advantage for 
organizations.
                               conclusion
    In the global, 21st century economy, workplace flexibility policies 
help both multinational corporations and small businesses meet the 
needs of their employees. At its core, workplace flexibility is about 
improving business results by providing employees with more control 
over how, when and where work gets done. In order for workplace 
flexibility strategies to be effective, however, they must work for 
both the employer and the employee.
    SHRM remains committed to working with the committee and Congress 
to ensure employers can continue to provide workplace flexibility to 
employees in a manner that does not threaten existing benefits or 
create unnecessary and counterproductive regulations. We believe it's 
time to pursue a new approach to this issue absent rigid, unworkable 
mandates.
    Thank you. I am happy to answer any questions you may have.

    The Chairman. Thank you very much, Ms. Troy.
    Ms. Riner.

  STATEMENT OF RHEA LANA RINER, PRESIDENT, RHEA LANA'S, INC., 
                           CONWAY, AR

    Ms. Riner. Chairman Harkin, Ranking Member Alexander, and 
members of the committee, thank you for the invitation to 
testify today.
    In 1997, I began my small business as a young mom after my 
family transitioned from a corporate salary to a ministry 
salary. I loved cute clothes but did not have the budget to 
dress my children the way I hoped. So I invited a few friends 
to a small event in my living room to buy and sell children's 
clothing.
    From this humble beginning, my heart swelled for families 
with budget struggles trying to provide for their children. I 
wanted to offer them the opportunity to save money. The moms, 
grandmoms, and husbands who joined together to host consignment 
events like ours create a marketplace in which their families 
can both sell and purchase gently used children's clothing, 
toys, and baby equipment.
    My business, called Rhea Lana's, is simply a facilitator. 
We help these families succeed and we love it. Rhea Lana's 
offers families the same types of real world opportunities that 
E-bay offers its participants in the virtual world. Like Rhea 
Lana's, E-bay offers a marketplace where buyers can find low-
price products from people looking to sell their goods. 
Everyone understands that E-bay participants are looking out 
for their own interests, just like Rhea Lana's consignor 
volunteers.
    In 2013, I encountered a huge obstacle to my business' 
success. The Department of Labor ruled that my best customers 
should be classified as employees. The DOL then sent letters to 
these customers suggesting that they sue me. The DOL also 
warned if we did not follow their advice, we could be penalized 
for willful violations with astronomical fines.
    In doing so, the DOL ignored zero complaints against us; 
ignored a favorable ruling by the State of Arkansas; ignored 
interviews with our consignors, none of whom support the DOL's 
conclusions; and ignored the benefits of a nationwide industry 
faithfully serving millions of moms, dads, and children over 
the past 25 years. Frankly, the actions of the DOL have been 
the exact opposite of economic security for this working woman.
    We were forced to file a complaint against the Department 
of Labor in Federal court. The case was brought by cause of 
action, and we now ask your support of S. 1656 sponsored by 
Senators Pryor and Boozman, which was referred to this 
committee.
    Members of the committee, I support our government's duty 
to verify the lawfulness of the actions of its citizens. 
However, the Department of Labor is acting to oppose struggling 
families who are seeking to help themselves. I believe the 
government should instead do more to honor a precious American 
resource, the ingenuity and courage of America's entrepreneurs.
    Thank you.
    [The prepared statement of Ms. Riner follows:]
                 Prepared Statement of Rhea Lana Riner
    In 1997, I began my small business as a young mom after my family 
transitioned from a corporate salary to a ministry salary. I loved cute 
clothes, but did not have the budget to dress my children the way I 
hoped. So, I invited a few friends to a small event in my living room 
to buy and sell children's clothing.
    After that very first sale, my husband suggested that we 
computerize everything so that consignors could enter their items 
online, and we bar coded our tags. From that time until now, we have 
worked hard on developing our unique, copyrighted software and we 
continually strive to increase and improve our technology. We value the 
precious little time that moms have to do all that they must do. Our 
events are about loving and serving people.
    From this humble beginning, my heart swelled for families with 
budget struggles trying to provide for their children. I wanted to 
offer them the opportunity to save money. The moms, grandmoms, and 
husbands who join together to host consignment events like ours create 
a marketplace in which their families can both sell and purchase gently 
used children's clothing, toys and baby equipment. My business, called 
Rhea Lana's, is simply a facilitator. We help these families succeed, 
and we love it!
    In 2008 we took a huge step and expanded our business. We now 
support seventy new business women who serve many thousands of families 
in their own communities. We are proud of these ladies! They have had 
the love and courage to step out of their comfort zones. It is my 
heart's desire to add value to the lives of families by providing 
excellent quality merchandise at affordable prices. And it is also my 
desire to help women learn to gracefully wear those hats that we all 
wear--and to mature personally, professionally, spiritually and 
emotionally.
    The last 17 years have been an incredible journey. I never intended 
to be a business person. But I am deeply thankful to God for putting 
this desire in my heart, pushing me out of my comfort zone, and 
blessing my attempts in building this business. Just as with any 
pursuit, there have been highs and lows, victories and challenges. But 
I was raised to be a hard worker and to never give up.
    Please allow me to tell you how my current struggle began.
    In Spring 2011, I sent an e-mail to central Arkansas families 
announcing an upcoming Rhea Lana's event. The e-mail mentioned that 
moms could volunteer at the event if they were interested in helping 
out. One of these e-mails went to a family member of an Arkansas 
Department of Labor employee that had signed-up for our mailing list. 
Arkansas Labor officials soon began investigating Rhea Lana's to 
determine if we were violating any laws by allowing volunteers to help 
at events. We cooperated fully, and in the end, received a favorable 
response from our State. After slightly tweaking our business model, we 
signed a Consent Agreement with Arkansas in January 2012 that allowed 
us to continue using consignor-volunteers. The State then audited Rhea 
Lana's in June 2012 and utilized the Consent Agreement to interpret 
their findings.
    While our experience with the Arkansas Department of Labor resulted 
in significant legal expense to our small company, we ultimately were 
very satisfied with the result. In fact, I would like to commend the 
Arkansas Department of Labor for applying a common sense approach to 
Rhea Lana's business model that allows us to continue operating and 
serving Arkansas families.
    But then, in January 2013, we were contacted by the U.S. Department 
of Labor. There are over 2,000 consignment events held each season 
nationwide, and we have never heard of any of them being investigated. 
Yet now, we were about to undergo our second investigation in 2 years! 
We learned at a hearing before a joint session of the Arkansas Senate 
and House Insurance and Commerce committees that the State of Arkansas 
had originally referred Rhea Lana's to the U.S. DOL, which at first 
declined to investigate us. Only after the State of Arkansas completed 
their investigation and signed our Consent Agreement did the U.S. DOL 
decide to investigate us.
    Our initial meeting with the U.S. DOL was held in Little Rock on 
February 28, 2013. Staff members from Congressman Griffin and Senator 
Boozman's office attended, along with Denise Oxley, Counsel for the 
Arkansas Department of Labor. In the spirit of full cooperation, we 
provided DOL with the contact information of 10 moms who had 
participated as consignor-volunteers for the DOL to interview. These 
moms come from all walks of life. For example, two were teachers, one 
was a stay-at-home mom, two were nurses, and one was a radiologist. We 
thought that once the U.S. DOL spoke with these moms and recognized 
that they were participating on a limited basis for their own benefit, 
not because Rhea Lana's had some control over them, the U.S. DOL would 
realize they are not employees. We also shared with the U.S. DOL the 
Consent Agreement we had entered into with the Arkansas State 
Department. Unfortunately, this did not satisfy the U.S. Department of 
Labor. DOL asked for all of our payroll records going back 2 years, 
submitted formal questions to us that required the assistance of 
lawyers to respond, and unpredictably showed up at one of our events to 
surreptitiously interview our moms. The moms told us that they told the 
DOL that we are all in this together, and that they choose to 
participate to help their families.
    Ignoring the moms' input, in a letter responding to Congressman 
Griffin, the DOL cited a 1985 Supreme Court case involving cult leaders 
who used adults and children in horrible ways that violated the law. 
The DOL's target in this 1985 Supreme Court case, Tony Alamo, is a 
convicted child offender who exploited cult members. By relying upon 
this case, the DOL appears to be comparing me and my children's 
consignment business to a criminal who preyed upon and manipulated many 
families here in Arkansas.
    This should come as no surprise to you, but Rhea Lana's does not 
abuse its volunteers! Moms love Rhea Lana's, and they are certainly NOT 
exploited cult members.
    The DOL also told us that the participating moms should be 
considered employees because they volunteer at our event location. Our 
consignment events are like multi-family garage sales in many ways. 
Certainly the DOL does not expect neighbors to issue W-2's for 
participating in the neighborhood garage sale. Hopefully, government 
regulations will never come to this, but this is the same type of model 
under which Rhea Lana's operates.
    Incredibly, the U.S. DOL even sent letters to all of our consignor-
volunteers, asserting they had the right to sue us. The letter was also 
mailed to our past employees and implied that we may not have paid them 
for their labor--which we certainly did. We note that we have received 
ZERO complaints from our consignor-volunteers and employees. None of 
them took action against us--even after DOL's prompting.
    In August 2013, DOL sent us a letter citing legal provisions that 
``provide for the assessment of a civil money penalty for any repeated 
or willful violations . . . in an amount not to exceed $1,100 for each 
such violation.'' After being investigated for 2 years, when I received 
that letter it was my most terrifying and discouraging experience. 
However, we at Rhea Lana's will not be victims. We are defending 
ourselves against the U.S. DOL's seemingly arbitrary position. We have 
two bills in Congress. House Bill H.R. 3173 is sponsored by our 
Representative Tim Griffin, and co-sponsored by all of Arkansas's 
Congressmen--Rep. Tom Cotton, Rep. Steve Womack and Rep. Rick Crawford, 
as well as Missouri Congresswoman Vicki Hartzley. Senate Bill S. 1656 
is sponsored by both Senator Mark Pryor and Senator John Boozman. We 
are mobilizing moms nationwide to help Congress to understand that moms 
have the right to join together to help their families. If you have 
suggestions about how we can mobilize Members of Congress outside our 
State, we are very open to hearing from you.
    Also, on January 6, 2014, Cause of Action, an advocacy group for 
economic freedom, filed a legal complaint on our behalf against the DOL 
in the U.S. District Court for the District of Columbia. Again, we 
believe the Fair Labor Standards Act and case law are on our side.
    Members of the committee, I understand and support our government's 
duty to verify the lawfulness of the actions of its citizens. This is 
part of living in a civilized world. However, unlike our own State of 
Arkansas, the Federal Government is now acting to oppose and frustrate 
struggling families. It is acting in this chilling manner even after 
fully investigating the intentions and activities of our industrious 
moms. I am doing all I can to protect my business and the rights of 
these precious women from their own government. I am grateful for a 
chance to speak with you, and I hope you will join me. Our children--
and their moms--deserve our best.

    The Chairman. Thank you very much, Ms. Riner.
    Thank you all very much for your very concise statements. I 
read over your statements last evening. They're all excellent 
written statements, and I appreciate it very much.
    We'll start a round--as I said, we'll do just one question 
each, and then we'll get through that, and maybe we'll get some 
discussions going. Like I said, if a question is asked of the 
panel, and if you would like to respond to it, just, as Senator 
Mikulski showed you, turn your name up like that.
    So I'll have the first question, and it is a panel 
question. I understand that much of the developed world has 
already implemented many of the public policies that we're 
discussing here today. Can any of you address what some of 
those policies are, and how successful have they been for women 
in some of these other countries, if you're aware of any such 
thing like that?
    I've heard of Canada, and I've heard of some European 
countries and others in the OECD countries. Are any of you 
aware of what they've done in any other countries?
    Ms. Bravo.
    Ms. Bravo. When I was pregnant with my first child in the 
late 1970s, I had a good friend who lives in France who said, 
``I feel so sorry for you that you have to have this baby in 
the United States.'' And I was shocked to learn how backward we 
were in comparison to the rest of the world.
    You mentioned developed countries. It isn't only developed 
countries. I used to give a quiz when I taught a class for 
master's level students on family practices, and I put up, 
``Which of these countries don't have paid family leave, Iran, 
Mongolia, Kenya?'' And we were the only one besides Papua New 
Guinea and then Swaziland--now it's Oman--who don't have paid 
leave for mothers, and many have paid leave for fathers.
    One of the things that's really great is that many 
countries who have far more time than we do have studied what 
the impact is on fathers' involvement with their kids. For 
example, countries like Denmark and Sweden and Norway require 
fathers to spend at least a certain amount of time with their 
newborn or the family loses it. And it has hugely changed their 
involvement, not just with their infants, but with their kids 
throughout their lives.
    The Chairman. Did you want to respond to that also?
    Ms. Tanden. Yes. I'll just briefly say that our economic 
competitors, Germany, China--they all offer paid leave 
proposals. So if you're thinking about this from a 
competitiveness perspective, those countries have recognized, 
as all other developed nations have recognized, that ensuring 
that women participate is an important economic challenge. 
Countries like Italy and Japan are actually trying to increase 
their women's participation rate in the workforce, because they 
recognize it's a competitive advantage, not a disadvantage.
    The Chairman. Thank you.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Ms. Riner, that's a really interesting story you tell about 
your company and the special efforts you've made to give 
volunteers a chance to have an advantage. You've got a 
bipartisan bill by both the Democratic and Republican Senators 
from Arkansas to change the attitude of the Department of 
Labor. If the Department of Labor were to be successful in 
requiring you to treat your volunteers as employees, what would 
be the cost to your company, and what would be the effect on 
your company?
    Ms. Riner. There would be a tremendous cost, sir. That's 
why we're fighting for it. It would definitely negatively 
affect us. We have moms, our consignor mom volunteers, that 
just volunteer a few hours. We hold events twice a year. So to 
have to have the added burden and regulation and the red tape 
that goes into classifying them as employees would be an 
incredible burden.
    We have definitely felt targeted and singled out. There are 
consignment events going on all over the country, and we 
disagree with their position, quite frankly. We feel--the 
Supreme Court has said that when you apply the Fair Labor 
Standards Act that you look at the economic reality of the 
whole situation. So we use our common sense to look at the 
whole work activity.
    The work activity of our business is that it's moms coming 
together to work for themselves. They're co-venturing with us 
to sell their children's items. So they're not our employees, 
and that decision by the DOL would negatively affect our 
business and our opportunity, quite frankly, to serve our 
customers.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. On my list, I have Senator Mikulski, Senators 
Franken, Casey, Warren, and Murphy.

                     Statement of Senator Mikulski

    Senator Mikulski. Thank you very much, Mr. Chairman, to 
both you and Senator Alexander for convening this hearing. 
Women in this country have always worked. There is somehow or 
another this myth that there are these little ladies at home 
that suddenly emerged after radical feminism flamed their 
desires to join the workforce in the 1960s.
    Whether it was the founding mother, like Abigail Adams, who 
kept the farm going while John came down and wrote the 
Constitution, to women who kept farms and others going during 
wars, to some who came to this country to escape chains, some 
in chains, worked, and we know about the sweat shops. Women 
have always worked. But the work has often been undervalued, 
underpaid, or made invisible.
    Then we have a modern employer, and my question goes to 
you, Ms. Troy. First of all, congratulations to this company 
making stuff to protect our firefighters. Second, you have to 
be competing with China. We understand that you're a global 
competing company. How does a company like yours offer these 
benefits and still remain competitive in this world?
    And I gather you also turned a profit, because you're 
turning every argument against what we want to do on its head. 
Can you speak from the business perspective about how you're 
able to do this, and does it actually increase profitability?
    Ms. Troy. Yes. Thank you. I thank you for your kind 
comments. We are a family-owned and -operated company. We've 
been in the same family for 127 years. We invented the fire 
suit, so we have a leg up on the competition, and it was ours 
to lose, I guess. We actually do not compete with China or any 
other overseas entities, mostly because our garments are 
customized.
    What is not well-known outside of our very small niche 
industry is that every single garment we make, all 100,000-plus 
of them, are measured to fit a particular firefighter. And then 
we add onto that different selections of materials, different 
selections of various components, and then after we do all 
that, we put on options. Options are pockets and snaps and 
various things that you can attach your rope to. So you can't 
make them in China.
    We make them one at a time for an individual firefighter. 
We have 1.7 million combinations of options that can go on a 
fire suit, and we can make all 1.7 million combinations in our 
two main manufacturing facilities in New Hampshire and in 
Oklahoma.
    The owners have always been committed to working with the 
employees. They live in town with us. It's a small town. I 
don't live in the town, but I think it's 5,000 people or so.
    Senator Mikulski. Apart from wanting to be a good employer, 
do you feel that these practices increase productivity and 
profit, or are they kind of neutral, or are they negative?
    Ms. Troy. There are some of each. Some things increase 
productivity. We have a nice profit sharing plan where we do a 
quarterly profit sharing bonus to all employees if the company 
meets its goals. We all have to work together in order to be 
both productive and efficient and to meet our quality 
standards. That certainly motivates employees. They get a 
weekly report as to how they're doing, and then a bonus is paid 
out quarterly to every employee if we meet those goals. We do a 
lot of things like that.
    We spend a lot of time actually talking with our employees 
and working with them. We listen to them when they have 
concerns or when things come up, and we try to balance our 
programs and our policies around the issues that come up in the 
workplace to make sure that we're meeting their needs as well 
as the company's. And, yes, we are profitable.
    The Chairman. Thank you.
    Senator Casey. No, I'm sorry. Senator Franken. I apologize.

                      Statement of Senator Franken

    Senator Franken. It's quite all right. Thank you, Mr. 
Chairman.
    Ms. Bravo, I was very taken with your testimony about the 
children in the hospital with no parent there. Quite a while 
ago, a friend of mine--their child was very, very sick, and I 
went to visit the family, and both parents were able to be 
there. They were able to do that. But as I went around this 
pediatric ward, I saw there were kids that didn't have a 
parent.
    We have this sort of philosophical debate. I think Senator 
Alexander said a mandate versus not. We have the Family Medical 
Leave Act, which is mandated, so you can have medical leave for 
your kid, but it's not paid. So parents who can't afford to 
take the medical leave don't do it, and their kid is there, and 
the kid is alone.
    What I wonder about is what is it like in other countries? 
Do we have children alone--very sick children alone in the 
hospital without their parents, or do they have paid medical 
leave? And if they do, is it a mandate? What's the tradeoff 
here? It broke my heart, and these parents of the child I was 
visiting were very cognizant of these other children and so was 
that child. What is that like around the world, and what is it 
like here, and what's it like in California? This is open for 
anyone.
    Ms. Tanden. Around the world, there's a mandate for leave, 
and you can take it for sick children in many countries. But 
you ended with California----
    Senator Franken. Is it paid, though?
    Ms. Tanden. Yes, it's paid leave in other countries. We 
stand out as a country that does not offer paid leave, and, 
therefore, we have bigger burdens on workers and their families 
and their children. I also think we should just look at the 
example of California, which has a paid leave model. That model 
is one where the workers pay out, so it's not a particular 
burden just on employers, but workers pay into a system, and 
then they get basically paid leave insurance.
    We have lots of data about this so-called tradeoff, and 
businesses--the vast majority of businesses report that it's a 
positive or neutral on the bottom line. It increases 
productivity. It helps keep workers. It helps retain high-
quality workers. It helps retain women workers. Women are too 
often forced to come out of the workforce and then come in at a 
lower salary than they otherwise would.
    So you see a lot of economic benefits, not in another 
country, but in a State like California, and New Jersey is 
another one. It's a model that shouldn't be foreign to us, 
because we have good examples that work here.
    The Chairman. Ms. Bravo.
    Ms. Bravo. I have references to all these studies that show 
that impact on kids, on health, as well as on businesses' 
bottom line in my written remarks. But, you know, in 1995, 
there was a bipartisan commission appointed by Congress to 
study the impact of the then unpaid Family Medical Leave Act, 
and I was one of those 12 people.
    I remember one of the more striking things--because as 
someone who fought for the bill, we were told over and over 
that it isn't necessary, that employers are doing it on their 
own. Of those employers who are covered, let's never forget 
that 40 percent of the workforce isn't covered, and the 
majority of employers aren't required to offer it.
    Two-thirds of the covered employers had to change one or 
more of their policies in order to comply. Do you know what 
that often meant? Covering adoptive parents, covering dads, 
covering people to take care of their aging parents or to take 
care of a kid with cancer. It was a really good thing that we 
did this, and now the 2012 survey on FMLA showed that most 
employers find it easy to deal with and a good thing, and that 
will happen with these other laws, too.
    The Chairman. Thank you very much.
    Ms. Traub, I'll give you a short answer. We're out of 5 
minutes on this one.
    Ms. Traub. Yes, sorry about that. I always think I talk 
fast, and then I do. I think about, thankfully, not all of us 
have a child who is sick for a long time. But anyone who is a 
parent--you're going to have a child that is sick from time to 
time. Everyone gets sick. And so a basic benefit like paid sick 
days is--you know, everybody gets sick, and yet not every job 
accommodates somebody--that very human reality that every child 
gets sick, every adult gets sick at one time or another, and we 
need time to take care of ourselves and our children.
    Senator Franken. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Franken.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thanks, Mr. Chairman. I want to thank the 
members of the panel for being here. It's a great panel, and 
we're learning a lot as we listen and as we hear the questions.
    I wanted to focus specifically on the issue of 
discrimination in the workplace as it relates to pregnant 
women. A number of you mentioned the legislation that Senator 
Shaheen and I have, the Pregnant Workers Fairness Act.
    I have to say when I heard the very personal testimony that 
you provided, Ms. Legros, that you did, what I've been trying 
to do for months, which is to summarize in one or two sentences 
what it's all about.
    We have a problem that we thought we fixed a long time ago. 
We had a Pregnancy Discrimination Act passed in 1978, but--we 
later found it had a gaping hole in it. We didn't do for 
pregnancy what we were able to do, thankfully, for disabilities 
in 1990. So instead of having a provision, as we did in the 
ADA, which passed with overwhelming support under George 
Herbert Walker Bush, the first President Bush, the so-called 
reasonable accommodations. What we're trying to do with this 
bill is to provide that same protection.
    I wanted to ask you one question, in particular. But I 
wanted to re-read to everyone what you said earlier. You said, 
``Having a child shouldn't mean losing your job. It should not 
lead to fear and financial dire straits.'' You have 
encapsulated the problem with that sentence--or both sentences, 
really--and you've encapsulated the reason why we need to pass 
the bill.
    I guess I would ask you, in your own experience, in terms 
of the work you were doing, after you had pulled a muscle--you 
pulled a muscle, and you're told not to strain yourself. Your 
doctor gives you a note. You hand the note to the employer and 
he says, ``Go home.'' That's a quick summary. But in your 
workplace, what was the accommodation or change that would have 
helped you to stay on the job and do the job, even as you were 
pregnant?
    Ms. Legros. Thank you, Senator. With my job, I had 
different duties. I could have been accommodated by doing 
clerical duties instead of the heavy lifting. It was just a 
minor accommodation to have someone else to lift those, but it 
was just only me at the time. So they did not want to have 
somebody else help me at the time. But it could have been done. 
They were accommodating others at the time, but when it came to 
me, he just decided not to.
    Senator Casey. Does anyone else want to comment on that, in 
particular?
    Ms. Goss Graves.
    Ms. Goss Graves. Ms. Legros' story is very consistent with 
the type of intake we get at the National Women's Law Center. 
We thought we had solved this problem with the Pregnancy 
Discrimination Act, and what we're finding is that some 
employers are basically saying that everyone can be 
accommodated if their doctor tells them that they need it, 
except for women who are pregnant. And that's the exact 
opposite of what the Pregnancy Discrimination Act was supposed 
to do.
    Sometimes it's even basic accommodations, like having a 
step stool if you're working at a cash register, having the 
ability to go to the bathroom or take a water break. These 
aren't huge accommodations, and with Amy Crosby, the example I 
gave, lifting 20 pounds was OK. It was just 50 pounds that her 
doctor advised her.
    Senator Casey. I'll conclude with this. The individuals in 
this category, in terms of the whole workforce, are 1.5 percent 
of the workforce. It seems that we could come up with something 
to protect 1.5 percent of the workforce.
    The Chairman. Thank you, Senator Casey.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman and Ranking Member 
Alexander. We've heard today how the deck is stacked against 
women, particularly working moms, and about how it's getting 
worse. We also know that two out of every three minimum wage 
workers is a woman, and that a mother working full-time at 
minimum wage cannot keep herself and a baby out of poverty.
    Minimum wage workers have not received an increase in their 
wages in 7 years. Women also make up about three-quarters of 
tipped minimum wage workers, and they haven't received a raise 
in 23 years. This is bad for women. It doesn't reflect our 
values. CEOs got raises. Managers got raises. But the mothers 
who cook and clean and work hard are just kept at the same 
poverty level wages.
    We could change this if Congress would raise the minimum 
wage to $10.10 an hour. More than 15 million women and their 
families would have a chance to lift themselves and improve 
their economic prospects. So what I'd like to ask the panel is 
how increasing the minimum wage would lift women and their 
families, to expand on what it means if we move to a $10.10 an 
hour minimum wage, and what kind of opportunities that would 
create for working families.
    Anyone? Yes, please.
    Ms. Pelletier. Thank you, Senator. Thank you for the 
question. In Connecticut, we did just pass legislation that 
raised it to $10.10. For about 80,000 women and men, that's 
going to mean that they'll have more money to spend in the 
economy.
    When their wages go from $8.65 to $10.10, that's going to 
mean more to the local baker. That's going to mean more to the 
local dry cleaner. And in turn, that will then allow the local 
baker and dry cleaner to go out and buy some other product or 
do some other service.
    Again, the idea that women making $7.25 on the Federal 
level after 40 hours, or roughly $300 a week, or $1,200 a 
month--how they make ends meet--clearly, they're magicians. We 
need to make sure that the minimum wage gets raised. For tip 
workers, again, the idea that they haven't had a raise since I 
was very young is heartbreaking, and these are hardworking men 
and women who are trying to make ends meet but haven't gotten a 
raise.
    Thank you.
    Senator Warren. Thank you.
    Ms. Goss Graves.
    Ms. Goss Graves. I just want to add that we have a new 
study out that highlights that one in five working moms are 
working in very low-wage jobs. This is an issue for women 
overall. It's an issue especially for working moms.
    Senator Warren. Thank you. That's important to note.
    Ms. Tanden.
    Ms. Tanden. I would just like to add that I know that 
there's a lot of concern about tight Federal budget dollars 
these days, and, unfortunately, a lot of low-income women rely 
on food stamps. The Center for American Progress recently 
issued a report that showed that increasing the minimum wage to 
$10.10 an hour would save $46 billion in food stamps and would 
lift a lot of women, obviously, out of poverty. But I think for 
those members of the committee concerned about tight Federal 
dollars, increasing the minimum wage would be a phenomenal way 
to have more fiscal stability.
    Senator Warren. Thank you, Ms. Tanden.
    Ms. Bravo.
    Ms. Bravo. Minimum wage workers without paid sick days are 
sub-minimum wage workers. Paid sick days is a way of keeping 
your pay as well as keeping your job, and we so appreciate your 
comments on that. Thank you.
    Senator Warren. Thank you.
    I want to thank the panel on this. I just want to summarize 
here if I can, Mr. Chairman. What we hear is that if we would 
raise the minimum wage, it would be good for the economy, that 
it would reduce Federal spending at least to the tune of $46 
billion, that it would affect one in five working mothers, and 
from the data we already know, it would permit 15 million women 
and their families to lift their economic circumstances and 
build a fighting chance for their children.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you, Mr. Chairman.
    Thank you to this fantastic panel. You've all been 
excellent. I want to drill down on one particular subject, and 
I'll maybe point the question to my great friend, Lori 
Pelletier, and then ask others to comment if you'd like.
    I wanted to talk about specific industries that have 
disproportionate shares of males versus females. I think of an 
article that was in the Wall Street Journal at the end of last 
year, particularly on the issue of manufacturing--and that's 
Ms. Pelletier's background--that said that we are at a 20-year 
low in terms of the number of women who are working in 
manufacturing today, 27 percent of the workforce.
    And yet we've added a couple of hundred thousand 
manufacturing jobs over the past couple of years, and there are 
all sorts of estimates to suggest that this is going to be one 
of the primary growth areas for our economy, and yet only one 
of four individuals working in manufacturing are women. I'd 
look at military service in the same way. This is an area of 
huge employment opportunity, and yet women are tremendously 
underrepresented. We've had some changes in combat rules which 
may change that dynamic.
    But I'll maybe ask the question specifically with respect 
to manufacturing and, more broadly, in terms of other 
industries. How can we try to remedy some of these disparities, 
especially within industries like manufacturing, where we see 
tremendous job growth over the next several years or several 
decades?
    Ms. Pelletier. Thank you, Senator. I think that one of the 
best things that we can do is invest in the science, 
technology, education, and math schools for our kids, for our 
young women. I was very fortunate. I had two parents that never 
said that as a young girl I couldn't play little league, and I 
was the first girl in my town to play little league. And it was 
OK for me to go out and to enjoy math and enjoy science, 
although I do wish I had been part of the AV squad with all the 
computers today instead of the softball team.
    But that's what we need to do. We need to encourage young 
women and say to them, ``Hey, it's OK to like math. It's OK to 
go into the sciences. It's OK to learn how to be a mechanic on 
a jet engine.'' I look at my niece, Gabriella, who is going to 
be 13 in a couple of weeks, and she loves math, and she loves 
science. For me and for all of us, we should be encouraging 
more of that, and then that way, those jobs that pay well, that 
have good benefits, that are here to stay, women can be part 
of.
    Senator Murphy. Any other comments on this question?
    Go ahead, Ms. Goss Graves.
    Ms. Goss Graves. I was just going to add that there's a 
leaky pipeline in STEM. But some of it is sort of the 
environment that women who are in those jobs are working in 
now, and some of the barriers that we talked about, including 
harassment. It comes up in manufacturing. You hear about 
rampant pregnancy discrimination and other barriers. I think 
encouragement and recruitment is critical. But we also need 
reinforcement of our civil rights laws.
    Senator Murphy. A quick question to you, Ms. Tanden. It 
seems as if the debate over repeal of the healthcare law has 
maybe been set on the sidelines for now. But can you just give 
us a quick minute and a half on the economic consequences for 
women if the repeal efforts were successful?
    Ms. Tanden. Thank you, Senator. I welcome the day that 
there's no longer controversy with the ACA. There's really two 
sets of economic impacts of the ACA. First, particularly, 
there's a range of benefits championed by many people in this 
room. Senator Mikulski was a lead champion of ensuring that 
there was a range of preventive benefits that are available for 
women and, most importantly, that women would no longer be 
discriminated against in insurance protections.
    Women, before the ACA, paid much more, often 20 percent to 
30 percent more for their insurance. That is no longer possible 
with the ACA. It is a mandate, but I think it is a fair 
mandate. I also would note, though, that, as importantly, costs 
for healthcare are reducing, the level of cost in the 
Affordable Care Act. And I know, Senator, that you have shown 
tremendous leadership on the issue of healthcare costs and put 
forward many ideas.
    But as we reduce healthcare costs, that is also going to be 
a benefit to employment, because in the United States, 
employers and employees bear the cost of health insurance 
directly. As we lower those costs, we will lower barriers to 
employment. In both ways, women workers are benefiting from the 
Affordable Care Act, and I think it would be a tragedy to reach 
out and take those protections away from them.
    Senator Murphy. Thank you.
    The Chairman. Thank you, Senator.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you. We have the basic premise in 
America that if you work hard and play by the rules, you should 
have a fair shot at getting ahead. It's just a basic premise 
that we all agree on, but we know that for too many, it is not 
the case. So I want to thank the Chair and Ranking Member for 
convening this roundtable to discuss some of the barriers that 
we see to realizing it.
    One of the barriers that I would like to explore a little 
further is the role of discrimination and harassment, in 
particular, sexual harassment in the workplace and how that 
threatens the economic security of women and their families. 
Just a few statistics on this topic--the Equal Employment 
Opportunity Commission says that they're receiving annual 
claims of sexual harassment of over 10,000 per year, and yet 
according to polls and other research, it's drastically 
underreported. Only 41 percent of women surveyed indicate that 
they have reported harassment out of those who have actually 
experienced it.
    Now, workplace sexual harassment was already clearly a 
significant threat to the economic security of working women. 
But last year, I think there was a significant setback when the 
U.S. Supreme Court worsened an already difficult environment by 
stripping away some critical protections against workplace 
harassment in Vance v. Ball State University.
    In Vance, the court made it harder to hold employers 
accountable when the harassment was perpetrated by what you 
could describe as lower level supervisors, in other words, a 
supervisor who doesn't have hiring and firing authority over 
somebody that they supervise, but may yet have all sorts of 
other control or ability to affect the working lives, and 
beyond, of those that they supervise. So in response--and I 
think before I was able to arrive, there might have been some 
reference to it--I have introduced the Fair Employment 
Protection Act, which would basically restore the critical 
protections that were stripped away in the Vance decision.
    But I wonder if I might ask you, Ms. Goss Graves--in the 
Vance case, the Supreme Court weakened the employer liability 
for harassment by lower level supervisors. These people, 
nonetheless, control daily activities of many workers, 
particularly those in low-wage positions.
    So I'll ask, in your experience, can't those supervisors, 
nevertheless, use their leverage, their control that they have 
in the workforce, whether it's to set hours or assign tasks 
relating to other workplace conditions, to harass and 
discriminate against or sexually harass their subordinates?
    Ms. Goss Graves. That's absolutely right. In her dissent in 
the Vance decision, Justice Ginsburg said that this new rule 
was really out of touch with the realities of the workplace. In 
large part, that's because there are a lot of lower level 
supervisors who control the day-to-day activities of workers. 
They're the people who say what shift you work, whether you 
work weekends, whether you're cleaning the toilets or working 
the register. It is a way to aggravate the harassment. So in 
her dissent, she said the ball is in Congress' court, and we 
are grateful to you and others for taking it up through the 
Fair Employment Protection Act.
    Senator Baldwin. Any other comments on the issue of sexual 
harassment in the workplace?
    My friend, Ms. Bravo.
    Ms. Bravo. I wanted to talk about another form of 
discrimination that you have addressed and that Senator 
Alexander referred to--people who are working part-time. Part 
of the problem is that we have no law that says if you and I do 
the same job for the same company, but I do it fewer hours a 
week, I have to get treated the same in any way--base pay, any 
benefits.
    We have a situation where the FMLA, for example, excludes 
many part-time workers, and I appreciate your having championed 
getting rid of that exclusion. We need part-time parity. I may 
work fewer hours, but I'm full-time every hour I'm on the job. 
And if we did that, we'd have more jobs that were better jobs.
    The Chairman. Thank you, Senator Baldwin.
    Senator Murray.

                      Statement of Senator Murray

    Senator Murray. Thank you very much, Mr. Chairman, for 
having this hearing. I think the issue of economic security for 
working women is critically important to our Nation today as we 
try to grow our economy. I just had a hearing in my Budget 
Committee on this issue last week--what are the policies, what 
are the things we need to be doing as a nation today to make 
sure that women can participate fully in the workforce, 
everything from minimum wage to childcare?
    I think we have to be looking at our country to say, ``What 
are we doing?'' I appreciate your holding this hearing and my 
thanks to all of our witnesses who are here today.
    Let me focus my time on a slightly different end of the 
spectrum for women, and that's retirement security. We know 
that only about half of the workers in the private sector today 
have access to an employer-based retirement plan. That is a 
figure that drops to about 30 percent for workers in businesses 
with fewer than 100 employees. And, surprisingly, in such a 
wealthy nation, about 45 percent of all of our workers have no 
retirement assets at all--45 percent.
    That is pretty bad news for everyone. But, in particular, 
it does lead to worse retirement conditions for women. Among 
people 65 and older, women have less retirement income and face 
a greater risk of poverty than men, and one in three women 
today depends on social security as their sole source of 
income. I don't think it's an exaggeration to say that we have 
a crisis in America today when it comes to retirement for 
women, in particular. And I wanted to open it up to any of you 
who would like to comment on that.
    Ms. Tanden, we'll start with you.
    Ms. Tanden. I agree on the points you're making and really 
thank you for your leadership on this issue, Senator Murray, 
and on issues like universal Pre-K and childcare that are so 
critical to working families. I would just note that issues of 
pay disparity for women have retirement implications, because 
as women are paid less throughout their career, that 
accumulates also in having a disparate pay in their retirement 
benefits, which are tied to salary.
    So as we look at retirement issues and the real anxiety 
that so many women, especially older women, have about being 
able to face retirement, we also need to recognize that what 
happens in the employment practice and the fact that we still 
have these disparities replicate themselves in retirement as 
well.
    Senator Murray. Thank you.
    Ms. Pelletier.
    Ms. Pelletier. Thank you, Senator. In Connecticut, a study 
was done--and, again, we're a wealthy nation, and Connecticut 
is a wealthy State. But one out of four seniors lives in 
poverty in Connecticut. If you think about the fact that women 
as a whole, if, over the course of their work career, are 
continually making 23 cents less, basically, on a 40-year work 
life, they work 10 years for nothing. That absolutely has 
something to do with retirement security.
    In Connecticut this past year, we were able to work with 
the Governor's office and get a study to look at a potential 
retirement for all, a State-run, employee-contributed 
retirement fund so that people may have a chance to put some 
money away. If people are working seven or eight different jobs 
in their career, and they're not staying at the same employer, 
this would at least give them the security to know that they 
can still put money in, even----
    Senator Murray. Have you implemented that now?
    Ms. Pelletier. Yes. The committee is supposed to convene by 
July 1st and work and come back with specific recommendations. 
It's very important. Again, in Connecticut, one out of every 
four seniors lives in poverty.
    Senator Murray. And how many of those are women?
    Ms. Pelletier. I don't know.
    Senator Murray. Ms. Bravo.
    Ms. Bravo. Making sure that women have access to affordable 
time for caregiving will also help their retirement income. 
Fewer people will lose their jobs, and fewer people will lose 
their income that affects the pay disparities that Neera was 
talking about. That's another thing, and thank you so much for 
bringing this up.
    Senator Murray. I think sometimes we don't connect all the 
policies we talk about today that we think are so important, 
whether it's making sure you have childcare so that you can 
stay at work, whether it's pay equity and how that impacts your 
finances both today and when you retire, or the issue that so 
many women come in and out of the workforce when they have kids 
because our policies today make it tough.
    What happens is all of a sudden, you're retired, and your 
only source of income is social security. I think it's about 
$13,000 or a little more than that a year for somebody to exist 
on if their sole source of income is social security, and one 
in three women, as I said, today depends on that small amount 
of money. It's a huge economic issue.
    Anybody else? Oh, I am out of time. But this is something I 
welcome your input on, and I hope that we can focus on this 
issue, Mr. Chairman.
    The Chairman. Thank you, Senator Murray.
    We'll start another round.
    Ms. Bravo, you said that the United States is the only 
country that does not provide paid sick leave for a worker 
undergoing a 50-day cancer treatment. We are one of only three 
countries that do not provide paid sick days for a worker 
missing 5 days of work, say, due to the flu. Does that strike 
anybody but me as kind of odd? I mean, what's going on here?
    I've known a lot of employers in this country and in my 
State and otherwise, and it just seems to me that those who do 
a better job of taking care of their employees, providing for 
these kinds of contingencies, paid maternity leave--my daughter 
works in California. They have a great system in California. 
She's had three children now, and it's just great, the 
maternity leave in California.
    Why don't other businesses see the benefit they get from 
productivity, loyalty, low turnover, lack of absenteeism, when 
people have a baby and they come back to work? I don't get it. 
What is it that we're not getting here that other countries and 
some States are getting? What is it we don't understand?
    Ms. Bravo. The role of lobbyists. Unfortunately, I think 
the lobbyists for big corporations do a real disservice to 
business owners. As I said, every one of our coalitions has 
business partners. They already do it, because they see it's 
the smart as well as the right thing to do, and they also 
support there being minimum standards to guarantee protection 
for everybody.
    Unfortunately, we have lobbyists who get in the way, and in 
their name--I call it identity theft--say that this is bad for 
business. You can go back--there's a great Web site called Cry 
Wolf, and it shows all these quotes, and you think, ``Oh, 
that's so and so from Today.'' But, in fact, it was--you know, 
they had their real estate board in New York after the Triangle 
Shirtwaist Factor Fire arguing against fire escapes and not 
being able to lock the workers in while they were on the job--
the simplest things. We've heard that the sky will fall and 
business will flee.
    The Chairman. Ms. Traub, did you want to respond to that?
    Ms. Traub. I do. I think that, in addition, there's a 
challenge for employers in that employee benefits are easily 
seen as a cost, and wages are seen as a cost. And the benefits 
that an employer can get in terms of more productive employees, 
in terms of employees who may spend more money in the case of 
retail at the business itself, will have more money to spend to 
strengthen their community and will be more productive when 
they have that time home with their families. That may be more 
intangible to a business and harder to realize that all those 
benefits really are there.
    At the same time, I think that Ms. Bravo's point about 
lobbyists that don't speak for the companies they purport to 
represent is true in our experience, as well. Thank you.
    The Chairman. I would just add that sometimes, some of our 
larger employers do a better job. Sometimes the biggest ones do 
the best job.
    Ms. Legros, did you want to respond to that?
    Ms. Legros. Yes. I just wanted to clarify something. I just 
wanted to also add that if I was accommodated at work, there 
wouldn't have been a lot of things that followed afterwards, 
not being able to support my family, and having to rely on 
public assistance and government assistance and all those 
things. I just wanted to point that out, also.
    The Chairman. Very true. Thank you.
    Senator Alexander.
    Senator Alexander. Ms. Troy, let me ask you this question, 
and there may be others who want to comment on it. I've enjoyed 
the testimony. I still am puzzled at how, at a time when the 
big problem is the lack of jobs in America--and we're talking 
about jobs for working women, women who work outside of the 
home as well as inside the home--that we keep getting back to 
the major cure for that being a raise in the minimum wage, 
which Congressional Budget Office Director Elmendorf sat right 
there and told us would destroy 500,000 jobs.
    Now, he said it could be as few as not many jobs destroyed, 
or it could be as many as a million jobs destroyed. But he is 
obligated by law to tell us what the truth is, that is what we 
pay him for. He said it would destroy 500,000 jobs. So we're 
talking about the need for good jobs, and the No. 1 solution is 
to destroy 500,000 jobs. How does that make any sense? It 
doesn't make any sense to me at all.
    Then-CBO Director Elmendorf told us that 80 percent of the 
benefits go to people who are members of families above the 
poverty level. We also know that two-thirds of minimum wage 
workers earn a raise within 1 year of starting employment.
    If our goal is to help working women and men who are not 
making enough money, why would we take action that would cost 
500,000 Americans jobs? I mean, each of those persons have 
names. Most of them must be women, according to the testimony 
we've heard today. Why don't we find some better policy?
    So let me suggest some and ask for your comments. Since 
Federal workers already have the opportunity to request comp 
time, which is paid time off instead of overtime pay, Ms. Troy, 
why shouldn't private workers be allowed to do that?
    And, second, why should we not consider the reform and 
expansion of the Earned Income Tax Credit as a way to help 
women and men who are working and not making enough money? In 
the case of the Earned Income Tax Credit, the money, we know, 
goes to low-income people who work. It goes to people who need 
the money, and so far as I know, there is no suggestion that it 
would cost jobs. Those are two other ways to address the issue 
of women who work outside the home. Do you have a comment on 
either of those?
    Ms. Troy. I am honestly more familiar with the comp time 
than the Earned Income Tax Credit. That's not something that we 
deal with a lot. Comp time--I can't speak specifically for my 
company, because we haven't discussed it at great length.
    But it makes sense that employees and employers could 
choose whether to allow comp time at the same time and a half 
rate, so that employees would not be harmed by that. And if the 
employee would rather have time off over the summer or when 
something is going on in their own family, instead of taking 
the overtime pay that same week, I think they should be given 
that choice.
    I think we would discuss it very seriously as a company and 
decide whether it was something that made sense for us to 
offer. And I suspect some employees would really be happy to do 
that, and some would still choose to take the time-and-a-half 
pay. I think having the choice would be great.
    I know we have employees who are very close to the State 
capital of Concord, NH, and we have employees who are coming to 
us after having worked for the State. And they tend to get 
upset with us that they can't have comp time, and it's not us. 
I'm trying to explain to them, yes, there are rules, but the 
rules apply differently if you work for the government than if 
you work in the private sector, and it's very difficult.
    We do get that question fairly frequently. ``Well, why 
can't I save my time and have some extra vacation or to take 
care of some personal business?''
    Senator Alexander. Thank you. I believe there are two or 
three others, Mr. Chairman.
    The Chairman. I don't know who had theirs up first.
    Ms. Traub, go ahead.
    Ms. Traub. Thank you. With all due respect to the 
Congressional Budget Office and their study, there's a lot of 
evidence, really, that raising the minimum wage does not harm 
job creation and may encourage it. There's sort of two sets of 
studies on this, some that use economic models and some that 
look at the experience of States that really have raised the 
minimum wage and what the impact has been. In the studies that 
look at the experience of States that have recently raised the 
minimum wage, there are not findings that this has been 
detrimental to job creation.
    Senator Alexander. I know there are lots of different 
studies, but that was the Congressional Budget Office testimony 
after a review. And then President Obama's new chairman of the 
Federal Reserve Board was asked if CBO was competent to make 
that review, and she said they're as good as anybody to study 
it. They are non-partisan. We have to take somebody's judgment 
on that.
    Ms. Traub. Senator, I do think that the Earned Income Tax 
Credit is a wonderful supplement to an increase in the minimum 
wage and can be a big part of the solution.
    Senator Alexander. Thank you.
    The Chairman. Yes. Go ahead, Ms. Goss Graves.
    Ms. Goss Graves. The only other thing that I want to add to 
that is that I think today's roundtable has shown how 
interconnected these issues are, and that the reality of 
women's lives is that there's two-thirds of working adult women 
who are minimum wage workers. Having an increase in the minimum 
wage would make a big difference. But also having an Earned 
Income Tax Credit makes a big difference. I think things like 
support for childcare is going to make a big difference.
    When you pair all of that with the conversation around 
flexibility, the conversation that we hear at the Law Center a 
lot is around schedules that are unpredictable and unstable and 
workers who aren't able to deal with their family needs because 
of that reason. So I think these are interconnected issues, but 
I don't think it's a situation where you have to do one or the 
other.
    Senator Alexander. I think there's one other comment.
    The Chairman. Did you have--OK, fine.
    Senator Alexander. There's one over here.
    The Chairman. Oh, I'm sorry. Ms. Riner.
    Ms. Riner. Thank you, sir. I just wanted to bring a little 
different perspective as a business owner, a small business 
owner, that I love and care for my employees as if they are our 
family. So just a little different perspective. I'm not an 
expert in all the regulations that are being discussed today. 
But just a reminder that when we do apply these regulations 
across the board, it really hurts small businesses like myself, 
and it can hurt with undue regulations.
    One of the things that we offer in our business is 
franchise opportunities to women. That's a way I have really 
enjoyed approaching the economic challenges of women in the 
workforce. We provide an entry level opportunity for a woman to 
be a business owner.
    I know, Senator Alexander, you discussed flexibility, and 
from my discussions with women across the country, that is what 
women want. We actually want it all. We want to provide and 
help our families financially, but we also want to be present 
with our families. So when we are able to be a business owner, 
we have more control over our schedules, and I just love 
offering that to women.
    We actually have a single mom who is a franchise owner in 
Kansas. That's what being a business owner has provided for 
her. It's given her a chance to own and operate her business 
and be very present with her child. I just wanted to share just 
another perspective.
    The Chairman. Thank you very much, Ms. Riner.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman. As you know, women 
hold a disproportionate number of low-wage jobs, making up 
about 76 percent of the workers in the 10 biggest low-wage job 
categories in America. And these include some of the fastest 
growing occupations in the country. The Bureau of Labor 
Statistics projects that over the next decade, about half of 
the fastest growing occupations will be in low-wage, female 
dominated, service occupations. That's the direction we're 
headed in.
    Now, many of these jobs lack predictable schedules or 
hours. Many of these workers have little control over their 
work hours. It makes juggling a family, a home, and work for 
many people almost impossible. According to the Retail Action 
Project, about a fifth of retail workers receive their 
schedules only 3 days in advance.
    As a result of these practices, these workers often have to 
struggle to cobble together childcare and transportation at the 
last minute. And even after all of that, some of them get to 
work only to be told to turn around and go home because 
business is slow.
    In Massachusetts, we have something called the 3-hour rule. 
If you're scheduled for more than 3 hours and you show up for 
your shift, then you must be paid for at least 3 hours at no 
less than minimum wage. That law has been in place for over 30 
years, and it seems to have worked pretty well. We've also 
heard of other examples of States enacting innovative policies 
to help working families.
    So my question for the panel is this: Are there innovative 
approaches at the State or local level that would curb abusive 
scheduling practices and that would give families a fair shot 
at trying to put together their lives?
    Anyone--yes, Ms. Traub.
    Ms. Traub. Massachusetts is such a great model of a 
reporting pay law, and I think this is something that Congress 
could consider. Eight States now offer laws on reporting pay 
which compensate employees for a minimum number of hours during 
a work shift for which they have been scheduled.
    Many of these laws guarantee that if a worker is called in 
for a shift, she has to be paid for a certain number of hours. 
It might be 3 hours, 4 hours, even 1 hour. But it at least 
guarantees that workers have that opportunity. If they've set 
up childcare, if they've arranged for transportation, however 
they've done it, to get to work, then they are guaranteed at 
least a minimum amount of pay.
    Senator Warren. Good. Very helpful. Thank you.
    Ms. Goss Graves.
    Ms. Goss Graves. In addition to the reporting time pay 
laws, there are also laws out there that discourage split 
shifts. I think that DC has an example, and California has an 
example of that type of law. And there's also the laws that 
allow for workers to request flexible schedules without 
receiving a penalty. That's another example, and Vermont has 
one.
    What we know is that the consequences for workers who have 
these unstable and inflexible schedules is that they can't also 
have stable childcare arrangements and they can't also have 
additional educational opportunities. So, another point about 
all of these issues being linked.
    Senator Warren. Actually, I should add to that people who 
are trying to work two jobs and how impossible that becomes for 
many.
    Ms. Bravo.
    Ms. Bravo. In California, the right to request is combined 
with studying the predictable scheduling problem and looking 
for solutions. That's a good model. There's another aspect of 
this, which is enforcement. There are a lot of temp workers who 
get told,

          ``You must show up to see if your name is on the 
        list. If you don't do that, you won't be called for 
        weeks. But you're not going to get paid for showing up 
        to see if your name is on the list.''

    Or people who get driven in a van are told they can only 
get the job if they go in the van, and they wind up sitting 
there an hour, and they don't get paid for that time. Those 
could be violations of wage and hour that we could change.
    Senator Warren. Very helpful. I just want to ask, since my 
time is up, if we could have more ideas sent in to the 
committee. This is where we need to push the conversation. We 
can't always be fighting on defense. It's time to talk about 
where we could make changes that would help families.
    And when we think, particularly, about the direction that 
we're headed in the workforce and the rise in the number of 
female dominated, low-wage jobs, the importance of being able 
to focus on things like the scheduling issues, I think, could 
really be powerful. So I invite your continued conversation on 
this.
    The Chairman. Thank you, Senator Warren.
    Senator Baldwin.
    Senator Baldwin. Thank you. I want to talk about paid sick 
time, or actually, more specifically, about the 40 percent of 
working people who don't have those protections, because it 
obviously leads to these horrible choices between taking care 
of your own health or the health of a family member and losing 
out on a paycheck or perhaps even a job entirely.
    There was some testimony today about the steps forward that 
have been achieved at the local and State level on this issue. 
The old, good news in Wisconsin was that in 2008, voters in 
Milwaukee approved a local ballot measure for mandating paid 
sick days. But, troublingly, the bad news is that in my State 
of Wisconsin and Ellen Bravo's State of Wisconsin, in 2011, a 
law was passed to forbid localities from requiring paid time 
off.
    I wonder, starting with you, Ms. Bravo, if you could talk 
about the trends at the State and local level on paid sick 
days. I'm curious to know whether Wisconsin is an anomaly with 
regard to cutting off local measures like this, or whether 
there are other States that have done the same.
    Ms. Bravo. Thank you so much, Senator Baldwin. There's lots 
of progress, and we're going to see more in Senator Warren's 
home State. I think we'll see increases in both paid sick time 
and minimum wage under the umbrella of Raise Up Massachusetts, 
and we're going to see a number of other places that will add 
it.
    But, alas, Wisconsin was not the only State. This is 
another form of attack on democracy, trying to limit not only 
who can vote, but what we can vote for. It's really 
frightening, and it's, surprisingly, being done by people who 
claim to care about local control. But it is, in essence, an 
attack on local control for broader protections.
    I remember when it was being stolen from us in Milwaukee, 
the conservative columnist at the Milwaukee Journal Sentinel 
wrote a column saying, ``I hate paid sick days.'' But local 
control is local control. You can't take it away. But we're 
fighting it. We've stopped in several places, and you'll see.
    The Chairman. Ms. Tanden.
    Ms. Tanden. I would just say, you know, Florida is an 
example where there was a move afoot at the local level to have 
paid sick days, and then statewide there was a move afoot to 
stop that ability to have that happen. I would just say to the 
committee that for those who support federalism and say that 
States should be able to innovate without Federal intervention, 
we should have the same level of experimentation at the city 
level.
    We're seeing paid sick days around the country--San 
Francisco, New York City. These are experiments, and they 
should not be thwarted by statewide action, either.
    The Chairman. Ms. Pelletier.
    Ms. Pelletier. Thank you, Senator. In Connecticut, we 
passed paid sick days. It was a 3- or 4-year battle. The sky 
was supposed to fall when it happened, and it did not. This 
past year, a study was released that showed that it had no 
negative impact on businesses at all.
    And, what really drove it home was those service sector 
jobs where people--we had testimony of people who in the food 
industry had to go to work, serve customers, knowing they were 
sick. One woman who stayed out because she had the flu for 2 
days got fired by her employer.
    So it was those sort of testimonies that really drove the 
point home, because we can all picture ourselves going into a 
fast food restaurant or any restaurant and thinking, ``My gosh. 
The person who just served my food--were they sick or not?'' It 
was a battle, but we continue to bring that out. Thank you.
    The Chairman. Ms. Troy.
    Ms. Troy. Thank you. As an employer, we have issues with 
the idea of just calling it sick time, because sick time means 
you have to be sick, and I have to define that on who is 
covered and what the documentation looks like, and there's a 
lot of paperwork. As an employer, we said we don't want people 
to have to wait until Thursday night or Friday morning and pick 
up the phone and cough at the last minute into the phone and 
pretend to be sick and call us because they need a day off. We 
want them to be honest with us. We want them to be adults. We 
want them to plan their time.
    We already had between 10 and 20 vacation days, depending 
on how long you've been with the company, and we added these 12 
GTO days to say,

          ``Look, we know you have other reasons you need time 
        off. You might be sick, and if you have a family, 
        there's a bigger chance you need some sick time because 
        you have additional family members. But maybe you're a 
        single person and you don't get sick very often, but 
        you have a dog that you love that has to go to the vet, 
        or you have all those other things that happen in our 
        lives. You have to pick up mom at the airport. You have 
        to do those things.''

    As an employer, we need to be encouraged to have time off 
for people that's appropriate, but the sick time bucket is the 
one-size-fits-all that doesn't fit everybody. It just doesn't. 
To mandate sick time--we're not going to add to sick time if 
someone mandates 7 sick days. We're not going to have 20 days 
of vacation plus 12 days of GTO plus add 7 sick day plus jury 
duty plus military plus--we're not going to add 7 more.
    We're going to revamp our GTO time to say, ``OK. Now it's 
sick time,'' and that's going to hurt some employees. It's 
going to hurt some women employees who have other things to do 
that have nothing to do with being sick, but they need the time 
off. I think it's really important to think about the 
unintended consequences.
    The idea of it is wonderful. People need time off to take 
care of family members and themselves, absolutely, positively, 
and the good employers recognize that, and I don't think those 
are the ones we're really talking about as much today. But the 
good employers recognize that and try to do something. I'd just 
caution you to be careful.
    Ms. Bravo. I'm so happy to correct the misunderstanding 
here. We applaud you, Ms. Troy, for the flexibility that you 
have. Every one of these laws is written to say that any paid 
time that the employer provides can be used to comply, as long 
as it can be used in the same manner for the same reason, 
meaning that if my child is sick, I can use my sick time, and 
that I can use it without being punished. But, absolutely, your 
policy would comply. Not a problem.
    The Chairman. Thank you, Senator Baldwin.
    Ms. Legros, I want to talk to you again. You had this job 
for 2 years at this armored truck company. Did you like your 
job?
    Ms. Legros. Yes, I did. I did enjoy my job. It was very 
difficult for me to not be able to work while I was pregnant, 
especially since my employer did accommodate other disabled 
people that were working for the same company. I wasn't 
protected under the same law that they were.
    The Chairman. Did you belong to a union?
    Ms. Legros. No, I did not belong to a union.
    The Chairman. Did any of your fellow workers belong to a 
union?
    Ms. Legros. No, they did not.
    The Chairman. There was not a union there. So you liked 
your job. You worked there for 2 years, and then you got 
pregnant, and you had this physical problem, and your manager 
sent you home without pay indefinitely. Let me ask you this. 
Had they provided you accommodations, and you'd had your child, 
and if you'd had some decent time off to nurse, that type of 
thing, would you have gone back to work for that armored 
company?
    Ms. Legros. Yes, I would have. I did not have any 
complications with my pregnancy. My doctor just advised me from 
heavy lifting to prevent me from further injury from pulling a 
muscle in my stomach.
    The Chairman. And then you say later that your employer 
fought your unemployment benefits.
    Ms. Legros. Yes, they did. I went 7 months without any pay.
    The Chairman. Why did they fight your unemployment 
benefits?
    Ms. Legros. I believe because I did not fall under the 
short-term disability terms, and they did not want to 
compensate me for being out.
    The Chairman. And then your health insurance was cutoff. 
You didn't have COBRA, and you had to go on Medicaid. Now you 
have a part-time job. Is there a reason why you don't have a 
full-time job?
    Ms. Legros. Currently, I'm working a part-time job because 
of--after having my baby, I did go back to work with the help 
of A Better Balance, and I did go back full-time. Things did 
get slow, and I started getting cut in hours. So I looked for a 
part-time job to compensate for the hours that I was losing. I 
was recently laid off of my full-time job in March again.
    The Chairman. So you were actually doing two jobs?
    Ms. Legros. I was doing two jobs at the time. But, 
currently, I'm just working a part-time job.
    The Chairman. How many hours were you working when you were 
doing both jobs?
    Ms. Legros. I'm sorry?
    The Chairman. How many hours a day were you working when 
you had the full-time job and a part-time job?
    Ms. Legros. The full-time job gave me probably 26 to 30 
hours a week, and I'm currently working 17 to 18 hours a week.
    The Chairman. But you were working both at one time.
    Ms. Legros. Yes, I did both at one time because I was 
working less hours at the full-time job because work was slow. 
So I needed something to compensate for the loss of hours. And 
I won't be eligible for full-time at my part-time job for 
another 6 months. That's their policy.
    The Chairman. I think what we tend to forget is there are 
millions of people, women, in America who have your same 
situation. That's what we're trying to address. For a lot of 
different reasons, they find themselves in tough circumstances, 
and as someone said, you shouldn't have to be choosing between 
your job and the health of your kids and the well-being of your 
family.
    Certainly we're a rich enough country to be able to afford 
that--a modicum of decency, of support. Again, I say if other 
countries can do it, and we're only one of three--that doesn't 
make sense that other countries can do it and we can't. We 
can't afford it? We're the richest nation in the world. We're 
the richest nation in the history of the world. And if we're 
the richest nation in the history of the world, why do we have 
all these problems?
    It seems to me that we need to have some societal type 
agreements that put some floors underneath this, that provide 
for people like Ms. Legros, who are pregnant or who have a 
medical problem--that there's accommodations made. Should a 
person like Ms. Legros just be at the whim of whoever the 
employer is? You say, ``Well, he owns the business, or she owns 
the business.'' I don't know. But some people have the attitude 
that if you own a business, you can do whatever you want.
    Businesses get tax advantages. They do other things. 
They're involved in our society. It seems to me there ought to 
be some fundamental rules that apply to workers in our country, 
and, of course, one of those is minimum wage, which I've been 
pushing, which is my bill. And I'm going to give Senator 
Alexander a chance to rebut me on this, my good friend that he 
is, and he knows that. We just have a difference on this.
    I would say I want to correct this, though. CBO did not do 
their own study. They did not do a study. They only looked at 
the literature that was out there. They added it all up, and 
they said there could be jobs lost of anywhere from zero to a 
million. Senator Alexander mentioned that. They said they just 
picked 500,000 as the median point.
    But some of those studies were old studies, and there's new 
studies, and the quality is quite different. I've often used 
the example of when I was an engineering student once, back 
when we used a transit and we used a chain and a rod, and we'd 
do surveying that way, you know, get boundaries like George 
Washington used to do. We plotted different things.
    Today, however, they use GPS and lasers. Now, if they were 
to plot the same land that I plotted 60 years ago, they'd 
probably be a little bit more accurate than I was. So if you're 
saying,

          ``Well, we want to know what that plot of land really 
        is, so we'll take Harkin's, which is 60 years old, and 
        we'll take the new one, and we'll just even them up,''

that doesn't make sense. If you've got something that's better 
and more accurate, you take that.
    The fact is we have better and more accurate studies that 
have been done in the last few years on the impact of raising 
the minimum wage that show, basically, that there hasn't been 
an impact on unemployment. But there has. I mean, the CBO did 
say that almost a million people would be lifted out of 
poverty, and $31 billion would flow to--not people in poverty, 
but people below three times the level of poverty. So that's a 
debate that continues.
    Senator Alexander, do you want to say anything?
    Senator Alexander. I've made my point. I thank the 
witnesses for being here today. It's been very helpful, and 
I've enjoyed listening to them.
    The Chairman. I, too. And, Ms. Legros, I especially 
appreciate your putting a human face on this. It's a small 
comfort. But there are a lot of people in this country in your 
same situation, and I think we have a responsibility as a 
Federal Government to respond to a national, I think, crisis 
that we have in families, especially with women and single 
mothers and single parents in this country.
    I think that as we progress in our ideas of what society 
should be like and how we should advance our social awareness, 
I think this is one of the areas where we're way behind. Paid 
sick leave, I think, maternity leave, Senator Casey's bill on 
the pregnancy act are just things I think that make our society 
more caring, more inclusive, and more considerate of one 
another. And I don't think that's a bad thing.
    Thank you all very much for being here. Great testimony. We 
appreciate your being here. Thank you.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                                              June 3, 2014.
Hon. Tom Harkin, Chairman,
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC. 20510.

    Dear Chairman Harkin: On behalf of the National Partnership for 
Women & Families, I commend you for holding the May 20th roundtable on 
Economic Security for Working Women. I write to urge you and your 
colleagues to support the policies the panelists discussed, including 
paid sick days, paid family and medical leave, pregnancy accommodations 
and equal pay. These policies would modernize our Nation's workplaces 
to reflect the urgent needs of our families.
    Across the Nation, families are struggling to get by. The economy 
is recovering unevenly, and the jobs that are being created don't 
provide the wages or the protections that workers need. Women dominate 
the industries and fill the lower-paying jobs that offer little access 
to basic paid time off for illness or family and medical needs. 
Nineteen of the 30 fastest growing jobs pay annual wages below the 
national median wage, and most of these jobs will be held by women.\1\
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Labor Statistics. (2013, December 19). 
Occupations with the most growth, 2012 and projected 2022 (Table 1.4). 
Retrieved 30 May 2014, from http://www.bls.gov/emp/ep_table_104.htm.
---------------------------------------------------------------------------
    Women bring home a significant share of their families' income and 
are the primary caregivers for children and elders in their families. 
Women are the primary or co-breadwinners in two-thirds of 
households,\2\ and two-thirds of all family caregivers are female.\3\ 
Overwhelmingly, mothers have primary responsibility for selecting their 
children's doctors, accompanying children to appointments and helping 
to ensure they obtain recommended care.\4\ Women are also more likely 
than men to care for elderly parents.\5\ They are more likely to drop 
out of the workforce rather than reduce their work hours to manage 
caregiving responsibilities, leading to long-term financial 
consequences.\6\ People across the country are working hard to make 
ends meet and take care of their families, yet the Nation fails to 
provide the support they need and that businesses and our economy need 
to thrive.
---------------------------------------------------------------------------
    \2\ Glynn, S. (2012, 16 April). The New Breadwinners: 2010 Update. 
Retrieved 30 May 2014, from http://www.americanprogress.org/issues/
labor/report/2012/04/16/11377/the-new-breadwinners-2010-update/.
    \3\ National Alliance for Caregiving. (2009, November). Caregiving 
in the U.S. National Alliance for Caregiving and AARP publication. 
Retrieved 30 May 2014, from http://www.caregiving.org/data/
Caregiving_in_the_US_2009_full_report.pdf.
    \4\ Kaiser Family Foundation. (2011, May). Women's Health Care 
Chartbook: Key Findings from the Kaiser Women's Health Survey. 
Retrieved 30 May 2014, from http://kaiserfamily
foundation.files.wordpress.com/2013/01/8164.pdf.
    \5\ MetLife Mature Market Institute. (2011, June). The MetLife 
Study of Caregiving Costs to Working Caregivers: Double Jeopardy for 
Baby Boomers Caring for Their Parents. Retrieved 30 May 2014, from 
https://www.metlife.com/mmi/research/caregiving-cost-working-
caregivers.
html#key%20findings.
    \6\ Ibid.
---------------------------------------------------------------------------
    The United States is on an unsustainable path. It is past time for 
Congress to adopt basic standards to help people manage the dual 
demands of work and family and promote their families' financial 
stability. These policies include job-protected paid sick days, paid 
family and medical leave, fair pay and work schedules, affordable child 
care and job-protected time away from work to attend children's school 
meetings or preventive medical care appointments. Other policies, such 
as raising the minimum wage, protecting workers' ability to earn 
overtime pay and protecting the right of workers to organize, are also 
critically important to prosperity and mobility.
    The National Partnership is proud to convene a national coalition 
that advocates for many of these policies. In particular, this 
coalition of organizations representing women, children, low-wage 
workers, health care providers, business leaders, faith leaders, and 
the civil rights community urges Congress to take immediate action in 
support of:

    <bullet> The Healthy Families Act (S. 631/H.R. 1286), which would 
allow workers to earn up to seven paid sick days to use to recover from 
illness, access preventive care or care for a sick family member; and
    <bullet> The Family And Medical Insurance Leave Act (FAMILY Act) 
(S. 1810/H.R. 3712), which would create a national insurance program to 
support workers and businesses by providing workers a portion of their 
typical wages when they need time away from their jobs to address their 
own serious health condition, care for a loved one with a serious 
health condition, care for a new child or address the exigencies of a 
family member's military deployment.
    Our broad and diverse coalition supports these policies because 
they improve working families' economic security, improve health 
outcomes and reduce health care costs. Moreover, evidence from States 
and cities that have adopted these policies show they are working well 
for workers, families, businesses and communities.
    We look forward to working with you and the HELP Committee to 
ensure that American workers are able to meet their responsibilities on 
the job and to their families. If you have any questions, please do not 
hesitate to contact me.
            Sincerely,
                                             Debra L. Ness,
                                                         President.
                                 ______
                                 
Attachment 1.--Coalition Letter in Support of the Healthy Families Act, 

                             June 3, 2014.
                                              June 3, 2014.

    Dear Member of Congress: We, the undersigned organizations, urge 
you to support the Healthy Families Act (H.R. 1286/S. 631) a common 
sense bill that would allow workers to earn up to 7 paid sick days a 
year to recover from short-term illnesses like the flu, access 
preventive care, care for a sick family member or seek assistance 
related to domestic violence, sexual assault or stalking. Without paid 
sick days, workers are forced to make impossible choices when illness 
strikes: stay home, lose pay and risk their jobs; or go to work sick, 
risk their health and spread disease to their co-workers and 
communities. Establishing a national paid sick days standard will help 
make businesses and governments more efficient while giving working 
families more financial stability--leading to a stronger economy for 
all.
    No one should face the impossible choice between caring for their 
health and keeping their paycheck or job. But more than 43 million 
workers--nearly 4 in 10 private sector workers--must make this decision 
every time illness strikes because they don't have access to earned 
paid sick days.\1\ And millions more lack paid sick time to care for a 
sick child or other family member. Working families need the job and 
economic security paid sick days provide.
    The lack of paid sick days is acute in jobs requiring frequent 
contact with the public--with potentially grave public health 
consequences. Three in four food preparation and service workers don't 
have a single paid sick day.\2\ Without paid sick days, workers are 
forced to take unpaid leave or work sick. In the restaurant industry, 
the result is that nearly two-thirds of servers and cooks report that 
they have served or cooked while ill.\3\ This puts workers, customers 
and businesses in danger. Similarly, the vast majority of workers in 
child care centers and nursing homes cannot earn paid sick days.\4\ 
When these workers have no choice but to work sick, they risk spreading 
contagious diseases to the very young and the very old.
    Ensuring all workers can earn paid sick days will significantly 
reduce public expenditures. Workers without paid sick days are more 
likely to seek treatment at an emergency department because they can't 
take time off to get care during regular business hours.\5\ A 2011 
study found that if all workers had paid sick days, 1.3 million 
emergency room visits could be prevented each year, saving $1.1 billion 
annually. More than half of these savings--$517 million--would accrue 
to taxpayer-funded health insurance programs such as Medicare, Medicaid 
and the State Children's Health Insurance Program.\6\
    Businesses benefit when their employees have access to paid sick 
days. When sick workers are able to stay home, the spread of disease 
slows and workplaces are both healthier and more productive. Plus, 
workers recover faster from illness and obtain timely medical care--
enabling them to get back to work more quickly and holding down health 
care costs. Paid sick days also reduce ``presenteeism'', the 
productivity lost when employees work sick, which is estimated to cost 
our national economy $160 billion annually and surpasses the cost of 
absenteeism.\7\ In addition, workers who earn paid sick days are 28 
percent less likely than workers who don't earn paid sick days to be 
injured on the job--with an even greater difference among workers in 
high-risk occupations.\8\
    Paid sick days enable working parents to care for their children 
when they are sick--shortening child recovery time and reducing 
community contagion. Unfortunately, more than half of working parents 
are unable to earn even a few paid sick days to use to care for a sick 
child.\9\ Parents without paid sick days are more than twice as likely 
as parents with paid sick days to send a sick child to school or day 
care.\10\ When parents have no choice but to do so, children's health 
and educational attainment is put at risk--as is the health of 
classmates, teachers and child care providers.
    Paid sick days policies have been enacted successfully at the State 
and local levels. Connecticut, San Francisco, Washington, DC, and 
Seattle have all successfully implemented paid sick days laws, and in 
2013, Portland, Oregon and New York City have become the latest cities 
to pass paid sick days. San Francisco's paid sick days law has been in 
place since 2007. Since its passage, the number of businesses and jobs 
in the city has increased relative to the surrounding five counties 
without paid sick days laws.\11\ And workers and their families have 
benefited with little to no burden on employers.\12\ The momentum for 
paid sick days policies is growing in States and cities across the 
country, but illness knows no geographic boundaries and access to paid 
sick days should not be dependent on where a worker is employed. That 
is why the national paid sick days standard proposed in the Healthy 
Families Act is so important.
    The Healthy Families Act would:

    <bullet> Allow workers in businesses with 15 or more employees to 
earn up to 7 job-protected paid sick days each year to be used to 
recover from their own illness, access preventive care or provide care 
for a sick family member;
    <bullet> Allow workers who are survivors of domestic violence, 
stalking or sexual assault to use their paid sick days for recovery or 
to seek assistance; and
    <bullet> Allow employers that already provide paid sick days or 
paid time off to maintain their existing policies, as long as they meet 
the minimums set forth in the bill for the amount of time, types of use 
and method of use.

    Working people should not have to risk their financial health when 
they do what the U.S. Centers for Disease Control and Prevention urge, 
and what we all agree is the right thing to do when illness strikes--
stay home to recover. Setting a minimum paid sick days standard will be 
good for America's workers, families, communities and businesses. When 
people have the financial and job security they need, our economy gets 
stronger.
    We urge you to demonstrate your strong commitment to our Nation's 
working families by becoming a co-sponsor of the Healthy Families Act. 
Thank you.
            Sincerely,
            
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
     
                                 ______
                                 
 Attachment 2.--Coalition Letter in Support of the Family And Medical 
                    Insurance Leave Act (FAMILY Act)
                                              May 21, 2014.

    Dear Member of Congress: On behalf of the 437 undersigned 
organizations and the tens of millions of working families we 
represent, we urge you to become a co-sponsor of the Family and Medical 
Insurance Leave Act of 2013 (FAMILY Act). The FAMILY Act, legislation 
that would create a national family and medical leave insurance 
program, epitomizes our Nation's commitment to the fundamental well-
being of its people, especially women, children and seniors. Such a 
program has the support of three-quarters of voters--with majority 
support or more across demographic, partisan and regional line\13\--
because Americans know that a national paid leave program would 
strengthen the workforce, families, businesses and our economy.
    The FAMILY Act would create a paid family and medical leave 
insurance program. Employees would earn a portion of their wages for a 
limited period of time (up to 60 workdays, or 12 workweeks in a year) 
to address their own serious health issue, including pregnancy or 
childbirth; to deal with the serious health issue of a parent, spouse, 
domestic partner or child; to care for a new child; and/or for specific 
military caregiving and leave purposes. Employees and employers would 
contribute a small amount in each paycheck to a self-sustaining fund, 
administered through a new Office of Paid Family and Medical Leave. 
Fund contributions would cover both benefits and administrative costs. 
Eligibility rules would allow younger, part-time, low-wage and 
contingent workers to contribute and benefit, regardless of their 
employer's size or their length of time on the job.
    Many employer and public workplace policies are currently not 
meeting the basic health and economic needs of workers and their 
families. A mere 12 percent of workers in the United States have access 
to paid family leave through their employers, and less than 40 percent 
have access to personal medical leave through an employer-provided 
temporary disability program.\14\ Just 50 percent of new mothers take 
even a few paid days away from their jobs to care for a new child.\15\ 
And lower-wage workers and workers of color are even less likely to 
have basic access to paid leave,\16\ yet they are often most in need of 
financial resources when a family or medical need arises.
    The Family and Medical Leave Act (FMLA) has been a tremendous help 
to families, but too many people today cannot afford to take unpaid 
leave. The most common reason cited by those who are eligible for FMLA 
leave but do not take it is that they cannot afford to do so. Nearly 
three-quarters (74 percent) of people who are employed say that they or 
their families would be likely to face significant financial hardship 
if a serious personal or family illness occurred or a new child was 
born or adopted.\17\ Many others cut their leave time short, dip into 
savings or go into debt in order to take the time they need to care for 
their loved ones or their own health.\18\
    The American people want to have strong families, to be good 
parents, and to have a job and succeed at it, but they are too often 
forced to choose one of these priorities over another--and that weakens 
the entire country. We can do better, and we can be stronger.
    The FAMILY Act will mean a stronger workforce. Many women and men 
today are both breadwinners and caregivers, and paid time off for 
family and medical purposes helps workers --particularly women--stay 
and succeed in their jobs and earn higher wages over time. Most women 
work prior to and after the birth of their first child; most families 
with children have all adults in the workforce; and most women and men 
who provide care to an ill family member also hold paying jobs.\19\ 
People are working longer and retiring later, meaning older workers 
with health needs are increasingly part of the workforce.\20\ In 
addition, employees are increasingly working part-time or on a 
contingent basis, diminishing their access to paid time off when family 
and medical needs arise.\21\ The FAMILY Act would create a national 
labor standard that recognizes these fundamental changes in the way 
people live and work.
    The FAMILY Act will help to bring the United States in line with 
the rest of the world. The United States is one of just eight countries 
in the world that do not guarantee paid maternity leave to new 
mothers,\22\ one of five highly competitive countries that do not 
guarantee paid parental leave to new fathers,\23\ and the only highly 
competitive country that does not guarantee paid medical leave for 
serious illness.\24\
    The FAMILY Act will strengthen the economic security of working 
people and their families. Paid leave provides income stability for 
working people and families at critical moments in their lives. Having 
a baby is the most expensive health event that families face during 
their childbearing years,\25\ and a new child's entry into a household 
is a leading trigger for a family's entry into poverty.\26\ Paid leave 
also promotes financial independence, especially for growing families. 
In the year following a birth, new mothers who take paid leave are 54 
percent more likely to report wage increases and 39 percent less likely 
to need public assistance than mothers who do not, taking other related 
socioeconomic factors into account; fathers who take paid parental 
leave are also less likely to need public assistance in the year 
following a child's birth.\27\
    The FAMILY Act will mean stronger, improved health outcomes for 
all. Paid leave contributes to improved newborn and child health. New 
mothers who take paid leave are more likely to take the amount of time 
recommended by doctors,\28\ and their children are more likely to be 
breast fed, receive medical check-ups and get critical 
immunizations.\29\ An additional 10 weeks of paid leave for new 
parents, on average, reduces post-neonatal mortality by up to 4.5 
percent.\30\ Children with illnesses also recover faster when cared for 
by their parents. The presence of a parent shortens a child's hospital 
stay by 31 percent.\31\ And active parental involvement in a child's 
hospital care may head off future health care needs and costs, which is 
particularly true for children with chronic health conditions.\32\
    Paid leave also allows ill or injured adults to get critical care 
and needed recovery time. And it enables people to help their loved 
ones, including older family members with health problems, recover from 
illness, fulfill treatment plans, and avoid complications and hospital 
re-admissions,\33\ which reduces health costs. Currently, 48 percent of 
family caregivers who have to take time off to meet their care 
responsibilities lose income when they do so.\34\
    The FAMILY Act will mean stronger businesses. A majority of small 
business employers say they support paid family and medical leave 
insurance because it gives employees the financial security they need, 
without harming business.\35\ Paid leave keeps people in their jobs and 
spending money in their communities while also reducing turnover costs 
and increasing employee loyalty. Companies typically pay about one-
fifth of an employee's salary to replace that employee.\36\ But new 
mothers who take paid leave are more likely than mothers who do not to 
be working 9 to 12 months after giving birth.\37\ And in California, 
one of the three States where a successful family leave insurance 
program exists, workers in low-wage, high-turnover industries are much 
more likely to return to their jobs after using the State's 
program.\38\
    Paid leave also leads to cost savings for high-road employers who 
already provide paid time off because their policies can be coordinated 
with the Federal program. In California, 60 percent of businesses 
surveyed reported coordinating their benefits with the State program, 
likely reducing their out-of-pocket costs.\39\ Creating a national 
standard would also level the playing field for those businesses that 
want to provide paid leave but currently cannot afford to do so.
    The FAMILY Act will mean a more secure retirement for all and a 
stronger Social Security system. Paid leave safeguards the income and 
retirement security of workers while complementing our Nation's well-
established Social Security system. Social insurance has a long record 
of success in the United States, lifting millions of children and 
elders out of poverty. The FAMILY Act builds on that success.
    On average, a worker who is 50 years of age or older who leaves the 
workforce to take care of a parent will lose more than $300,000 in 
wages and retirement income.\40\ By keeping new parents, ill workers 
and family caregivers attached to the workforce, a national paid family 
and medical leave insurance program would keep people paying taxes, 
which would help correct projected Social Security shortfalls down the 
road.
    In addition, the paid leave fund would be entirely separate from 
the Social Security Trust Fund and Social Security Disability 
Insurance. The funding would be used to administer the program and 
provide benefits. The program would build on Social Security's existing 
benefits determination and payment infrastructure, and any additional 
demands on the system would be covered through new revenue.
    The FAMILY Act will mean a stronger economy. The benefits of 
establishing a national paid family and medical leave insurance program 
for our workforce, families' economic security, businesses and the 
Nation's retirement system will all contribute to a healthier, more 
stable economy for all. When people have to miss a paycheck or lose a 
job because a serious medical or caregiving need arises, they often 
jeopardize their ability to provide for their families and struggle to 
afford even the most basic necessities. This hurts workers, their 
families, and the businesses that depend on revenue from these 
purchases, and it stifles the growth of our economy.
    We know paid leave insurance programs like this work--but people 
should have access to affordable family and medical leaves no matter 
where they live. The FAMILY Act builds on State family and medical 
leave insurance programs, which have a strong record of success. 
Personal medical leave through State temporary disability insurance 
programs has been working well for many decades in California, Hawaii, 
New Jersey, New York, Rhode Island and Puerto Rico. Family leave 
insurance programs have existed in California since 2004 and New Jersey 
since 2009. Rhode Island passed a family leave insurance program in 
2013 that will be implemented in 2014. Analyses of California's law 
show that both employers and employees benefit from the program.\41\ In 
New Jersey, the program costs are even lower than expected, leading to 
a payroll tax cut.\42\ More State progress is on the horizon but a 
national standard is both necessary and more efficient.
    It is well past time for a stronger America that meets our Nation's 
needs, lives up to the values we all share, and truly honors America's 
families. The American people know that there is nothing more important 
than being able to care for family--whether you have an ill parent or 
loved one or a new baby on the way. That is why we need a law that 
guarantees that people can care for themselves and their loved ones 
while still making ends meet and contributing to the economy. The 
FAMILY Act is that law. We urge you to sponsor this critically 
important legislation today.
    Sincerely,
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
   
                                Endnotes
    1. U.S. Bureau of Labor Statistics. (2012, March). Employee 
Benefits Survey Table 32. Leave benefits: Access, private industry 
workers, National Compensation Survey. Retrieved 25 March 2013, from 
http://www.bls.gov/ncs/ebs/benefits/2012/ownership/private/
table21a.pdf; U.S. Bureau of Labor Statistics. (2013, February 1). 
Employees on nonfarm payrolls by industry sector and selected industry 
detail, seasonally adjusted (Table B-1a). Retrieved 19 February 2013, 
from http://www.bls.gov/web/empsit/ceseeb1a.htm (Unpublished 
calculation).
    2. Joint Economic Committee, U.S. Congress. (2010, March). 
Expanding Access to Paid Sick Leave: The Impact of the Healthy Families 
Act on America's Workers. Retrieved 19 March 2013, from http://
www.jec.senate.gov/public/index.cfm?a=Files
.Serve&File_id=abf8aca7-6b94-4152-b720-2d8d04b81ed6.
    3. Restaurant Opportunities Centers United. (2010, September 30). 
Serving While Sick: High Risks and Low Benefits for the Nation's 
Restaurant Workforce, and Their Impact on the Consumer. Restaurant 
Opportunities Centers United publication. Retrieved 19 March 2013, from 
http://rocunited.org/roc-serving-while-sick/.
    4. Hartmann, H. (2007, February 13). The Healthy Families Act: 
Impact on Workers, Business, The Economy and Public Health. Testimony 
before the U.S. Senate Committee on Health, Education, Labor, and 
Pensions. Retrieved 19 March 2013, from http://www.help.senate.gov/imo/
media/doc/Hartmann.pdf.
    5. Smith, T., & Kim, J. (2010, June). Paid Sick Days: Attitudes and 
Experiences. National Opinion Research Center at the University of 
Chicago for the Public Welfare Foundation publication. Retrieved 19 
March 2013, from http://www.publi
cwelfare.org/resources/DocFiles/psd2010final.pdf.
    6. Miller, K., Williams, C., & Yi, Y. (2011, October 31). Paid Sick 
Days and Health: Cost Savings from Reduced Emergency Department Visits. 
Institute for Women's Policy Research publication. Retrieved 19 March 
2013, from http://www.iwpr.org/publications/pubs/paid-sick-days-and-
health-cost-savings-from-reduced-emergency-department-visits/.
    7. Stewart, W., et al. (2003, December). Lost Productive Health 
Time Costs from Health Conditions in the United States: Results from 
the American Productivity Audit. Journal of Occupational and 
Environmental Medicine, 45. Retrieved 19 March 2013, from http://
www.workhealth.org/whatsnew/whnewrap/Stewart%20et
al_lost%20productive%20work%20time%20costs%20from%20health%20conditions%

20in%20the%20US_%20Results%20from%20the%20American%20Productivity%20
Audit%202003.pdf.
    8. Asfaw, A., et al. (2012, September). Paid Sick Leave and 
Nonfatal Occupational Injuries. American Journal of Public Health, 
102(9), e59-e64. Retrieved 19 
March 2013, from http://ajph.aphapublications.org/doi/abs/10.2105/
AJPH.2011.
300482.
    9. Smith, K., & Schaefer, A. (2012, June). Who Cares for the Sick 
Kids? Parents' Access to Paid Time to Care for a Sick Child. Carsey 
Institute at the University of New Hampshire publication. Retrieved 19 
March 2013, from http://www.carsey
institute.unh.edu/sites/carseyinstitute.unh.edu/files/publications/IB-
Smith-Paid-
Sick-Leave-2012.pdf.
    10. See note 5.
    11. Petro, J. (2010, October). Paid Sick Leave Does Not Harm 
Business Growth or Job Growth. Drum Major Institute for Public Policy 
publication. Retrieved 19 March 2013, from http://
paidsickdays.nationalpartnership.org/site/DocServer
/Petro_DMI_Paid_Sick_Leave_Does_Not_Harm_2010_Unabbr_.pdf?docID
=7721.
    12. Drago, R. & Lovell, V. (2011, February). San Francisco's Paid 
Sick Leave Ordinance: Outcomes for Employers and Employees. Institute 
for Women's Policy Research publication. Retrieved 19 March 2013, from 
http://www.iwpr.org/publications/pubs/San-Fran-PSD.
    13. Lake Research Partners & Chesapeake Beach Consulting survey of 
1,024 registered voters, January 23-28, 2013.
    14. U.S. Department of Labor, Bureau of Labor Statistics. (2013, 
September). National Compensation Survey: Employee Benefits in the 
United States, March 2013 (Table 32). Retrieved 5 November 2013, from 
http://www.bls.gov/ncs/ebs/benefits/2013/ebbl0052.pdf.
    15. Laughlin, L. (2011, October). Maternity Leave and Employment 
Patterns of First-Time Mothers: 1961-2008. U.S. Census Bureau 
publication. Retrieved 16 September 2013, from http://www.census.gov/
prod/2011pubs/p70-128.pdf.
    16. Ibid.; Glynn, S., & Farrell, J. (2012, November 20). Latinos 
Least Likely to Have Paid Leave or Workplace Flexibility. Center for 
American Progress publication. Retrieved 16 September 2013, from http:/
/www.americanprogress.org/wp-content/
uploads/2012/11/GlynnLatinosPaidLeave1.pdf.
    17. Lake Research Partners & Tarrance Group for the National 
Partnership for Women & Families. (2012, November). Election Eve/Night 
Omnibus. Retrieved 16 September 2013, from http://
go.nationalpartnership.org/site/DocServer/Lake_
Research_and_Tarrance_Group_Omnibus_Poll_Results_fo.pdf?docID=11581.
    18. Abt Associates. (2012, September). Family and Medical Leave in 
2012: Technical Report. Retrieved 16 September 2013, from http://
www.dol.gov/asp/evaluation/fmla/fmla2012.htm.
    19. Laughlin, L. (2011, October). Maternity Leave and Employment 
Patterns of First-Time Mothers: 1961-2008. U.S. Census Bureau 
publication. Retrieved 16 September 2013, from http://www.census.gov/
prod/2011pubs/p70-128.pdf; U.S. Bureau of Labor Statistics. (2013, 
April 26). Families with own children: Employment status of parents by 
age of youngest child and family type, 2011-2012 annual averages (Table 
4). Retrieved 16 September 2013, from http://www.bls.gov/news.
release/famee.t04.htm; National Alliance for Caregiving. (2009, 
November). 
Caregiving in the U.S. 2009. National Alliance for Caregiving and AARP 
publication. Retrieved 16 September 2013, from http://
www.caregiving.org/data/Care
giving_in_the_US_2009_full_report.pdf.
    20. Lee, D. (2012, September 4). More older workers making up labor 
force. Los Angeles Times. Retrieved 16 September 2013, from http://
articles.latimes.com/2012
/sep/04/business/la-fi-labor-seniors-20120903.
    21. American Rights at Work. The Growth of the Exploited, 
Contingent Workforce. Retrieved 16 September 2013, from http://
www.americanrightsatwork.org/dm
documents/ARAWReports/contingentworkforce_final.pdf.
    22. Out of 188 for which data are available. Heymann, J., & 
McNeill, K. (2013, February). Children's Chances: How Countries Can 
Move From Surviving to Thriving. Cambridge, Mass.: Harvard University 
Press.
    23. National Partnership for Women & Families research.
    24. Heymann, J., et al. (2009, May). Contagion Nation: A Comparison 
of Paid Sick Day Policies in 22 Countries. Center for Economic and 
Policy Research publication. Retrieved 18 March 2013, from http://
www.cepr.net/index.php/publications/reports/contagion-nation/.
    25. Amnesty International. (2010). Deadly Delivery: The Maternal 
Health Care Crisis in the USA. Amnesty International publication. 
Retrieved 16 September 2013, from http://www.amnestyusa.org/dignity/
pdf/DeadlyDelivery.pdf.
    26. Rynell, A. (2008, October). Causes of Poverty: Findings from 
Recent Research. Heartland Alliance Mid-America Institute on Poverty 
publication. Retrieved 16 September 2013, from http://
www.woodsfund.org/site/files/735/69201/260704/
363127/causes-of-poverty_report_by_Heartland_
Alliance.pdf; McKernan, S., & Ratcliffe, C. (2005, November 11). Events 
that Trigger Poverty Entries and Exits. Social Science Quarterly 86, 
1146-69.
    27. Houser, L., & Vartanian, T. (2012, January). Pay Matters: The 
Positive Economic Impact of Paid Family Leave for Families, Businesses 
and the Public. Center for Women and Work at Rutgers, the State 
University of New Jersey publication. Retrieved 16 September 2013, from 
http://www.nationalpartnership.org/site
/DocServer/Pay_Matters_Positive_Economic_Impacts_of_Paid_Family_L
.pdf?docID=9681.
    28. Gomby, D., & Pei, D. (2009). Newborn Family Leave: Effects on 
Children, Parents, and Business. David and Lucile Packard Foundation 
publication. Retrieved 16 September 2013, from http://www.packard.org/
wp-content/uploads/2011/06/NFLA_fullreport_final.pdf.
    29. Berger, L., Hill, J., & Waldfogel, J. (2005). Maternity Leave, 
Early Maternal Employment and Child Health and Development in the U.S. 
The Economic Journal, 115(501), F44.
    30. Ruhm, C. J. (2000). Parental leave and child health. Journal of 
Health Economics, 19(6), 931-60.
    31. Heymann. J. (2001, October 15). The Widening Gap: Why America's 
Working Families Are in Jeopardy--and What Can Be Done About It. New 
York, NY: Basic Books.
    32. Heymann, J., & Earle, A. (2010). Raising the global floor: 
dismantling the myth that we can't afford good working conditions for 
everyone. Stanford, CA.: Stanford Politics and Policy.
    33. See e.g., Institute of Medicine. (2008, April 11). Retooling 
for an Aging America: Building the Health Care Workforce, 254. 
Retrieved 16 September 2013, from http://www.iom.edu/Reports/2008/
Retooling-for-an-Aging-America-Building-the-Health-Care-Workforce.aspx; 
Arbaje, et al. (2008). Postdischarge Environmental and Socioeconomic 
Factors and the Likelihood of Early Hospital Readmission Among 
Community-Dwelling Medicare Beneficiaries. The Gerontologist 48(4), 
495-504. Summary retrieved 16 September 2013, from http://www.rwjf.org/
grantees/
connect/product.jsp?id=34775.
    34. Aumann, K., et al. (2010). The Elder Care Study: Everday 
Realities and Wishes for Change. Families and Work Institute 
publication. Retrieved 16 September 2013, from http://
familiesandwork.org/site/research/reports/elder_care.pdf.
    35. Lake Research Partners for Small Business Majority survey of 
707 small business owners nationwide, conducted from January 24-
February 1, 2013.
    36. Boushey, H., & Glynn, S. (2012, November 16). There Are 
Significant Business Costs to Replacing Employees. Center for American 
Progress publication. Retrieved 16 September 2013, from http://
www.americanprogress.org/wp-content/uploads
/2012/11/CostofTurnover.pdf.
    37. Houser, L., & Vartanian, T. (2012, January). Pay Matters: The 
Positive Economic Impact of Paid Family Leave for Families, Businesses 
and the Public. Center for Women and Work at Rutgers, the State 
University of New Jersey publication. Retrieved 16 September 2013, from 
http://www.nationalpartnership.org/site/Doc
Server/Pay_Matters_Positive_Economic_Impacts_of_Paid_Family_L.pdf?doc
ID=9681.
    38. Appelbaum, E., & Milkman, R. (2011). Leaves That Pay: Employer 
and Worker Experiences with Paid Family Leave in California. Center for 
Economic and Policy Research Publication. Retrieved 16 September 2013, 
from http://www.cepr.net/index.php/publications/reports/leaves-that-
pay.
    39. Ibid.
    40. MetLife Mature Market Institute. (2011, June). The MetLife 
Study of Caregiving Costs to Working Caregivers: Double Jeopardy for 
Baby Boomers Caring for Their Parents. Retrieved 16 September 2013, 
from http://www.metlife.com/assets/cao/mmi/publications/studies/2011/
mmi-caregiving-costs-working-caregivers
.pdf.
    41. Appelbaum, E., & Milkman, R. (2011). Leaves That Pay: Employer 
and Worker Experiences with Paid Family Leave in California. Center for 
Economic and Policy Research Publication. Retrieved 16 September 2013, 
from http://www.cepr.net/index.php/publications/reports/leaves-that-
pay.
    42. Press of Atlantic City. (2010, November 15). Paid Family Leave/
Working well. Retrieved 16 September 2013, from http://
www.pressofatlanticcity.com/opinion
/editorials/article_0d6ba980-3a1d-56f7-9101-
258999b5d9d0.html.
                                 ______
                                 
         Response by Ellen Bravo to Questions of Senator Harkin
    Question 1. Many businesses provide leave from work through a PTO 
(or paid time off) policy, which allows a limited amount of leave but 
for a wide variety of purposes.
    Could you please clarify whether companies that provide significant 
PTO would be compliant with the Healthy Families Act? How would the HFA 
apply to a company like Globe Manufacturing, which offers PTO (called 
Globe Time Off), which includes 6 paid and 6 unpaid days, as well as 10 
to 20 paid vacation days, in addition to other types of paid leave?
    Answer 1. The Healthy Families Act states,

          ``An employer with a leave policy providing paid leave 
        options shall not be required to modify such policy, if such 
        policy includes provisions for the provision, use, and 
        administration of paid sick leave that meet the requirements of 
        subsections (a) through (f).''

    As long as employees may use the time to care for a sick family 
member as well as themselves and are not given disciplinary points for 
taking the time, the Globe Time Off policy should be in compliance.

    Question 2. Some business organizations, such as the Society for 
Human Resource Management, have advocated for a policy known as ``comp 
time'' or compensatory time off, in lieu of traditional overtime pay. 
Ms. Troy also lauded the concept of ``comp time'' in her testimony. 
However, I am concerned that what results is not paid time off when 
workers need it, but rather unpaid overtime that keeps workers away 
from their families without any guarantee they can use their ``comp 
time'' when they most need it.
    What are your thoughts on the concept of ``comp time''? Do you 
believe it would help working families? Do you have concerns about the 
proposal and if so, please explain those.
    Answer 2. All employees need flexibility to manage work and family 
responsibilities. What people want is more time to spend with their 
families. Under the comp time bill, however, individuals get more time 
with family only after they have been forced to spend more time away 
from their family, working extra hours. Overtime pay was meant as a 
disincentive for employers to require overtime. By removing the pay 
penalty, this measure would lead to an increase in overtime and in 
burdens on families.
    In addition, flexibility requires control, but the control in this 
initiative rests with the employer. The employer choose whether to 
offer comp time, who gets to work overtime and when workers may take 
their comp time.
    Comp time could easily result in loss of pay for those who need 
extra money. In assigning overtime, the employer might well favor those 
who agree to take comp time rather than overtime pay.
    Finally, employers right now can offer, as many do, flexibility in 
schedules so that workers can take time to attend a school play and 
come in earlier or stay later to make up the time. Employers right now 
can ensure, as many do, that workers earn paid sick days to use when 
they or a loved one is ill. We do not need to open the floodgates for 
unscrupulous employers by weakening overtime protections.
    Proponents of comp time argue that government workers have such a 
program and employees in the private sector should as well. But many 
government workers feel cheated by comp time. When that provision was 
added in 1985, it was framed as a cost-saving measure for cash-strapped 
government agencies, not as a form of flexibility for families. The 
U.S. Department of Labor had to sue to recover over $35 million in back 
wages--unpaid comp time--from the Department of Corrections and 
Rehabilitation of the Commonwealth of Puerto Rico.
    A similar lawsuit is pending in Mississippi. According to the 
Clarion Ledger, State prison guards have been forced to work more than 
135 hours of overtime with a promise of time off. Myia Norwood has 
already banked the hours but she was denied the comp time. If the 
amount of overtime worked were paid as overtime, Norwood would have 
received $7,100 last year. Her family could use this money.
    Importantly, many government workers participate in collective 
bargaining and have union representatives to negotiate fair use of comp 
time provisions. Most employees of private companies have no such 
protections.
       Response by Rhea Lana Riner to Questions of Senator Harkin
    Question 1. Rhea Lana's, Inc., is a for-profit company, and your 
testimony notes its growing financial success and expanding business.
    Could you please provide your gross revenues and profits for 2013?
    Answer 1. A 2013 audit of Rhea Lana, Inc. by an independent 
accounting firm shows gross revenues of about $1.4 million, of which 
about $1.0 million were promised payments to moms, grandmoms and dads 
who consigned in our events. We returned approximately 70 percent of 
sales to the families who participate. These families use these funds 
to clothe and buy toys for their children. Rhea Lana's is a small 
business which had less than $200,000 in profits in 2013.

    Question 2. Based on the agreements you reached with the Arkansas 
and Federal Departments of Labor, could you please confirm whether you 
had been properly paying overtime to employees dubbed ``managers.''
    Could you please share the total amount of back wages owed to these 
workers? Have you changed your policies to ensure that these workers 
will be paid overtime when they work more than 40 hours per week?
    Answer 2. The Arkansas Department of Labor affirmed in their 2012 
audit that our original payment of ``managers'' was a correct business 
practice. However, the DOL determined we should have classified our 
managers as employees. The DOL then calculated back wages owed. Rhea 
Lana, Inc. agreed to pay this $6,400 amount for the DOL audit period. 
However, we categorically disagree with any attempt of the DOL to 
classify our consignor-volunteers as employees.
    Rhea Lana's has always strived to treat both our customers and 
employees fairly and according to the law. Since the DOL investigation 
Rhea Lana, Inc. has modified its policies related to ``managers'' while 
our complaint against the DOL is being considered in Federal court.
    We ask the Senate HELP committee to approve S. 1656, which would 
provide much-needed clarity in the Fair Labor Standards Act as to the 
nationwide children's consignment event industry. S. 1656 is co-
sponsored by Ranking Member Lamar Alexander. S. 1656 is industry-
specific. S. 1656 has bi-partisan support and would help any American 
family with children. S. 1656 would give guidance to both the DOL and 
small businesses while allowing this important industry to continue to 
serve families.
       Response by Neera Tanden to Questions of Senator Alexander
    Question 1. Do you believe private sector workers should be allowed 
to request compensatory time off in lieu of overtime pay or work flex-
time schedules, i.e., 80-hour bi-weekly schedules, as a means to better 
balance work and family life?
    Answer 1. The Center for American Progress believes that effective 
workplace policy solutions must recognize and respond to the needs of 
both employers and employees. Strong policies that offer employees 
greater flexibility to address the dual demands of work and family 
without jeopardizing their family's economic stability are critical--
and forcing employees to choose between caring for their families and 
making ends meet is not a real solution. The most recent so-called 
``comp time'' proposals that have been debated in Congress would do 
more harm and less good by requiring employees to work for no pay for 
the hope--but not the promise--that the time worked could be used for 
other purposes later. Greater workplace flexibility and fair pay for 
time worked are not mutually exclusive goals, rather both are 
critically important to creating strong workplaces and strengthening 
working families.

    Question 2. If compensatory time off in lieu of overtime pay is 
working for Federal and other government workers, why shouldn't private 
sector workers have the same option?
    Answer 2. The impact of compensatory time policies in the public 
sector merits close scrutiny and study, particularly to examine 
workers' experiences and the scope of potential barriers to flexibility 
in how such policies are implemented. The assumption that such policies 
should be replicated in the private sector in their entirety without 
such rigorous analysis is misguided. This is particularly true given 
the fact that nearly one-third (31.4 percent) of Federal Government 
workers are represented by unions and thus covered under collective 
bargaining agreements that provide them with additional protections 
against abuse.

    Question 3. Do you believe mandated sick leave should be limited to 
full-day increments? If not, how small should the allowable time 
increments be?
    Answer 3. Adopting a unilateral rule mandating that all sick leave 
be limited to full-day increments is inconsistent with other laws, such 
as the Family and Medical Leave Act, which allow for leave increments 
of less than a full day for medical purposes. Workers who need to make 
use of sick leave, for example to receive medical treatment or take a 
family member to a doctor's appointment, should not be penalized 
because they do not need a full day off from work. FMLA leave may be 
taken in the smallest increment of leave that an employer allows for 
other forms of leave, as long as that increment is no longer than 1 
hour. Determining the appropriate time increments for sick leave should 
be guided, in part, by factors such as legislative history, consistency 
with other rules, and reasonable employer practice, all of which can 
inform the regulatory process.

    Question 4. Some of the legislative proposals presented here today 
have varying levels of applicability to small employers, presumably due 
to the high cost and compliance burden they would impose on these 
employers. What do you believe is an appropriate small business 
exemption threshold?
    Answer 4. Legislation promoting better work-life balance for 
workers should always begin with the goal of extending benefits as 
equitably and universally as possible. Exemptions for small businesses 
should be analyzed on a case-by-case basis, as the costs and impacts of 
different proposals vary. Because the funding mechanisms work so 
differently, work-family policies that are controlled by the employer, 
such as sick leave, should be considered separately from social 
insurance programs, such as a Federal paid family and medical leave 
program.
       Response by Ellen Bravo to Questions of Senator Alexander
    Question 1. Do you believe private sector workers should be allowed 
to request compensatory time off in lieu of overtime pay or work flex-
time schedules, i.e., 80-hour bi-weekly schedules, as a means to better 
balance work and family life?
    Answer 1. All employees need flexibility to manage work and family 
responsibilities. What people want is more time to spend with their 
families. Under the comp time bill, however, individuals get more time 
with family only after they have been forced to spend more time away 
from their family, working extra hours. Overtime pay was meant as a 
disincentive for employers to require overtime. By removing the pay 
penalty, this measure would lead to an increase in overtime and in 
burdens on families.
    In addition, flexibility requires control, but the control in this 
initiative rests with the employer. The employer choose whether to 
offer comp time, who gets to work overtime and when workers may take 
their comp time.
    Comp time could easily result in loss of pay for those who need 
extra money. In assigning overtime, the employer might well favor those 
who agree to take comp time rather than overtime pay.
    Finally, employers right now can offer, as many do, flexibility in 
schedules so that workers can take time to attend a school play and 
come in earlier or stay later to make up the time. Employers right now 
can ensure, as many do, that workers earn paid sick days to use when 
they or a loved one is ill. We do not need to open the floodgates for 
unscrupulous employers by weakening overtime protections.

    Question 2. If compensatory time off in lieu of overtime pay is 
working for Federal and other government workers, why shouldn't private 
sector workers have the same option?
    Answer 2. Many government workers feel cheated by comp time. When 
that provision was added in 1985, it was framed as a cost-saving 
measure for cash-strapped government agencies, not as a form of 
flexibility for families. The U.S. Department of Labor had to sue to 
recover over $35 million in back wages--unpaid comp time--from the 
Department of Corrections and Rehabilitation of the Commonwealth of 
Puerto Rico.
    A similar lawsuit is pending in Mississippi. According to the 
Clarion Ledger, State prison guards have been forced to work more than 
135 hours of overtime with a promise of time off. Myia Norwood has 
already banked the hours but she was denied the comp time. If the 
amount of overtime worked were paid as overtime, Norwood would have 
received $7,100 that year. Her family need this money.
    Importantly, many government workers participate in collective 
bargaining and have union representatives to negotiate fair use of comp 
time provisions. Most employees of private companies have no such 
protections.

    Question 3. Do you believe mandated sick leave should be limited to 
full-day increments? If not, how small should the allowable time 
increments be?
    Answer 3. Increments for paid sick time should match the need. If 
an employee needs to go to or take a child or parent to a doctor's 
appointment or procedure and can come back to work, that helps the 
employee and their co-workers. Requiring a full day for such an event 
is not cost-effective or beneficial to employee or employer.

    Question 4. Some of the legislative proposals presented here today 
have varying levels of applicability to small employers, presumably due 
to the high cost and compliance burden they would impose on these 
employers. What do you believe is an appropriate small business 
exemption threshold?
    Answer 4. The business partners in Family Values @ Work coalitions 
are often quite small. They feel strongly that these provisions are the 
smart as well as the right thing to do because they lower turnover, 
boost productivity and quality, and lead to greater sales by ensuring 
that workers can keep their pay and their jobs. Proposals can take into 
account smaller businesses in various ways, including the amount of 
time to implement, but all should be covered.
    Response by Fatima Goss Graves to Questions of Senator Alexander
    Question 1. Do you believe private sector workers should be allowed 
to request compensatory time off in lieu of overtime pay or work flex-
time schedules, i.e., 80-hour bi-weekly schedules, as a means to better 
balance work and family life?
    Answer 1. Women make up the majority of workers in low-wage jobs, 
and hold these jobs while also shouldering most family caregiving 
responsibilities. And unfortunately too many of these women struggle 
with employment practices that shift the risk of doing business onto 
workers and make no accommodation for workers' lives outside of their 
jobs. In many workplaces, all of the flexibility is in the hands of the 
employer--leaving employees in search of predictability and stability, 
not just flexibility.
    Enabling private sector workers to work flexible schedules can 
generally be beneficial to both employees and their employers, so long 
as the decision to request and accept a flexible schedule remains 
solely with the workers, and the worker cannot be forced to exchange 
other critical employment benefits for flexibility. The Flexibility for 
Working Families Act (H.R. 2559/S. 1248)--which would protect workers' 
rights to request changes in their work schedules without fear of 
retaliation--is one example of a policy that would increase flexibility 
for workers who need it.
    The concept of compensatory time in lieu of overtime pay sounds 
like a good idea in the abstract, but the current legislative proposals 
would fail to meet the work and family needs of many low-wage workers 
and would undermine many of the existing critical protections 
guaranteed by the Fair Labor Standards Act by forcing employees to work 
unwanted overtime without the financial benefit overtime work is 
supposed to provide.
    For example, the Working Families Flexibility Act (H.R. 1406/S. 
1623) could encourage employers to force their employees to take on 
unwanted overtime. Although the bill states that accepting compensatory 
time off in lieu of overtime pay should be voluntary, private sector 
workers often lack basic workplace protections that public sector 
workers typically have--such as unionization and job security--and so a 
voluntary measure like this one could be perceived as a mandate. In 
addition, legislation like the Working Families Flexibility Act could 
discourage employers from providing paid time off. The bill would 
enable, and may even encourage, employers to force their employees to 
earn all of their time off by working extra hours instead of providing 
paid time off as part of a standard employee benefits package or paid 
sick, medical or family leave to meet the urgent needs of employees. 
Furthermore, the Working Families Flexibility Act does not allow 
employees to use their earned compensatory time at a time of their 
choosing. Instead, employers are allowed to deny employees' request to 
use their compensatory time if the employer feels it would ``unduly 
disrupt'' the business.

    Question 2. If compensatory time off in lieu of overtime pay is 
working for Federal and other government workers, why shouldn't private 
sector workers have the same option?
    Answer 2. Unlike in the public sector, such a rule runs the risk of 
private sector employers forcing workers to accept compensatory time in 
lieu of overtime pay as a means of increasing profits. Employees who 
protest risk retaliation, and given the widespread wage theft in some 
industries, employees should not face yet another hurdle to being 
compensated for their time worked. Additionally, government employees 
are more likely to be unionized, enabling them to more effectively 
bargain for contracts that protect their interests in providing for pay 
or work schedule arrangements. Private employees as a whole are much 
less likely to belong to a union, making them more vulnerable to 
exploitation and abuse.

    Question 3. Do you believe mandated sick leave should be limited to 
full-day increments? If not, how small should the allowable time 
increments be?
    Answer 3. Paid sick leave should not be limited to full-day 
increments. Many cities have successfully implemented paid sick leave 
policies that allow workers to accrue 1 hour of paid sick leave for 
every 30 hours worked. These cities have placed different caps on the 
maximum number of paid sick days employers are required to allow an 
employee to accrue in a year. For example, San Francisco allows 
employees to earn up to 72 hours, or 9 8-hour days, worth of paid sick 
leave, while Portland, OR allows employees to earn up to 40 hours, or 5 
8-hour days, worth of paid sick leave. The Healthy Families Act (H.R. 
1286/S. 631) would implement a similar national policy, and allow 
employees working in businesses with 15 or more employees to accrue 1 
hour of paid sick leave for every 30 hours worked, up to 56 hours (7 8-
hour days) each year.

    Question 4. Some of the legislative proposals presented here today 
have varying levels of applicability to small employers, presumably due 
to the high cost and compliance burden they would impose on these 
employers. What do you believe is an appropriate small business 
exemption threshold?
    Answer 4. There is a longstanding tradition in our civil rights and 
labor laws to exclude some businesses from these protections, but 
studies have shown the many benefits to employers of all sizes when 
they do adopt measures that provide greater economic security and 
opportunity for their employees. As just one example, providing 
pregnant workers with reasonable accommodations can reduce workforce 
turnover, increase employee satisfaction and productivity, and save 
workers' compensation and other insurance costs. Regardless of the size 
of a small business exemption in a particular law, businesses of all 
sizes can reap benefits by complying.
    The appropriate threshold for such a small business exemption will 
vary depending on the nature of the proposal at issue, the protections 
that it provides, and the existing laws that it amends (if any). Some 
States have extended protections against workplace discrimination and 
harassment in particular to all workers. Similarly, the Family and 
Medical Insurance Leave (FAMILY) Act (H.R. 3712/S. 1810)--which 
provides a paid leave insurance fund--applies to all companies, 
regardless of size.
    Title VII of the Civil Rights Act of 1964 extends its protections 
to employers with 15 or more employees. Following that model, the 
proposed Healthy Families Act (H.R. 1286/S. 631), which provides for 7-
earned paid sick days, and the Pregnant Workers Fairness Act (H.R. 
1975/S. 942), which clarifies that pregnant workers who need 
accommodations must receive the same sort of accommodations as workers 
with temporary disabilities, both exempt private employers with less 
than 15 employees. The Paycheck Fairness Act (H.R. 377/S. 84), 
meanwhile, references the same small business exemption as the Fair 
Labor Standards Act, applicable to businesses with an annual gross 
volume of sales under $500,000.
        Response by Amy Traub to Questions of Senator Alexander
    Question 1. Do you believe private sector workers should be allowed 
to request compensatory time off in lieu of overtime pay or work flex-
time schedules, i.e., 80-hour bi-weekly schedules, as a means to better 
balance work and family life?
    Answer 1. Workers should be allowed to request time off in addition 
to any overtime pay they are legally owed, not in lieu of overtime. At 
a time when workers are struggling with both stagnant wages and work 
schedules that offer insufficient time to care for their families, 
pitting basic needs for time and income against each other would take 
U.S. workplaces in the wrong direction. Because most American employees 
lack bargaining power at work, legislation allowing compensatory time 
as a substitute for overtime pay would effectively enable employers--
not their employees--to determine when compensatory time or overtime 
pay is granted, providing additional control and flexibility to 
employers without contributing to the work-family balance of employees. 
In addition, permitting the replacement of overtime pay with 
compensatory time would further undermine the Fair Labor Standards 
Act's guarantee of a fair work week by removing the financial incentive 
for employers to limit work weeks to 40 hours. As a result, employees' 
efforts to achieve work-life balance would be impeded rather than 
advanced by legislation that enables employers to avoid paying 
overtime. Guaranteeing employees paid sick time, paid family leave, and 
a right to request flexible schedules without retaliation would be more 
effective ways to help workers balance work and family life.

    Question 2. If compensatory time off in lieu of overtime pay is 
working for Federal and other government workers, why shouldn't private 
sector workers have the same option?
    Answer 2. Demos has not had an opportunity to study the extent to 
which public sector workers feel that they genuinely benefit from 
receiving compensatory time off in lieu of overtime pay. However the 
origin of this policy is clear: in 1985 Congress amended the Fair Labor 
Standards Act to substitute compensatory time as part of an effort to 
enable Federal, State, and local government employers to save money on 
overtime compensation, not to improve work-life balance for employees. 
To the extent that government employees have found compensatory time 
off to be helpful, their greater workplace bargaining power is likely 
an important part of the reason. According to the Bureau of Labor 
Statistics, approximately 35.3 percent of public sector workers are 
union members, compared to just 6.7 percent of private sector workers. 
As a result, public sector employees have much greater power to 
negotiate contracts covering their use of compensatory time and 
overtime pay than the typical private sector employee, giving public 
workers greater ability to promote the implementation of comp time 
policies that work for themselves and their families.

    Question 3. Do you believe mandated sick leave should be limited to 
full-day increments? If not, how small should the allowable time 
increments be?
    Answer 3. Guaranteed sick leave should not be limited to full-day 
increments, as work days are of different lengths and employees may 
require only a brief leave to attend a medical appointment, take a sick 
child to the doctor, or cope with an illness that develops over the 
course of a work day. In San Francisco, the American jurisdiction with 
the longest-standing legislation on paid sick leave, workers earn 1 
hour of paid leave for every 30 hours of paid work until they reach the 
maximum accrual. Leave may then be taken in increments of 1 hour, or in 
smaller increments if an employer permits this use. The Federal Family 
and Medical Leave Act also permits that leave be taken in shorter 
increments.

    Question 4. Some of the legislative proposals presented here today 
have varying levels of applicability to small employers, presumably due 
to the high cost and compliance burden they would impose on these 
employers. What do you believe is an appropriate small business 
exemption threshold?
    Answer 4. Ideally, legislation should aim to create a level playing 
field for businesses, improving standards for all workers without 
exemption. Instances where legislation would impose a 
disproportionately high burden on smaller firms should be evaluated on 
a case-by-case basis to determine the scope of any exemptions or 
variance in standards.
      Response by Lori Pelletier to Questions of Senator Alexander
    Question 1. Do you believe private sector workers should be allowed 
to request compensatory time off in lieu of overtime pay or work flex-
time schedules, i.e., 80-hour bi-weekly schedules, as a means to better 
balance work and family life?
    Answer 1. No. The notion behind overtime pay is to encourage 
employers to hire more people to work instead of over-working their 
employees. ``Comp time'' legislation would allow management to require 
overtime work without paying time-and-a-half up front, and that would 
make mandatory overtime cheaper for employers in several ways. If you 
make mandatory overtime cheaper for employers, you reduce their 
incentive to avoid overworking their employees, leading to more 
unpredictable work schedules and higher day care costs for workers. 
Employers who want to provide more flexible work schedules--like 
variable start times, or compressed schedules, or split shifts--can 
already do that. And they can give workers paid or unpaid leave 
whenever they want. Flexibility can be addressed best when workers can 
sit down with employers as equal partners at a negotiating table. 
Family life is better balanced when workplaces have collective 
bargaining agreements.

    Question 2. If compensatory time off in lieu of overtime pay is 
working for Federal and other government workers, why shouldn't private 
sector workers have the same option?
    Answer 2. Really the question should be why don't Federal 
Government workers get overtime? When they applied the overtime law to 
the public sector for the first time, they wanted to reduce the cost to 
public employers. That's why you have comp time in the public sector. 
But the public sector is very different from the private sector. Public 
employers don't operate on the profit motive, they don't go bankrupt, 
you have a lot fewer overtime violations in the public sector, and 
public employees have more protections from abuse.

    Question 3. Do you believe mandated sick leave should be limited to 
full-day increments? If not, how small should the allowable time 
increments be?
    Answer 3. When I was in the shop we could get docked .1 hour (or 6 
min) pay if we were late, or we had to leave early. In today's computer 
environment, it should be as accommodating to the employee as possible.

    Question 4. Some of the legislative proposals presented here today 
have varying levels of applicability to small employers, presumably due 
to the high cost and compliance burden they would impose on these 
employers. What do you believe is an appropriate small business 
exemption threshold?
    Answer 4. In today's computer age that number should be very 
small--like two or three, aside from the owner of the business.

    [Whereupon, at 4:23 p.m., the hearing was adjourned.]

                                   [all]
                                   
                                   
                                   

      
</pre></body></html>
